<html>
<title> - WHAT MAKES FOR SUCCESSFUL K-12 STEM EDUCATION: A CLOSER LOOK AT EFFECTIVE STEM EDUCATION APPROACHES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                     WHAT MAKES FOR SUCCESSFUL K-12
  STEM EDUCATION: A CLOSER LOOK AT EFFECTIVE STEM EDUCATION APPROACHES

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                      WEDNESDAY, OCTOBER 12, 2011

                               __________

                           Serial No. 112-42

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



       Available via the World Wide Web: http://science.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

70-588PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               GABRIELLE GIFFORDS, Arizona
W. TODD AKIN, Missouri               DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              MARCIA L. FUDGE, Ohio
MICHAEL T. McCAUL, Texas             BEN R. LUJAN, New Mexico
PAUL C. BROUN, Georgia               PAUL D. TONKO, New York
SANDY ADAMS, Florida                 JERRY McNERNEY, California
BENJAMIN QUAYLE, Arizona             JOHN P. SARBANES, Maryland
CHARLES J. ``CHUCK'' FLEISCHMANN,    TERRI A. SEWELL, Alabama
    Tennessee                        FREDERICA S. WILSON, Florida
E. SCOTT RIGELL, Virginia            HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                     HON. MO BROOKS, Alabama, Chair
ROSCOE G. BARTLETT, Maryland         DANIEL LIPINSKI, Illinois
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi       PAUL D. TONKO, New York
ANDY HARRIS, Maryland                JOHN P. SARBANES, Maryland
RANDY HULTGREN, Illinois             TERRI A. SEWELL, Alabama
LARRY BUCSHON, Indiana                   
DAN BENISHEK, Michigan                   
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas













                            C O N T E N T S

                      Wednesday, October 12, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mo Brooks, Chairman, Subcommittee on 
  Research and Science Education, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     8
    Written Statement............................................     8

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    11

                               Witnesses:

Dr. Adam Gamoran, Director, Wisconsin Center for Education 
  Research, University of Wisconsin
    Oral Statement...............................................    13
    Written Statement............................................    15

Mr. Mark Heffron, Director, Denver School for Science and 
  Technology: Stapleton High School
    Oral Statement...............................................    23
    Written Statement............................................    25

Dr. Suzanne Wilson, Chair, Department of Teacher Education, 
  Division of Science and Math, Education, Michigan State 
  University
    Oral Statement...............................................    26
    Written Statement............................................    28

Dr. Elaine Allensworth, Senior Director and Chief Research 
  Officer, Consortium on Chicago School Research, University of 
  Chicago
    Oral Statement...............................................    34
    Written Statement............................................    36

Dr. Barbara Means, Director, Center for Technology in Learning, 
  SRI International
    Oral Statement...............................................    49
    Written Statement............................................    50

Discussion
  ...............................................................    47

              Appendix: Answers to Post-Hearing Questions

Dr. Adam Gamoran, Director, Wisconsin Center for Education 
  Research, University of Wisconsin..............................    74

Mr. Mark Heffron, Director, Denver School for Science and 
  Technology: Stapleton High School..............................    76

Dr. Suzanne Wilson, Chair, Department of Teacher Education, 
  Division of Science and Math, Education, Michigan State 
  University............................................. ***MISSING***

Dr. Elaine Allensworth, Senior Director and Chief Research 
  Officer, Consortium on Chicago School Research, University of 
  Chicago........................................................    78

Dr. Barbara Means, Director, Center for Technology in Learning, 
  SRI International..............................................    80

 
                     WHAT MAKES FOR SUCCESSFUL K-12
  STEM EDUCATION: A CLOSER LOOK AT EFFECTIVE STEM EDUCATION APPROACHES

                              ----------                              


                      WEDNESDAY, OCTOBER 12, 2011

                  House of Representatives,
    Subcommittee on Research and Science Education,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mo Brooks 
[Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

             What Makes for Successful K-12 STEM Education:

          A Closer Look at Effective STEM Education Approaches

                      wednesday, october 12, 2011
                               10:00 a.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, October 12, 2011, at 10:00 a.m., the Subcommittee on 
Research and Science Education will hold a hearing to review and 
examine the findings of the National Research Council Report, 
Successful K-12 STEM Education: Identifying Effective Approaches in 
Science, Technology, Engineering, and Mathematics, as requested by 
Congress in 2009 to identify highly successful K-12 schools and 
programs in STEM.

2. Witnesses

    <bullet>  Dr. Adam Gamoran, Director, Wisconsin Center for 
Education Research, University of Wisconsin

    <bullet>  Mr. Mark Heffron, Director, Denver School for Science and 
Technology: Stapleton High School

    <bullet>  Dr. Suzanne Wilson, Chair, Department of Teacher 
Education, Division of Science and Math, Education, Michigan State 
University

    <bullet>  Dr. Elaine Allensworth, Senior Director and Chief 
Research Officer, Consortium on Chicago School Research, University of 
Chicago

    <bullet>  Dr. Barbara Means, Director, Center for Technology in 
Learning, SRI International

3. Overview

    <bullet>  In the U.S, student mastery of STEM subjects is essential 
to thrive in the 21st century economy. As other nations continue to 
gain ground in preparing their students in these critical fields, the 
U.S. must continue to explore a variety of ways to inspire future 
generations.

    <bullet>  The 2007 Rising Above the Gathering Storm report called 
for an increased emphasis on recruiting, educating, training, and 
increasing the skills of K-12 STEM education teachers and increasing 
the pipeline of American students who are prepared to enter college and 
graduate with a degree in STEM.

    <bullet>  In 2009, Congress directed the National Science 
Foundation (NSF) to survey highly successful K-12 STEM schools and 
``report recommendations on how their STEM practices might be more 
broadly replicated in the U.S. public school system.'' \1\
---------------------------------------------------------------------------
    \1\ Report to Accompany the Commerce, Justice, Science and Related 
Agencies Appropriations Act for FY 2010 (House Report 111-149).

    <bullet>  In June 2011, the National Research Council released the 
NSF-sponsored report, Successful K-12 STEM Education: Identifying 
Effective Approaches in Science, Technology, Engineering, and 
---------------------------------------------------------------------------
Mathematics.

4. Background

STEM Education and the Federal Government

    A consensus exists that improving STEM education throughout the 
Nation is a necessary condition for preserving our capacity for 
innovation and discovery and for ensuring U.S. economic strength and 
competitiveness in the international marketplace of the 21st century. 
The National Academies' Rising Above the Gathering Storm report placed 
major emphasis on the need to improve STEM education and made its top 
priority increasing the number of highly qualified STEM teachers. This 
recommendation was embraced by the House Science, Space, and Technology 
Committee following the issuance of the report and was included in the 
2007 America COMPETES Act. The 2010 America COMPETES Reauthorization 
Act continues this priority.
    Beyond activities authorized in America COMPETES, President Obama 
has called for a new effort to prepare 100,000 science, technology, 
engineering, and math (STEM) teachers with strong teaching skills and 
deep content knowledge over the next decade. As a component of 
achieving this goal, the FY 12 Budget Request proposes an investment of 
$100 million through the Department of Education and the National 
Science Foundation (NSF) to prepare effective STEM teachers for 
classrooms across America. This proposal also responds to a 
recommendation by the President's Council of Advisors on Science and 
Technology (PCAST) to prepare and inspire America's students in 
science, technology, engineering, and mathematics. \2\
---------------------------------------------------------------------------
    \2\ White House Office of Science and Technology Policy, Winning 
the Race to Educate Our Children, STEM Education in the 2012 Budget, 
p.1
---------------------------------------------------------------------------
    In addition, the FY12 Budget Request proposes $90 million for the 
creation of an Advanced Research Projects Agency--Education (ARPA-ED) 
with the mission of driving transformational improvements in education 
technology. \3\
---------------------------------------------------------------------------
    \3\ White House Office of Science and Technology Policy, Winning 
the Race to Educate Our Children, STEM Education in the 2012 Budget, 
p.1
---------------------------------------------------------------------------
    The President's new ``Educate to Innovate'' campaign leverages 
federal resources with over $700 million in private-sector resources. 
The goals of the program are to increase STEM literacy so that all 
students can learn deeply and think critically in science, math, 
engineering, and technology; move American students from the middle of 
the pack to top in the next decade; and expand STEM education and 
career opportunities for underrepresented groups, including women and 
girls.
    With specific regard to K-12 STEM education funding beyond what has 
already been identified, the FY 12 Budget Request calls for $206 
million for the Department of Education's proposed Effective Teaching 
and Learning in STEM program; a $60 million (28 percent) increase for 
NASA's K-12 education programs; $300 million for an ``Investing in 
Innovation'' program (expansion of a Department of Education American 
Reinvestment and Recovery Act program); and $185 million for a new 
Presidential Teaching Fellowship program.
    In total, the FY 12 Budget Request devotes $3.4 billion to STEM 
education programs across the Federal government. \4\ The 2010 America 
COMPETES Reauthorization Act called for the creation of a National 
Science Technology Council (NSTC) Committee on STEM Education to 
coordinate federal STEM investments. The first-year tasks of the 
Committee are to create an inventory of federal STEM education 
activities and develop a five-year strategic Federal STEM education 
plan. The inventory, as well as a similar Government Accountability 
Office (GAO) survey requested by the Committee on Education and 
Workforce, is currently underway and results are expected in early 
2012.
---------------------------------------------------------------------------
    \4\ White House Office of Science and Technology Policy, 
Innovation, Education, and Infrastructure: Science, Technology, STEM 
Education, and 21st Century Infrastructure in the 2012 Budget, p. 2.
---------------------------------------------------------------------------
    In the 112th Congress, the Science, Space, and Technology Committee 
will continue to hold oversight hearings and briefings on STEM 
education activities across the federal government and will closely 
monitor the scope and findings of both the NSTC and the GAO federal 
STEM education inventories.

The ``Successful K-12 STEM Education'' Report

    In 2009, Congress directed the National Science Foundation (NSF) to 
survey highly successful K-12 STEM schools and ``report recommendations 
on how their STEM practices might be more broadly replicated in the 
U.S. public school system.'' \5\
---------------------------------------------------------------------------
    \5\ Report to Accompany the Commerce, Justice, Science and Related 
Agencies Appropriations Act for FY 2010 (House Report 111-149).
---------------------------------------------------------------------------
    In October 2010, the National Research Council brought together a 
group of experts to explore the issue. This Committee of experts was 
charged with ``outlining criteria for identifying effective STEM 
schools and programs and identifying which of those criteria could be 
addressed with available data and research, and those where further 
work is needed to develop appropriate data sources.'' \6\ In addition, 
a public workshop was held in May 2011 to ``refine criteria for 
success, explore models of `best practice,' and analyze factors that 
evidence indicates lead to success'' in highly successful K-12 schools. 
In late June 2011, they released the NSF-sponsored report, Successful 
K-12 STEM Education: Identifying Effective Approaches in Science, 
Technology, Engineering, and Mathematics.
---------------------------------------------------------------------------
    \6\ Successful K-12 STEM Education: Identifying Effective 
Approaches in Science, Technology, Engineering, and Mathematics, 
National Research Council, 2011. (http://www.nap.edu/
catalog.php?record_id=13158) p. 1.

The report identifies three goals for successful STEM education in the 
United States \7\:
---------------------------------------------------------------------------
    \7\ Ibid, p. 4.

    1.  Expand the number of students who ultimately pursue advanced 
degrees and careers in STEM fields and broaden the participation of 
women and minorities in those fields. A number of reports directly link 
the Nation's economic competitiveness to the ability of K-12 STEM 
education to produce the next generation of scientists, engineers, and 
innovators. Given changing demographics in the U.S. and the need to 
produce more STEM-career prepared students, increasing the 
---------------------------------------------------------------------------
participation of underrepresented groups in the sciences is important.

    2.  Expand the STEM-capable workforce and broaden the participation 
of women and minorities in that workforce. In addition to preparing 
those students for advanced degrees, it is also necessary to prepare 
students for STEM-related careers, such as medical assistants and 
computer technicians. ``Sixteen of the 20 occupations with the largest 
projected growth in the next decade are STEM related, but only four of 
them require an advanced degree.'' \8\ Typically, these careers require 
vocational certification, an associate's degree, or a bachelor's 
degree.
---------------------------------------------------------------------------
    \8\ Ibid, p. 5.

    3.  Increase STEM literacy for all students, including those who do 
not pursue STEM-related careers or additional study in the STEM 
disciplines. The challenges of the science- and technology-driven 21st 
century increasingly dictates that everyone have knowledge and 
understanding of STEM concepts for personal decision making, 
---------------------------------------------------------------------------
participation in civic and cultural affairs, and economic productivity.

In order to identify what makes a successful school able to achieve one 
or all of the broad goals, the report establishes three criteria for 
success \9\:
---------------------------------------------------------------------------
    \9\ Ibid, p. 6.

    1.  Student STEM Outcomes. Since achievement test data are widely 
available and used for accountability purposes, they are most commonly 
used to gauge student and school success, but test scores do not always 
tell the whole story. It is difficult to measure interest, motivation, 
and creativity, all important for success in STEM. Likewise, utilizing 
STEM content knowledge is required in numerous settings other than 
tests, like navigating financial aid forms or working in teams, but 
currently these are not measures of success. The same can be said for 
participating in after school programs or internships, as they could 
indicate a student's engagement in a STEM activity, but they are not 
factored in as a measurement of success. Research gaps exist on student 
---------------------------------------------------------------------------
outcomes.

    2.  STEM-Focused School Types. The report acknowledges the 
difficulty in identifying schools and programs that are the most 
successful in STEM because ``success is defined in many ways and can 
occur in many different types of schools and settings, with many 
different populations of students.'' \10\ As such, three broad 
categories of STEM-focused schools are identified that have the 
potential to meet the overarching goals for U.S. STEM education: 
selective schools, inclusive schools, and schools with STEM-focused 
career and technical education (CTE).
---------------------------------------------------------------------------
    \10\  Ibid. p. 8.

       Selective STEM schools tend to be focused around one or more 
STEM disciplines and have selective admissions criteria with highly 
talented and motivated students, expert teachers, and advanced 
curricula. They can be state residential schools, stand-alone schools, 
schools-within-a-school or regional centers with half-day courses. 
Research gaps exist on the contributions of these schools over regular 
---------------------------------------------------------------------------
schools.

       Inclusive STEM schools are similar to selective STEM schools but 
have no selective admissions criteria, thereby serving a broader 
population. Many work under the auspices that ``math and science 
competencies can be developed, and that students from traditionally 
underrepresented subpopulations need access to opportunities to develop 
these competencies to become full participants in areas of economic 
growth and prosperity.'' \11\
---------------------------------------------------------------------------
    \11\ Ibid, p. 11.

       Schools and programs with STEM-focused CTE allow students to 
explore STEM-related career options by learning practical applications 
of STEM subject areas and are intended ``to prepare students for STEM-
related careers, often with the broader goal of increasing engagement 
to prevent students from dropping out of school.'' \12\ Many CTE 
programs and schools are highly regarded, but research gaps exist on 
their effectiveness.
---------------------------------------------------------------------------
    \12\  Ibid, p. 13.

       The report recognizes the contribution of comprehensive schools 
in STEM education as well, as ``much of the available research 
knowledge of effective practices comes from comprehensive schools, 
which educate the vast majority of the nation's students--including 
many talented and aspiring scientists mathematicians, and engineers who 
might not have access to selective or inclusive STEM-focused schools.'' 
\13\hese schools are not focused specifically on STEM, but cover all 
disciplines. Advanced Placement (AP) and International Baccalaureate 
(IB) programs provide advanced STEM programs in these schools.
---------------------------------------------------------------------------
    \13\  Ibid, p. 15.

    3.  STEM Instruction and School Practices. Looking at outcomes and 
focusing on practices provide schools with guidance on improving STEM 
instruction. Two themes tend to be found in successful schools, 
``instruction that captures students' interest and involves them in 
STEM practices and school conditions that support effective STEM 
instruction.'' \14\ Imperative to instruction are a coherent set of 
standards and curriculum, teachers with high capacity to teach in their 
discipline, a supportive system of assessment and accountability, 
adequate instruction time, and equal access to high-quality STEM 
learning opportunities. \15\
---------------------------------------------------------------------------
    \14\ Ibid. p. 18.
    \15\ Ibid. p. 19-22.

       At the same time, while teacher qualifications are important, 
school conditions and cultures that support learning are just as, if 
not more, important. Specifically, a successful school should have: 1) 
school leadership as the driver for change, a strategic, focused 
principal; 2) professional capacity, with quality professional 
development and an ability for faculty to work together; 3) active 
parent-community ties, to engage parents in supporting their children's 
success; 4) student-centered learning climate that is safe, welcoming, 
stimulating, and nurturing; and 5) instructional guidance when it comes 
---------------------------------------------------------------------------
to curriculum organization and instructional materials.

       A number of research gaps are identified throughout the report. 
Much research is underway, but not yet conclusive. Broadening research 
on measuring success beyond student test scores, graduation rates, and 
data on effective STEM practices could allow for a more comprehensive 
analysis of schools and K-12 STEM education. \16\
---------------------------------------------------------------------------
    \16\ Ibid, p. 26.

The report concludes with recommendations for what schools and 
districts and state and national policy makers can do to support 
effective K-12 education \17\:
---------------------------------------------------------------------------
    \17\ Ibid, p. 27.

---------------------------------------------------------------------------
      Schools and Districts:

      <bullet>  Consider all three models of STEM-focused schools if 
seeking to improve STEM outcomes beyond comprehensive schools;

      <bullet>  Devote adequate instructional time and resources to 
science in grades K-5;

      <bullet>  Ensure STEM curricula are focused on the most important 
topics in each discipline, are rigorous, and are articulated as a 
sequence of topics and performances;

      <bullet>  Enhance the capacity of K-12 teachers; and

      <bullet>  Provide instructional leaders with professional 
development that helps to create the school conditions that appear to 
support student achievement.

      State and Local Policy Makers

      <bullet>  Elevate science to the same level of importance as 
reading and mathematics and develop effective systems of assessment;

      <bullet>  Invest in a coherent, focused, and sustained set of 
support for STEM teachers; and

      <bullet>  Support key areas for future research.

    Chairman Brooks. The Subcommittee on Research and Science 
Education will come to order.
    Good morning. Welcome to today's hearing entitled, ``What 
Makes for Successful K-12 STEM Education: A Closer Look at 
Effective STEM Education Approaches. The purpose of today's 
hearing is to review and examine the findings of the National 
Academies' report, ``Successful K-12 STEM Education: 
Identifying Effective Approaches in Science, Technology, 
Engineering, and Mathematics,'' as requested in 2009 by then 
Commerce, Justice, and Science Appropriations Subcommittee 
Ranking Member Frank Wolf to identify highly successful K-12 
schools and programs in STEM. He is now the Chairman, and I am 
pleased to have him join us today and look forward to working 
with him on STEM education and other areas of the federal 
science budget that our Subcommittees share.
    At this point I would move for unanimous consent for 
Chairman Wolf to sit and participate. Having heard no 
objection, Chairman Wolf, you are permitted to sit and 
participate.
    At this point, the Chairman will give his opening 
statement. I plan to yield some of my opening statement time to 
Chairman Wolf, but before I do, let me reiterate a point from 
today's charter. Student mastery of STEM subjects is essential 
to thrive in the 21st century economy. As other nations 
continue to gain ground in preparing their students in these 
critical fields, the United States must continue to explore a 
variety of ways to inspire future generations. This report 
explores some of those ways.
    I believe the findings of this report reveal many things 
that we already know about what it takes to have a successful 
K-12 STEM school. And while research gaps continue to exist, 
getting this helpful information into the hands of state 
education departments and local school districts is important, 
because that is where real change takes place. Whether we are 
preparing students for advanced degrees in STEM or ensuring 
that young adults have the scientific and mathematic literacy 
to strive and thrive in a 21st century technology-based 
economy, the foundation for both of these begins in our K-12 
schools.
    I look forward to hearing from all of our witnesses today 
about their contributions to this report as well as their 
contributions for improving K-12 STEM education in the United 
States.
    With that, I yield the remainder of my time to Chairman 
Wolf.
    [The prepared statement of Mr. Brooks follows:]
                Prepared Statement of Chairman Mo Brooks
    Good morning, and welcome to each of our witnesses. The purpose of 
today's hearing is to review and examine the findings of the National 
Academies report, Successful K-12 STEM Education: Identifying Effective 
Approaches in Science, Technology, Engineering, and Mathematics, as 
requested in 2009 by then Commerce, Justice, and Science Appropriations 
Subcommittee Ranking Member Frank Wolf to identify highly successful K-
12 schools and programs in STEM. He is now the Chairman, and I am 
pleased to have him join us today and look forward to working with him 
on STEM education and other areas of the federal science budget that 
our Subcommittees share.
    I plan to yield some of my opening statement time to Chairman Wolf, 
but before I do, let me reiterate a point from today's charter, 
``student mastery of STEM subjects is essential to thrive in the 21st 
century economy. As other nations continue to gain ground in preparing 
their students in these critical fields, the U.S. must continue to 
explore a variety of ways to inspire future generations.'' This report 
explores some of those ways. I believe the findings of this report 
reveal many things that we already know about what it takes to have a 
successful K-12 STEM school. And while research gaps continue to exist, 
getting this helpful information into the hands of state education 
departments and local school districts is important, because that is 
where real change takes place. Whether we are preparing students for 
advanced degrees in STEM or ensuring that young adults have the 
scientific and mathematic literacy to thrive in a 21st century 
technology-based economy, the foundation for both of these begins in 
our K-12 schools. I look forward to hearing from all of witnesses today 
about their contributions to this report as well as their contributions 
for improving K-12 STEM education in the United States.
    With that, I yield the remainder of my time to Chairman Wolf.

    Mr. Wolf. I thank you, Mr. Chairman. I appreciate that. I 
will be very, very brief, and I will just be here briefly to 
listen to the panel as much as I can.
    This is important. A couple of years ago I became very 
concerned as to why young people at age fifth grade were going 
in law or whatever and not into sciences. So we put this in 
directing the National Science Foundation to do this. It really 
is an issue of the future of the country and also jobs. To give 
you some example, for instance, if you were to go outside this 
room and ask the average person what country is number one in 
space, most people would say America. But the reality is that 
China is catching up. And China has 200,000 people working on 
their space program, and we in the United States only have 
about 90 or 95,000 counting NASA employees and outside.
    And we are falling behind so dramatically, and I think if 
you can get more young people to be involved in math and 
science and physics and chemistry and biology--and if you all 
take a look at the rising storm of Norm Augustine, the report 
that we work with him--you can see that it literally is jobs, 
it is will the 21st century be the American century or will the 
21st century be the Chinese century? If it is the Chinese 
century--and keep in mind, the People's Liberation Army that 
runs the Chinese space program is the same group in China that 
executes people for their organs and sells them for 50 to 
$55,000 for a kidney, you can see--if you want to see what the 
world would be like if China is number one, the number one 
supporter of the genocide in Darfur--genocide is taking place 
in Darfur. I was the first Member to go to Darfur with Sam 
Brownback. The number one supporter is China. China is pushing, 
helping the Khartoum government with regard to genocide.
    So in order for this to be the 21st century, the American 
century, the more we have the math and science and physics and 
chemistry and biology in the STEM is very important.
    The last issue--and I would urge the Chairman and Mr. 
Lipinski to take a look at this--when the FBI comes before my 
Committee, we have gone out--and I would urge both of you to do 
it, too, to look at the briefings to see the Chinese are 
stealing so much technology. In fact, as--I think it was Mike 
Rogers the other day said there are only two kind of companies 
in America: those who have been hit with cyber attacks by the 
Chinese where they are stealing of technology, stealing jobs--
and the American companies who have been hit by the Chinese who 
don't know that they have been hit.
    And so as we are putting all of this in the top of the 
basket to create jobs and economic opportunity and math and 
science and physics and chemistry, we also have to look at how 
they are stealing from us below and taking away much of their 
gains in science have come because not--their scientific 
efforts. They are making them, but also what they have taken. 
They are hitting the Patent and Trademark Office websites. They 
are doing different things. So I would urge the Committee--I 
appreciate you doing this hearing. I would hope maybe both of 
you could take a look at this briefing where the FBI can show 
you the companies that they are hitting and that we can then 
stop this stealing by the Chinese and do what we can to make 
sure the 21st century is not the Chinese century but it is the 
American Century.
    But thank you for having these hearings.
    Chairman Brooks. Thank you, Chairman Wolf.
    At this point, the Chair recognizes Mr. Lipinski of 
Illinois for an opening statement.
    Mr. Lipinski. Thank you, Chairman Brooks. I want to thank 
you for holding this hearing, thank our witnesses for being 
here today, and especially thank Chairman Wolf for requesting 
this report. I've worked with Chairman Wolf on a number of 
issues. I share his great concern about what is happening in 
America with STEM education and echo many of his concerns about 
what China is doing right now in threatening the United States 
and our economy.
    As an engineer and an educator, STEM education is of 
particular importance and interest to me and it is one of the 
reasons I was eager to join this Committee and Subcommittee. As 
a college professor, I saw firsthand how poorly some of our 
students are prepared, especially in math. I also know how my 
own career was shaped by my early exposure to engineering 
concepts and how much I benefitted from the emphasis put on 
math and science by my teachers and parents.
    I am also focused on improving STEM education because I am 
keenly aware that our future economic competitiveness and 
prosperity depend on it. Time and again we hear about how 
poorly our students are doing on math and science tests. On the 
last National Assessment of Educational Progress, the so-called 
Nation's Report Card, nearly 80 percent of 12th graders fell 
short on science proficiency. The World Economic Forum ranked 
the U.S. 48th in math and science. Not surprisingly, this poor 
performance has resulted in fewer scientists and engineers. 
Only one-third of the undergraduate degrees earned by American 
students are in a STEM field, compared with 63 percent in Japan 
and 53 percent in China. In a global economy where so many jobs 
are based on math, science, and technology, these numbers are 
frightening.
    But there are many examples of schools and programs that 
are having great success increasing student interest and 
performance in STEM. That is why I am excited about this 
hearing and the recent NRC report on K through 12 STEM 
education. There are exemplary STEM schools like the Illinois 
Math and Science Academy and I want to learn why and how they 
work and what aspects of their success can be replicated 
broadly.
    I hope to hear from our witnesses about what we can do 
better to give students from all backgrounds access to high-
quality education and the opportunities that come with it. One 
of the most important lessons I have learned about STEM 
education policy is that one successful model is not enough to 
achieve systemic change. For one, there still remains a lot we 
don't know about what components of successful schools or 
programs have been most critical to their success. We also know 
from experience that simply copying successful schools doesn't 
work. We live in a large and diverse country and our approach 
needs to reflect that.
    I also think that is why it remains critical that we 
continue investing in education research that accounts for 
tremendous diversity of environments, infrastructure, cultures, 
laws, student populations, family situations, and other factors 
that together describe a community and a school. As I 
mentioned, one of the most important factors in my educational 
success was the involvement of my parents, especially my 
mother, so I was glad to hear that this report looked beyond 
the classroom.
    I hope to hear from our witnesses about the current state 
of research in education and about where gaps remain. The 
National Science Foundation is not represented on the panel 
today, but as some of the witnesses pointed out in their 
testimony, NSF is the premier STEM education research 
organization in the country. Along with the Institute of 
Education Sciences at the Department of Education, the NSF has 
been a leader in improving our collective understanding of how 
students learn.
    In her testimony, Dr. Means very convincingly describes why 
this is a unique federal role and she is not the only one to 
make this point. It is important that we continue to support 
this research, especially projects that focus on sustainability 
and large-scale implementation of successful education 
programs.
    Especially in these tight budget times, it is critical that 
we are spending our tax dollars on programs that work, and only 
through investing in education research will we know what 
works, what doesn't, and where we should target our limited 
resources. We know there is no silver bullet when it comes to 
addressing the STEM education challenge we face in our country. 
At the same time, with so many examples of successful models 
and programs, we have much we can look to for guidance.
    I want to thank the witnesses for being here this morning 
and I look forward to your testimony.
    [The prepared statement of Mr. Lipinski follows:]
          Prepared Statement of Ranking Member Daniel Lipinski
    Thank you Chairman Brooks for holding this hearing, and our 
witnesses for being here today. STEM education is of particular 
importance and interest to me, and is one of the reasons I was eager to 
join this Committee and Subcommittee. As a former college professor I 
saw first-hand how poorly some of our students are prepared, especially 
in math. I also know how my own career was shaped by my early exposure 
to concepts like engineering and how much I benefited from the emphasis 
put on math and science by my parents and teachers.But I am also 
focused on improving STEM education because I am keenly aware that our 
future economic competitiveness and prosperity depend on it.
    Time and time again we hear about how poorly our students are doing 
on math and science tests. On the last National Assessment of 
Educational Progress, the so-called ``nation's report card,'' nearly 80 
percent of 12th graders fell short of science proficiency. The World 
Economic Forum ranks the U.S. 48th in math and science. Not 
surprisingly, this poor performance has resulted in fewer scientists 
and engineers. Only one third of the undergraduate degrees earned by 
American students are in a STEM field, compared with 63 percent in 
Japan and 53 percent in China. In a global economy where nearly 
everything we do is based on math, science, and technology, these 
numbers are frightening.
    But there are many examples of schools and programs that are having 
great success increasing student interest and performance in STEM. 
That's why I'm excited about this hearing and the recent NRC report on 
K-12 STEM Education. There are exemplary STEM schools, like the 
Illinois Math and Science Academy, and I want to learn why and how they 
work and what aspects of their success can be replicated broadly. I 
hope to hear from our witnesses about what we can do better to give 
students from all backgrounds access to a high-quality education and 
the opportunities that come with it.
    One of the most important lessons I've learned about STEM education 
policy is that one successful model is not enough to achieve systemic 
change. For one, there still remains a lot we don't know about what 
components of successful schools or programs have been most critical to 
their success. We also know from experience that simply copying 
successful schools doesn't always work. We live in a large and diverse 
country, and our approach needs to reflect that.
    I also think that is why it remains critical that we continue 
investing in education research that accounts for the tremendous 
diversity of environments, infrastructure, cultures, laws, student 
populations, and other factors that together describe a community and a 
school. As I mentioned, one of the most important factors in my 
educational success was the involvement of my parents, especially my 
mother, so I was glad to hear that this report looked beyond the 
classroom. I hope to hear from our witnesses about the current state of 
research in education, and about where gaps remain.
    The National Science Foundation is not represented on the panel 
today, but as some of the witnesses pointed out in their testimony, NSF 
is the premier STEM education research organization in the country. 
Along with the Institute of Education Sciences at the Department of 
Education, the NSF has been a leader in improving our collective 
understanding of how students learn. In her testimony, Dr. Means very 
convincingly describes why this is a unique federal role, and she is 
not the only one to make this point. It is important that we continue 
to support this research, especially projects that focus on 
sustainability and large scale implementation of successful education 
programs. Especially in these budget times, it is critical that we are 
spending our tax dollars on programs that work, and only through 
investing in education research will we know what works, what doesn't, 
and where we should target our limited resources.
    We know there is no silver bullet when it comes to addressing the 
STEM education challenge we face in our country. At the same time, with 
so many examples of successful models and programs, we have much we can 
look to for guidance. I want to thank the witnesses for being here this 
morning and I look forward to your testimony.

    Chairman Brooks. Thank you, Mr. Lipinski.
    If there are members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time, I would like to introduce our witnesses for 
today's hearing.
    Dr. Adam Gamoran is the Director of the Wisconsin Center 
for Education Research at the University of Wisconsin- Madison. 
Dr. Gamoran chaired the National Research Council's Committee 
on Highly Successful Schools or Programs in K through 12 STEM 
Education, which produced the report we are considering today.
    Next, we have Mr. Mark Heffron. He is the Director of 
Stapleton High School at the Denver School for Science and 
Technology and includes the school featured in the report. 
After working as a structural engineer, Mr. Heffron left 
engineering to pursue a career as a math teacher. In 2010, Mr. 
Heffron became the High School Director of DSST, Stapleton 
Campus, and he is currently the Stapleton Campus Director 
leading Culture, Instruction, and Assessment of the high school 
and overseeing the operations of six through eight, Stapleton 
Middle School.
    Dr. Suzanne Wilson serves as Chair and Professor in the 
Department of Teacher Education at Michigan State University. 
Prior to joining the faculty at MSU, Dr. Wilson was the first 
Director of the Teacher Assessment Project. Dr. Wilson has 
served on several National Research Council Committees, 
including the Teacher Preparation Study and participated in the 
workshop for the report we are reviewing today.
    Next, we have Dr. Elaine Allensworth. She is Senior 
Director and Chief Research Officer at the Consortium on 
Chicago School Research at the University of Chicago. She has 
served on a number of committees for the National Academies, is 
a standing member of the Scientific Review Panel of the United 
States Department of Education, and was on the Board of the 
Illinois Education Research Council. She, too, participated in 
the workshop for this report.
    And then finally, we will have Dr. Barbara Means. She is 
the Director for the Center for Technology in Learning at SRI 
International, a Fellow of the American Educational Research 
Association. Dr. Means serves on the National Academy of 
Engineering, National Research Council Committee on Integrated 
STEM Education, and on the National Research Council's working 
Committee on Highly Successful Schools or Programs for K 
through 12 STEM Education.
    As all of our witnesses should know, spoken testimony is 
limited to five minutes each, after which the members of the 
committee will have five minutes each to ask questions.
    I now recognize our first witness, Dr. Adam Gamoran. Dr. 
Gamoran, you are recognized for five minutes.

            STATEMENT OF DR. ADAM GAMORAN, DIRECTOR,

    WISCONSIN CENTER FOR EDUCATION RESEARCH, UNIVERSITY OF 
                           WISCONSIN

    Dr. Gamoran. Chairman Brooks, Ranking Member Lipinski, 
Chairman Wolf, and other Members of the Subcommittee, thank you 
for the opportunity to discuss this report. As you indicated, 
my name is Adam Gamoran, and I chaired the committee that 
produced this report. Although I am speaking on my own behalf, 
my written statement has been endorsed by the other members of 
the committee. I am here to discuss the report and its 
implications for the federal role in K-12 STEM education.
    Both Chairman Brooks and Chairman Wolf, as well as Ranking 
Member Lipinski have already stated more eloquently than I 
could the importance of the federal role in leveraging 
excellence and fostering equity in K-12 STEM education.
    Our committee faced two major challenges. First, there has 
been little research about engineering and technology 
education. As a result, the report's findings and 
recommendations about K-12 STEM education are largely based on 
research on mathematics and science education. Second, only a 
small portion of the research addresses impact questions. 
Because students and teachers are rarely assigned at random, 
what appears to be a successful program may be one that started 
with students who were already advanced. The Committee took 
such suggestive evidence into account but took as evidence of 
success only that which distinguished between program effects 
and effects of participant selection.
    The Committee identified three goals: expanding and 
broadening participation in STEM careers, expanding and 
broadening participation in a STEM-capable workforce, and 
increasing STEM literacy for all students. We examined success 
in three areas: student outcomes, specialized STEM-focused 
schools, and the quality of STEM teaching. We found that while 
achievement tests are the most common indicator of student 
outcomes, they do not tell the whole story.
    We found that high-quality teaching and learning can occur 
in all types of schools, including specialized STEM schools and 
regular public schools. However, most research addresses 
classroom instruction. Here, there is more to say. STEM 
learning gets a boost from a coherent, focused, and rigorous 
curriculum, from teachers who are knowledgeable in their 
fields, from supportive systems of assessment, from adequate 
time for learning, and from equal access to learning 
opportunities. School conditions such as teacher learning 
communities and leadership focused on learning help support 
effective instruction.

    The Committee identified four areas that urgently require 
new research--research that links organizational and 
instructional practices to longitudinal data on student 
outcomes; research on student outcomes other than achievement; 
research on STEM programs that distinguishes program effects 
from selection effects, that identifies distinctive aspects of 
educational practices, and that measures long-term 
effectiveness; and research on effects of professional 
development for STEM teachers on student learning.
    No other entity can fill the Federal Government's role in 
supporting research on STEM education. Much of the research 
reviewed in this successful STEM report was supported by 
federal funding, mainly through the National Science Foundation 
and the U.S. Department of Education's Institute of Education 
Sciences. Funding for STEM education research should remain a 
priority despite the fiscal challenges of our times.
    Like the authors of another NRC report, ``Rising Above the 
Gathering Storm,'' I believe our Nation cannot afford to back 
away from investments in STEM education. New investments in 
research are needed to help fill critical gaps. As the primary 
sponsors of K-12 STEM education research, NSF and IES are 
staffed by professionals who rely on scientific peer review for 
funding decisions, so they are well placed for this role. 
Interagency collaboration can help ensure that ongoing research 
covers the continuum from basic insights about STEM teaching, 
learning, and leading to rigorous research on applications as 
they are tested, replicated, and implemented at scale.
    In addition to NSF and IES, numerous federal agencies have 
small roles in education research and programming. This 
scattershot approach should be reconsidered as the more 
concentrated investments at agencies where education research 
is the primary mission are likely to have higher yield.
    The Committee identified two negative consequences of the 
No Child Left Behind Act that could be addressed in new federal 
legislation. First, assessments used for accountability tend to 
be inadequate to promote deep understanding in the STEM 
domains. A system of assessments that spans the range from 
basic concepts to deep understanding could be equally well tied 
to standards and more supportive of instruction. Efforts to 
develop better math and reading assessments are currently 
underway. Similar efforts are needed in science.
    Second, NCLB's emphasis on reading and mathematics is 
squeezing out time for science instruction. Particularly at the 
elementary level, studies show that less time is being devoted 
to science perhaps because schools are not held accountable for 
science learning. Yet other research points to the importance 
of capturing students' interest at an early age. This may be 
particularly important for disadvantaged youth who have few 
opportunities for science learning in their homes and 
neighborhoods. The Committee thus recommended that science 
should be elevated to the same level of importance as 
mathematics and reading in state and federal accountability 
systems.
    Thank you.
    [The prepared statement of Dr. Gamoran follows:]
Prepared Statement of Dr. Adam Gamoran, Wisconsin Center for Education 
               Research, University of Wisconsin-Madison
    Chairman Brooks, Ranking Member Lipinski, and other Members of the 
Subcommittee, thank you for the opportunity to discuss with you the 
findings of the recent National Research Council (NRC) report on 
Successful K-12 STEM Education: Identifying Effective Approaches in 
Science, Technology, Engineering, and Mathematics. \1\ My name is Adam 
Gamoran, and I chaired the committee that produced this report. 
Although I am speaking on my own behalf, my written statement has been 
endorsed by the other members of the committee. My goals today are to 
recount and respond to questions about the findings of the report and 
the research that lies behind it, to identify gaps in our knowledge 
that limited the findings, and to discuss implications for enhancing 
the federal role in K-12 STEM (science, technology, engineering, and 
mathematics) education.
---------------------------------------------------------------------------
    \1\ National Research Council. (2011). Successful K-12 STEM 
education: Identifying effective approaches in science, technology, 
engineering, and mathematics. Committee on Highly Successful Science 
Schools or Programs for K-12 STEM Education. Washington, DC: National 
Academies Press. Available at: http://www.nap.edu/
catalog.php?record_id=13158
---------------------------------------------------------------------------
    My testimony is based not only on my role as chair of this 
committee, but also on my experience in education research over a 
career of 27 years at the University of Wisconsin-Madison, in which I 
have focused on efforts to improve performance and reduce learning gaps 
in U.S. schools from early education to the postsecondary level. I have 
served on a variety of national panels and am currently a member of the 
NRC Board on Science Education. I also chair the Independent Advisory 
Panel of the National Assessment of Career and Technical Education for 
the U.S. Department of Education, and I am an appointed member of the 
National Board for Education Sciences.
    Although education in the U.S. is primarily a state and local 
responsibility, the quality of K-12 STEM education is a matter of 
pressing national interest; indeed it is a national security issue, as 
expressed a decade ago by the U.S. Commission on National Security in 
the 21st Century. \2\ Consequently it is both appropriate and necessary 
that the federal government play a role in leveraging excellence and 
fostering equity in K-12 STEM education across the country.
---------------------------------------------------------------------------
    \2\ United States Commission on National Security in the 21st 
Century. (2001). Road map for national security: Imperative for change. 
Washington, DC: U.S. Commission on National Security in the 21st 
Century. Available at: http://govinfo.library.unt.edu/nssg/
PhaseIIIFR.pdf

Challenges Faced by the Committee

    The Committee on Highly Successful Schools or Programs for K-12 
STEM Education faced two major challenges as we pursued our work over a 
very short and intensive time frame (October 2010 to June 2011). First, 
we quickly learned that knowledge about successful K-12 STEM education 
is unevenly distributed across the STEM domains: research on 
mathematics education is more extensive than that on science education, 
particularly when addressing the effects of particular schools and 
programs, and there has simply been very little research about K-12 
education in engineering and technology, because these subjects are 
less often taught at the K-12 level. Regarding the effects of K-12 
engineering education on learning, another NRC panel concluded in 2009 
that ``the limited amount of reliable data does not provide a basis for 
unqualified claims of impact.'' \3\ That is still the case. As a 
result, our Committee's findings and recommendations about K-12 STEM 
education are largely based on research on mathematics and science 
education. Moreover, as I will note below, the research on school and 
program success focuses mainly on a narrow set of achievement outcomes 
and yields little evidence on other types of outcomes such as interest, 
motivation, and participation. This, too, constrained the ability of 
the Committee to identify areas of success.
---------------------------------------------------------------------------
    \3\ Katehi, L., Pearson, G., & Feder, M., Editors. (2009). 
Engineering in K-12 education: Understanding the status and improving 
the prospects. Committee on K-12 Engineering Education. Washington, DC: 
National Academies Press, p. 154.
---------------------------------------------------------------------------
    The second major challenge was that a relatively small portion of 
the research on K-12 STEM education addresses questions about the 
impact of STEM-focused schools and programs. Commonly, studies do not 
use designs that allow them to distinguish the effects of schools or 
programs from the effects of who participates and who does not. Because 
students and teachers are rarely assigned at random, what appears to be 
a successful program may be one that started with students who were 
already advanced before they enrolled. (Similarly, if a program appears 
ineffective, the lack of apparent effects may also reflect selection 
patterns.) This is the fundamental challenge of all research on school, 
program, and teacher effects. Research designs to address this 
challenge are available--experimental or rigorous quasi-experimental 
designs--but they have only recently begun to be widely employed. Using 
an experimental design in some of my own research, I recently 
identified a professional development program in elementary science 
education that was unsuccessful at raising student achievement. \4\ 
Without a rigorous design, we might have been misled about the effects 
of the program. While negative findings are hardly glamorous, they are 
a crucial part of advancing knowledge.
---------------------------------------------------------------------------
    \4\ Borman, G. D., Gamoran, A., & Bowdon, J. (2008). A randomized 
trial of teacher development in elementary science: First-year effects. 
Journal of Research on Educational Effectiveness, 1, 237-264.
---------------------------------------------------------------------------
    Because of this challenge, the Committee considered evidence to be 
merely suggestive if it pointed to conditions associated with success, 
but did not reveal whether success resulted from the qualities of the 
program or the characteristics of participants. We took as evidence of 
success only findings that ``resulted from research studies that were 
designed to support causal conclusions by distinguishing the 
effectiveness of schools from the characteristics of students attending 
them'' (p.1).

Background to Findings of the Successful STEM Report:

Goals of K-12 STEM Education

    Our Committee was charged with ``outlining criteria for identifying 
effective STEM schools and programs and identifying which of those 
criteria could be addressed with available data and research, and those 
where further work is needed to develop appropriate data sources'' 
(p.1). It was immediately clear that the charge could be met only if we 
first answered the question, ``Effective for what?'' Before answering 
questions about criteria of success, we first needed to identify the 
goals against which success could be measured. We focused on three 
goals:

    <bullet>  Goal 1: Expand the number of students who ultimately 
pursue advanced degrees and careers in STEM fields, and broaden the 
participation of women and minorities in those fields.

    This goal is about nurturing our top talent to advance scientific 
discovery and leadership. It is also about ensuring that persons from 
underrepresented groups have the opportunity to take advantage of their 
talents to make scientific contributions.

    <bullet>  Goal 2: Expand the STEM-capable workforce and broaden the 
participation of women and minorities in that workforce.

    A growing number of jobs--not just those in professional science--
require knowledge of STEM fields. Schools and programs are needed that 
prepare young people for a wide range of careers that benefit from such 
expertise.

    <bullet>  Goal 3: Increase STEM literacy for all students, 
including those who do not pursue STEM-related careers or additional 
study in the STEM disciplines.

    As a nation, our goals extend beyond having a capable and 
competitive work force. We also need to help all students become 
scientifically literate. Our citizens are increasingly facing decisions 
related to science and technology, from understanding a medical 
diagnosis to weighing competing claims about the environment, and 
successful STEM education must address this aim as well.
    With these goals in mind, the Committee examined success in three 
areas: (1) student outcomes; (2) specialized STEM schools and programs; 
and (3) effective classroom instruction in STEM fields. We also 
assessed the research on school conditions that support effective 
instruction.

Findings about Student Outcomes

    Student achievement test scores are the measures most commonly used 
to gauge success, regardless of the goals of a particular school or 
program. But test scores do not reveal all we need to know about 
success. For example, the Committee learned about the Thomas Jefferson 
High School of Science and Technology, a highly selective magnet school 
in Alexandria, VA. This school's mission is to ``provide students a 
challenging learning environment focused on math, science, and 
technology, to inspire joy at the prospect of discovery, and to foster 
a culture of innovation based on ethical behavior and the shared 
interests of humanity'' (p. 6). A narrow focus on test scores does not 
begin to tell the story of whether such schools are successful.
    Assessing a school's success relative to its full set of goals 
requires using additional criteria. For example, entry into STEM-
related majors and careers and making good choices as citizens and 
consumers also require applying and using STEM content knowledge. Other 
indicators of student engagement include participation in formal STEM 
courses in middle and high school, and other kinds of STEM educational 
activities such as visits to museums, participation in after-school 
clubs or programs, internships, and research experiences.

Findings about Specialized STEM Schools and Programs

    A major question for the Committee was whether certain types of 
specialized STEM-focused schools are especially successful at advancing 
the goals of U.S. STEM education. We identified three type of STEM-
focused schools: selective STEM schools, inclusive STEM schools, and 
schools with STEM-focused career and technical education (CTE). Each 
type of school has strengths and weaknesses and poses a unique set of 
challenges associated with implementation.
    As I explained at the outset, identifying schools and programs that 
are most successful in the STEM disciplines is not a simple matter, 
because it is difficult to determine the extent to which a school's 
success results from any actions the school takes, or the extent to 
which it is related to which students are enrolled in the school. 
Moreover, specialized models of STEM schools are difficult to replicate 
on a larger scale. That's because the context in which a school is 
located may facilitate or constrain its success. Specialized STEM 
schools often benefit from a high level of resources, a highly 
motivated student body, and freedom from state testing requirements.
    Selective STEM schools are organized around one or more of the STEM 
disciplines and have selective admissions criteria. Typically, these 
are high schools that enroll relatively small numbers of highly 
talented and motivated students with a demonstrated interest in and 
aptitude for STEM. The Committee identified four types of selective 
STEM schools: state residential schools; stand-alone schools; schools-
within-schools; and regional centers with specialized half-day courses. 
All of these selective STEM schools seek to provide a high-quality 
education that prepares students to earn STEM degrees and succeed in 
professional STEM careers.
    There are approximately 90 selective STEM specialty high schools in 
the United States. Examples include Thomas Jefferson High School of 
Science and Technology, a stand-alone school in Virginia; the North 
Carolina School of Science and Mathematics, a residential school for 
grades 11-12; the Illinois Mathematics and Science Academy, a 
residential high school; and Brooklyn Technical High School, a stand-
alone school. At the time of the report, no completed study provided a 
rigorous analysis of the contributions that selective schools make over 
and above regular schools. The Committee identified one such study that 
was, and still is, under way. \5\ Preliminary results from that study 
show that when compared with national samples of high school graduates 
with ability and interest in STEM subjects, the research experiences of 
students who graduate from selective schools appear to be associated 
with their choice to pursue and complete a STEM major.
---------------------------------------------------------------------------
    \5\ Subotnik, R. F., & Tai, R. H. (2011). Successful education in 
the STEM disciplines: An examination of selective specialized science, 
mathematics, and technology-focused high schools. Background paper 
presented at the NRC Workshop on Successful STEM Education in K-12 
Schools. Washington, DC: National Research Council.
---------------------------------------------------------------------------
    Since the Successful STEM report was completed, another research 
study has used a rigorous quasi-experimental design to assess the 
impact of three selective STEM-focused schools in New York City. \6\ 
Students enrolled in the selective STEM schools took more advanced 
courses and were more likely to graduate from high school. One of the 
three schools produced higher SAT mathematics scores compared to non-
specialized, non-selective high schools, but the other two did not, and 
there were no benefits for rates of college enrollment or graduation. 
It should be clear that research on this topic is just beginning to 
emerge with designs that allow one to distinguish the effects of 
selective STEM-focused schools from the effects of who attends such 
schools.
---------------------------------------------------------------------------
    \6\ Dobbie, W., & Fryer, W. G. (2011). Exam high schools and 
academic achievement: Evidence from New York City. NBER Working Paper 
17286. Cambridge, MA: National Bureau of Economic Research.
---------------------------------------------------------------------------
    Inclusive STEM schools emphasize one or more of the STEM 
disciplines but do not have selective admissions criteria. These 
schools seek to provide experiences that are similar to those at 
selective STEM schools, while serving a broader population. Examples 
include High Tech High, a set of schools in southern California; Manor 
New Technology High School in Texas; the Denver School for Science and 
Technology in Colorado for grades 6-12; and Oakcliff Elementary School 
in Georgia.
    Insights from inclusive STEM schools come from an ongoing study of 
high school reform in Texas. \7\ Early findings suggest that students 
in that state's 51 inclusive STEM schools score slightly higher on the 
state mathematics and science achievement tests, are less likely to be 
absent from school, and take more advanced courses than their peers in 
comparison schools. The schools in the Texas study are new, having 
opened in 2006-2007 or later. They have achieved these gains within 
their first three years of operation. Five factors that appear to have 
helped the schools include (1) a STEM school blueprint that helps to 
guide school planning and implementation, (2) a college preparatory 
curriculum and an explicit focus on college readiness for all students, 
(3) strong academic supports, (4) small school size, and (5) strong 
support from their district or charter management organization.
---------------------------------------------------------------------------
    \7\ Young, V. M., House, A., Wang, H., Singleton, C., & 
Klopfenstein, K. (2011). Inclusive STEM schools: Early promise in Texas 
and unanswered questions. Background paper presented at the NRC 
Workshop on Successful STEM Education in K-12 Schools. Washington, DC: 
National Research Council.
---------------------------------------------------------------------------
    STEM-related career and technical education (CTE) serves mainly 
high school students. It can take place in regional centers, CTE-
focused high schools, programs in comprehensive high schools, and 
career academies. An important goal of STEM-focused CTE is to prepare 
students for STEM-related careers, often with the broader goal of 
increasing engagement to prevent students from dropping out of school. 
Students explore STEM-related career options and learn the practical 
applications of STEM subjects through the wide range of CTE delivery 
mechanisms. Examples include Loudoun Governor's Career and Technical 
Academy, a high school in Virginia; Sussex Technical High School in 
Delaware; and Los Altos Academy of Engineering, a high school in 
California. There are many examples of highly regarded CTE schools and 
programs, but there is little research that would support conclusions 
about the effectiveness of the programs. One rigorous study of 
instruction that integrated mathematics content into CTE found benefits 
for student mathematics achievement, suggesting that CTE and academic 
achievement need not be in conflict. \8\ A similar study is under way 
to examine the integration of science content into CTE.
---------------------------------------------------------------------------
    \8\ Stone, J. R., III, Alfeld, C., & Pearson, D. (2008). Rigor and 
relevance: Testing a model of enhanced math learning in career and 
technical education. American Educational Research Journal, 45, 767-
795.
---------------------------------------------------------------------------
    The limited research base on these three school types hampered the 
Committee's ability to compare their effectiveness relative to each 
other, and for different student populations, or to identify the value 
these schools add, over and above non-STEM focused schools. However, 
the available studies suggest some potentially promising--if 
preliminary and qualified--findings associated for each school type.
    The Committee further noted that high levels of STEM learning can 
also occur in non-STEM focused schools. Much of what we know from 
research about effective practices comes from comprehensive public 
schools, which educate the vast majority of our students including many 
talented students aspiring to STEM careers. At the high school level, 
Advanced Placement and International Baccalaureate are the most widely 
recognized programs of advanced study in science and mathematics.

Findings about Effective Classroom Instruction in STEM Fields

    One way to think about the Committee's charge is that a successful 
school is one in which effective instructional practices are 
implemented widely throughout the school. An advantage to a focus on 
practices is that it provides schools with concrete guidance for 
improving the quality of STEM instruction and, presumably, of STEM 
learning. Another reason for reporting on instruction is that the 
evidence on effective practices tends to be stronger than the evidence 
on school types. The Committee examined two key aspects of practice 
that are likely to be found in successful schools: instruction that 
captures students' interest and involves them in STEM activities, and 
school conditions that support effective STEM instruction.
    Effective STEM instruction capitalizes on students' early interest 
and experiences, identifies and builds on what students already know, 
and provides students with experiences to engage them in the practices 
of science and sustain their interest. Effective teachers use what they 
know about students' understanding to help students apply these 
practices. In this way, students successively deepen their 
understanding both of core ideas in the STEM fields and of concepts 
that are shared across areas of science, mathematics, and engineering. 
Students also engage with fundamental questions about the material and 
natural worlds and gain experience in the ways in which scientists have 
investigated and found answers to those questions.
    For this type of K-12 STEM instruction to become the norm, further 
transformation is needed at the national, state, and local levels. The 
Committee identified five key elements that may guide educators and 
policy makers in that direction.

    Key element 1: A coherent set of standards and curriculum. The 
research shows a clear link between what students are expected to learn 
and mathematics achievement: At a given grade level, greater 
achievement is associated with covering fewer topics in greater depth. 
Some evidence suggests that adopting rigorous standards and aligning 
curriculum and assessments to those standards can lead to gains in 
student achievement.
    The data support the hypothesis that there is a relationship 
between standards and achievement-- that content coverage led by 
coherent, focused, and rigorous standards, and properly implemented by 
teachers, can improve student outcomes in mathematics. My own research 
has supported this claim in the area of mathematics instruction. \9\
---------------------------------------------------------------------------
    \9\ Gamoran, A., Porter, A. C., Smithson, J., & White, P. A. 
(1997). Upgrading high school mathematics instruction: Improving 
learning opportunities for low-income, low-achieving youth. Educational 
Evaluation and Policy Analysis, 19, 325-338; Gamoran, A. (2001). Beyond 
curriculum wars: Content and understanding in mathematics. Pp. 134-162 
in T. Loveless (Ed.), The great curriculum debate: How should we teach 
reading and math? Washington, DC: Brookings Institution Press.

    Key element 2: Teachers with high capacity to teach in their 
discipline. To be effective, teachers need content knowledge and they 
need expertise in teaching that content. But the research suggests that 
many science and mathematics teachers are underprepared for these 
demands. For example, in both middle and high schools, many teachers 
who teach science and mathematics courses are not certified in those 
subjects and did not major in a related field in college. Estimates of 
the number of out-of-field science and mathematics teachers in 
secondary school are between 10 and 20 percent. Moreover, a recent 
survey of university teacher preparation programs found that future 
elementary teachers were required to take, on average, only two 
mathematics courses.
    Professional development for teachers in STEM is often short, 
fragmented, ineffective, and not designed to address the specific need 
of individual teachers. Instead, teacher development should occur 
across a continuum that ranges from initial preparation to induction 
into the practice of teaching, and then to systematic, needs-based 
professional development, including on-site professional support that 
allows for interaction and collaboration with colleagues.

    Key element 3: A supportive system of assessment and 
accountability. Current assessments limit teachers' ability to teach in 
ways that are known to promote learning of scientific and mathematical 
content and practices. For example, since implementation of the No 
Child Left Behind (NCLB) Act, surveys of teachers indicate a shift in 
mathematics instruction away from complex performance assessments 
toward multiple-choice items, and researchers have argued that this 
shift leads teachers to teach a narrow curriculum focused on basic 
skills.
    In a supportive system of standards-based science assessment, 
curriculum, instruction, and assessment are aligned with the standards, 
target the same goals for learning, and work together to support 
students' developing science literacy. The classroom, school, school 
district, and state all share a vision of the goals for science 
education, the purposes and uses of assessment, and of what constitutes 
competent performance. The system takes into account how students' 
science understanding develops over time and the scientific content 
knowledge, abilities, and understanding that are needed for learning to 
progress at each stage of the process. \10\
---------------------------------------------------------------------------
    \10\ For more on this vision of science assessment, see: National 
Research Council. (2006). Systems for state science assessment. 
Washington, DC: National Academies Press.
---------------------------------------------------------------------------
    A supportive accountability system focuses on teacher practices as 
well as on student outcomes. For example at the Illinois Mathematics 
and Science Academy, teachers' use of science inquiry practices are 
monitored with student surveys, classroom observations, and external 
reviews.

    Key element 4: Adequate instructional time. The NCLB Act has also 
changed the time allotted for science, technology, engineering, and 
mathematics instruction in the K-12 curriculum. Particularly in 
elementary school, instruction emphasizes mathematics and English 
language arts because those subjects are tested annually under the 
current accountability system. Meanwhile, surveys of districts, 
schools, and teachers are reporting diminished instructional time for 
science in elementary schools. The decrease in time for science 
education is a particular concern because some research suggests that 
interest in science careers may develop in the elementary school years.

    Key element 5: Equal access to high-quality STEM learning 
opportunities. Many factors contribute to students having unequal 
access, including poverty, but we focused on structural inequalities 
that states, schools, and districts have the potential to address. For 
example, disparities in teacher expectations and other school and 
classroom-level factors, such as access to adequate laboratory 
facilities, resources, and supplies, contribute to gaps in science 
achievement for underrepresented groups. Similar structural inequities 
hinder the mathematics learning of underrepresented minorities and low-
income students, such as disparities in access to well-trained or 
credentialed teachers, less rigorous educational courses, and ability 
tracking in the early grades. In mathematics, these inequalities can 
have cumulative effects as students progress through grades K-12 
because mathematics is a gatekeeper to academic opportunity. Policies 
to ensure that well-prepared teachers are placed in all classrooms can 
redress the imbalance in students' access to qualified teachers.

Findings about School Conditions that Support Effective Instruction

    Strong teachers and focused, rigorous, and coherent curricula are 
certainly important factors to improve student learning in STEM. 
However, school and community conditions also affect what is taught, 
how it is taught, and with which results. A variety of studies 
highlight the value of teacher learning communities as a source of 
improvement in teacher and student learning. In a study of 200 low-
performing elementary schools in Chicago, no schools with a poor 
learning climate and weak professional community substantially improved 
math or reading scores. However, about half of schools with a well-
aligned curriculum and a strong professional community among teachers 
substantially improved math and reading achievement. \11\ The 
elementary schools that improved student learning in mathematics and 
reading shared five common elements, as summarized in the Successful 
STEM report (p.24):
---------------------------------------------------------------------------
    \11\ Bryk, A. S., Sebring, P. B., Allensworth, E., Luppescu, S., & 
Easton, J. (2010). Organizing schools for improvement: Lessons from 
Chicago. Chicago: University of Chicago Press.

    1.  School leadership as the driver for change. Principals must be 
strategic, focused on instruction, and inclusive of others in the 
---------------------------------------------------------------------------
leadership work.

    2.  Professional capacity, or the quality of the faculty and staff 
recruited to the school, their base beliefs and values about change, 
the quality of ongoing professional development, and the capacity of a 
staff to work together.

    3.  Parent-community ties that involve active outreach to make 
school a welcoming place for parents, engage them in supporting their 
children's academic success, and strengthen connections to other local 
institutions.

    4.  Student-centered learning climate. Such a climate is safe, 
welcoming, stimulating and nurturing environment focused on learning 
for all students.

    5.  Instructional guidance that is focused on the organization of 
the curriculum, the nature of academic demand or challenges it poses, 
and the tools teachers have to advance learning (such as instructional 
materials).

    The strength of these supports varied within and across elementary 
schools in Chicago: Some schools were strong along all dimensions, and 
some were stronger in some dimensions than in others. Although not all 
of these supports need to be strong for schools to succeed, schools 
that were weak on all of these dimensions showed no gains in 
achievement.

Gaps in Our Knowledge about Successful K-12 STEM Education

    Careful assessment of existing research is valuable not only 
because of the findings it reveals, but also because it helps identify 
gaps in our knowledge that need to be filled before we can fully answer 
questions about highly successful STEM schools and programs. The 
Committee identified four major areas that urgently require new 
research.

<bullet>  Research that links organizational and instructional 
practices to longitudinal data on student outcomes.

    State longitudinal data systems now permit researchers and policy 
makers to monitor student achievement trends over times and across 
schools and classrooms. Yet too little is known about the conditions 
under which achievement differences are produced. We need more research 
like the Chicago study that linked school conditions and instructional 
practices to student outcomes. Work of this sort is currently under way 
at the National Center for Scaling Up Effective Schools at Vanderbilt 
University. This type of work is especially critical because successful 
implementation of STEM programs may depend on contextual factors such 
as leadership and professional supports.

<bullet>  Research on student outcomes other than achievement

    While we know too little about conditions that elevate achievement 
and reduce achievement gaps, we know even less about other outcomes of 
STEM education. A successful school or program is one that not only 
promotes cognitive growth but also stimulates interest, entices 
students with the allure of scientific discovery, provides 
opportunities for inquiry and research, and motivates students to 
engage in scientific pursuits. Few studies investigate these outcomes 
using designs that permit one to discern school or program effects.

<bullet>  Research on STEM programs and schools that allows one to 
distinguish school effects from effects of student characteristics; 
that identifies distinctive aspects of educational practices; and that 
measures long-term effectiveness relative to goals.

    As noted earlier, a shortage of studies that permit conclusions 
about cause and effect was one of the major challenges faced by the 
Committee. More such studies are needed to allow firm conclusions about 
successful schools and programs. At the same time, studies that adopt 
experimental designs often take a ``black box'' approach by not 
investigating what is occurring inside the school or classroom, and 
this limits the information one can draw, especially if the program is 
not as effective as expected. Studies are needed that not only identify 
program effects, but reveal how those effects emerge. Moreover, 
research grant funding cycles mean there is an unfortunate tendency to 
focus on short-term outcomes of a year or two (or even less). Effective 
programs, however, often take five years to reach a high level of 
success. Many programs deemed ineffective may not have been sustained 
or studied for long enough to have the chance to succeed. Consequently, 
research with a longer horizon is also needed.

<bullet>  Research on effects of professional development for STEM 
teachers and of school culture for student learning

    The Committee noted that an emerging consensus among researchers 
has identified characteristics of effective professional development. 
Yet these characteristics have yet to be confirmed with research 
designed to measure impact. This is regarded as an extremely important 
area of research because teacher quality is a major source of variation 
in student achievement. Professional development that elevates the 
quality of teaching is one potential strategy to enhance STEM learning 
and reduce learning gaps. Research is also urgently needed on which 
aspects of school culture contribute to STEM learning, especially in 
schools that serve high proportions of students who are 
underrepresented in the STEM fields, such as low-income and minority 
students.

Implications of the Successful STEM Report for the

Federal Role in K-12 STEM Education

    In my judgment, the federal government plays two essential roles in 
K-12 STEM education: leveraging excellence and fostering equity. 
Leverage for excellence occurs when the government sponsors research 
that yields new understandings of how children learn in the STEM 
domains, how teachers can teach more effectively, and how schools and 
districts can better support effective teaching. It also occurs when 
the federal government sponsors programs to train outstanding new 
teachers and leaders for U.S. schools. These programs also foster 
equity when they focus on improving conditions for students from 
disadvantaged backgrounds. The federal government also helps foster 
equity by holding states, schools, and districts accountable for 
providing equal educational opportunities for students of all 
backgrounds.

Federal Support for STEM Education Research

    No other entity can fill the federal government's key role in 
supporting research on STEM education. Much of the research reviewed in 
the Successful STEM report was supported by federal funding, mainly 
through the National Science Foundation (NSF) and the U.S. Department 
of Education's Institute of Education Sciences. The Successful STEM 
report shows that while much has been learned, the gaps in our 
knowledge remain wide.
    Funding for STEM education research should remain a priority 
despite the fiscal challenges of our times. Like the authors of another 
NRC report, Rising Above the Gathering Storm, I believe our nation 
cannot afford to back away from investments in STEM education that are 
crucial for our long-term economic and social prosperity. The Education 
and Human Resources Directorate (EHR) at NSF and the Institute of 
Education Sciences at the Department of Education are the primary 
sponsors of STEM education research; the professional expertise of 
their staffs and their engagement with the research community including 
reliance on scientific peer review for funding decisions have 
positioned them well for this role.
    A challenge for NSF funding of STEM education research is that 
recent laudable funding for developing STEM teachers and leaders has 
come at the expense of funding for research. Both are important, and 
indeed the Successful STEM report encourages federal investment in ``a 
coherent, focused, and sustained set of supports for STEM teachers'' 
(p.28). Yet these supports should complement rather than compete with 
funding for research-based innovations that can have wide and long-
lasting implications. Moreover, the Committee urged that ``federal 
funding for STEM-focused schools should be tied to a robust, strategic 
research agenda'' (p.28), so that the questions put to the Committee 
can be fully addressed in the future.
    The Committee recommended federal support for ``research that 
disentangles the effects of school practice from student selection, 
recognizes the importance of contextual variables, and allows for 
longitudinal assessment of student outcomes'' (p.28). It is important 
that NSF continue to fund basic as well as applied research in STEM 
education. While rigorous impact studies are essential, they cannot be 
the only focus of education research because there is still much to 
learn about basic questions such as how teachers and students learn, 
what motivates learners, and what conditions support the development of 
high-quality teachers. Particularly in light of the applied research 
mission of the Institute of Education Sciences (IES), it is important 
that NSF continue to support research that addresses more basic 
questions about fundamental processes that lie behind teaching and 
learning. Indeed, collaboration between IES at the Department of 
Education and EHR at NSF can help ensure that ongoing research covers 
the continuum from basic insights about STEM teaching, learning, and 
leading to research on applications as they are tested, replicated, and 
implemented at scale.
    In addition to NSF and IES, numerous federal agencies have small 
roles in education research and programming. This scattershot approach 
should be reconsidered as the more concentrated investments at agencies 
where education research is the primary mission are likely to have 
higher yield.

Federal Support for Equal Opportunity

    With the passage of the No Child Left Behind (NCLB) Act of 2001, 
the federal government greatly expanded its role in holding states, 
districts, and schools accountable for student performance. NCLB has 
galvanized the attention of educators and the public towards elevating 
achievement, and has highlighted the pervasive inequalities in 
achievement in U.S. education. Yet the Committee identified two major 
negative consequences of NCLB that could be addressed in new federal 
legislation.
    First, the assessments used for accountability tend to be 
inadequate to promote deep understanding in the STEM domains. In 
mathematics, now tested in all states every year in grades 3-8, 
assessments commonly used for accountability focus on fragmented bits 
of information instead of more meaningful knowledge. By contrast, a 
system of assessments that spans the range from basic concepts to deep 
understanding could be equally well tied to standards and more 
supportive of instruction. Efforts to develop such assessments are 
currently under way in two multistate consortia supported by 
substantial federal funding. Similar efforts are needed in science. The 
National Research Council recently developed a new and generally 
acclaimed conceptual framework for 21st century science education 
standards. \12\ Currently, over 20 states have signed onto an 
initiative by Achieve, Inc. to develop new standards. When the 
standards are complete, a major federal investment will be needed to 
develop assessments that align with the standards, so that student 
performance can be benchmarked to the new standards and student growth 
monitored over time.
---------------------------------------------------------------------------
    \12\ National Research Council. (2011). A framework for K-12 
science education: Practices, crosscutting concepts, and core ideas. 
Washington, DC: National Academies Press.
---------------------------------------------------------------------------
    Second, the Committee learned that NCLB's emphasis on reading and 
mathematics is squeezing out time for science instruction. Particularly 
at the elementary level, studies show that less time is being devoted 
to science, presumably because it is not a subject for which schools 
are held accountable. Yet other research points to the importance of 
capturing students' interest in science at an early age. This may be 
particularly important for disadvantaged youth who have fewer 
opportunities for science learning in their homes and neighborhoods. 
The Committee thus recommended that science should be elevated to the 
same level of importance as mathematics and reading in federal and 
state accountability systems. Science should be tested with the same 
frequency as mathematics and reading using assessments that support 
learning and understanding.
    A major source of educational inequality in the U.S. is that which 
lies between states. While the federal government cannot compel states 
to adopt high standards, it can provide incentives that encourage 
states to promote high levels of STEM learning and to equalize 
opportunities for learning among students from all backgrounds.

    Chairman Brooks. Thank you, Dr. Gamoran.
    Next, we have Mr. Heffron. You may begin your five minutes.

            STATEMENT OF MR. MARK HEFFRON, DIRECTOR,

DENVER SCHOOL FOR SCIENCE AND TECHNOLOGY: STAPLETON HIGH SCHOOL

    Mr. Heffron. Thank you, Chairman Brooks and members of the 
committee, for the opportunity to testify on this critical 
topic facing our Nation. I applaud the foresight of the 
Committee to commission the National Academy study on 
successful K-12 STEM models in the country seeking to find what 
works.
    I serve as the Campus Director of a 6-12 STEM school in 
Denver, DSST's Public Schools network of charter schools. DSST 
Public Schools currently operates five STEM open-enrollment 
charter schools, three middle school and two high schools, 
serving 1,500 students in Denver. Because we are a charter 
school, all of our students enroll through a non-selective, 
random lottery. As a result, our student body is diverse. Fifty 
percent of our students are low income and 70 percent are 
minorities. This is roughly half African American and half 
Hispanic. Our schools truly represent a cross-section of 
Denver, the city we serve.
    DSST Public Schools operate some of the most successful 
public schools in Colorado. Last year, our schools operated the 
highest-performing middle school and high school in Denver. We 
are most proud, though, of our measures that show growth, 
meaning how much did a student learn from the first day of 
school to the last day of school? Within the State of Colorado, 
our schools showed some of the highest growth numbers of all 
public schools, according to the Colorado Model on State CSAP 
tests. And at DSST Stapleton High School, the school I lead, 
all of our four senior classes in the school's history have 
earned acceptance to four-year colleges. All of our students 
are prepared to study STEM fields of study in college, and we 
estimate that 40 percent of our students are choosing to do so.
    Most importantly, DSST proves without a doubt that all 
students, regardless of race or income, can earn a rigorous 
STEM high school diploma and attend a four-year college or 
university. Preparing every student to succeed in a four-year 
college with the opportunity to study STEM is at the center of 
our academic program, which is centered on three pillars.
    First, our schools are built on the premise that all 
students deserve access to a high-quality STEM education. A 
majority of DSST students enter well below grade level in the 
sixth and ninth grades and could never test into a magnet 
science program. Many students are conditioned to believe that 
science and advanced math is an extra and only for smart kids. 
In our schools, these subjects are not extras but core subjects 
that all students are required to take. All students have 
access to STEM college preparatory curriculum.
    Our second key belief is that schools must provide a 
rigorous STEM preparatory curriculum. We believe that the most 
important factor in a student choosing and ultimately 
completing a STEM degree is their preparedness to succeed at 
college and the graduate level. Regardless of their starting 
point at DSST, all students are expected to pass three years of 
integrated science in middle school and more than five years in 
high school. Many students choose more than that.
    Students take algebra-based high school physics in the 
ninth grade. This provides students with a lab-based class to 
practice, apply, and synthesize the math skills they are 
learning elsewhere. All ninth grade students also take 
``Creative Engineering'' where they learn the design process, 
how to conduct basic research, how to maximize and minimize 
constraints, and are hooked into engineering and sciences as 
careers that improve the human condition.
    Students complete their high school requirements by taking 
a college-level physics class coupled with an engineering 
course or a college level biochemistry class coupled with a 
bio-technology class. Math is also a critical component. All 
students take four years and must successfully complete pre-
calculus to graduate.
    Lastly, we believe that the success of any school must be 
rooted in a strong school culture that focuses on building 
character and creating an accountable environment that expects 
all students to be college-ready. Students are challenged and 
supported in our schools. A peer-driven culture is reflected in 
each of our schools where going to college is cool and 
expected.
    In sum, we agree with the recommendations of the National 
Academy's Report. However, I would like to highlight four 
recommendations for further consideration by this committee: 
First, while we agree that there is a clear need to create more 
STEM schools, we urge this committee to stress the creation of 
open-enrollment, access for all STEM schools. Only through 
these schools will we tap into the potential of all children in 
our country to create new labor markets for our STEM fields.
    Second, we must create rigorous STEM schools that go beyond 
``engaging'' students into STEM to truly preparing them for 
STEM post-secondary study with rigorous math and science 
instruction. Getting students excited about STEM is important, 
but the larger problem lies in that most students lack open 
access to programs that truly prepare them for those STEM 
degrees.
    Third, we must do more to simply create great schools built 
on high expectations and high accountability cultures. The 
emphasis needs to be on high-quality models, not just more STEM 
schools.
    Fourth, we need to attract more high-quality candidates to 
teaching math and science. DSST Public Schools is a proud 
member of the 100Kin10 initiative to help recruit science and 
math teachers over the next decade. This is a critical area of 
focus and effort.
    On behalf of DSST Public Schools, I thank you for the 
opportunity to share and welcome further dialogue around the 
importance of creating high-quality STEM education options in 
our country.
    [The prepared statement of Mr. Heffron follows:]
  Prepared Statement of Mr. Mark Heffron, Director, Denver School of 
             Science and Technology, Stapleton High School
    Thank you, Chairman Hall, and the Members of the Committee, for the 
opportunity to testify on this critical topic facing our nation. I 
applaud the foresight of the Committee to commission the National 
Academy study on successful K-12 STEM models in our country--seeking to 
find what works.
    I serve as the Campus Director of a 6-12 STEM school in the Denver 
School for Science and Technology (DSST) Public Schools network of 
charter schools. DSST Public Schools currently operates five STEM open-
enrollment charter schools, three middle schools and two high schools, 
serving over 1,500 students in Denver, Colorado.
    Because we are charter schools, all of our students enroll through 
a non-selective, random lottery. As a result, our student body is very 
diverse--50% of our students are low income and 70% are minorities. Our 
schools truly represent a cross section of Denver, the city we serve.
    DSST Public Schools operates some of the most successful public 
schools in Colorado. Last year, DSST Public Schools operated the 
highest performing middle school and high school in Denver. We are most 
proud of measures that show growth--meaning, how much did a student 
learn from the first day of school to the last day of school. Within 
the state of Colorado, our schools showed some of the highest growth 
numbers of all public schools, according to the Colorado Growth Model 
on State CSAP tests. And at DSST: Stapleton High School, the school I 
lead, 100% of all four senior classes in the school's history have 
earned acceptances to four year colleges. All of our students are 
prepared to study STEM fields of study in college and we estimate that 
40% of our students are choosing STEM fields after graduation.
    Most importantly, DSST proves, without a doubt, that all students, 
regardless of race or income, can earn a rigorous STEM high school 
diploma and attend four-year colleges and universities.
    Preparing every student to succeed in a four-year college with the 
opportunity to study STEM is at the center of DSST's academic program. 
Our STEM program is centered on three pillars.
    First, our schools are built on the premise that all students 
deserve access to a high quality STEM education. A majority of DSST 
students enter well below grade level in the 6th and 9th grades and 
could never test into a magnet science program. Many students are 
conditioned to believe that science and advanced math ``is an extra'' 
and only for ``smart kids''. In our schools, these subjects are not 
extras, but a core subject for all students. All students have access 
to STEM college preparatory curriculum.
    Our second key belief is that schools must provide a rigorous STEM 
preparatory curriculum. We believe that the most important factor in a 
student choosing and ultimately completing a STEM degree is their 
preparedness to succeed at the college and graduate level.
    Regardless of their starting point at DSST, all students are 
expected to pass three years of integrated science in middle school and 
more than five years in high school--and many students take more. 
Students take an algebra-based high school physics in the 9th grade. 
This provides students with a lab based class to practice, apply and 
synthesize the math skills they are learning elsewhere. All 9th grade 
students also take ``Creative Engineering'' where they learn the design 
process, how to conduct basic research, how to maximize and minimize 
constraints, and are hooked into engineering and the sciences as 
careers that improve the human condition. Students complete their high 
school requirements by taking a college level- physics class coupled 
with an engineering course or a college level biochemistry class 
coupled with a bio-technology class. Math is also a critical component 
of a rigorous STEM curriculum. All DSST students are required to pass 
at least pre-calculus to graduate.
    Lastly, we believe the success of any school must be rooted in a 
strong school culture that focuses on building character and creating 
an accountable environment that expects all students to be college 
ready. Students are challenged, but supported in our schools. A peer-
driven culture is reflected in each of our schools where going to 
college is cool and expected.
    In sum, we agree with the recommendations for the National 
Academy's Report. However, I would like to highlight four 
recommendations for further consideration by this Committee:

    <bullet>  First, while we agree that there is a clear need to 
create more STEM Schools, we urge this committee to stress the creation 
of open-enrollment, access for all STEM schools. Only through these 
schools will we tap into the potential of all children in our country 
to create new labor markets for our STEM fields.

    <bullet>  Second, we must create rigorous STEM schools that go 
beyond ``engaging'' students in STEM to truly preparing them for STEM 
post-secondary study with rigorous math and science instruction. 
Getting students ``excited'' about STEM is important, but the larger 
problem lies in that most students lack open access to programs with 
the rigor needed to prepare them for college STEM degrees.

    <bullet>  Third, we must do more to simply create great schools 
built on high expectations and high accountability cultures. The 
emphasis needs to be on high quality models that focus on STEM 
instruction, not just more STEM Schools.

    <bullet>  Fourth, we need to attract more high quality candidates 
to teaching math and science. DSST Public Schools is a proud member of 
the 100Kin10 initiative to help recruit and retain 100,000 new math and 
science teachers over the next decade. This is a critical area of focus 
and effort.

    On behalf of DSST Public Schools and Denver Public Schools, I thank 
you for the opportunity to share, and welcome further dialogue around 
the importance of creating high quality STEM education options for our 
country.

    Chairman Brooks. Thank you, Mr. Heffron, for your testimony 
and insight.
    At this point, the Chair will recognize Dr. Wilson for her 
five minutes.

            STATEMENT OF DR. SUZANNE WILSON, CHAIR,

                DEPARTMENT OF TEACHER EDUCATION,

          DIVISION OF SCIENCE AND MATH AND EDUCATION,

                   MICHIGAN STATE UNIVERSITY

    Dr. Wilson. Thank you, Chairman Brooks, Chairman Wolf, 
Ranking Member Lipinski, and other Members of the Subcommittee 
for this opportunity to speak with you today.
    In my prepared statement, I prepared--I provide an overview 
of the current teacher support system and comment on the 
challenges we face. In my comments now, I would like to 
emphasize what I consider to be our core problem and suggest to 
you how we might solve it.
    The vision of STEM education in the NRC report is 
ambitious. It includes increased study of engineering and 
technology and it also includes learning science and 
mathematics in challenging and rigorous ways. Unfortunately, 
most of the 3.6 million teachers who now teach in our schools, 
as well as the 1.7 million teachers we will need in the next 
seven years, have themselves never had opportunities to learn 
engineering and technology nor engage in the practices of deep 
study of science and mathematics and so they teach what and how 
they were taught. This is a vicious cycle that we need to 
break.
    Part of the solution is the development of good assessments 
and curriculum. Part of the solution is creating schools that 
are good environments for learning by students and by their 
teachers. Part of the solution is improving initial teacher 
training and ongoing teacher development so that teachers can 
learn this new content and learn to teach it.
    Let me make clear to you just how localized and 
uncoordinated our so-called system of supplying quality STEM 
teachers is. We stand out among other leading countries for our 
lack of a national infrastructure for high-quality schooling. 
Here is what I mean: there are over 1,200 teacher preparation 
programs at universities; there are another 130 alternative 
routes; there are as many if not more early career professional 
induction programs; there are 1,500 school districts in the 
United States, and each has an entirely independent portfolio 
of training for its teachers. There is no coordination and the 
quality and effectiveness is both variable and often weak.
    This ``system'' of professional training is a carnival. It 
is crowded, it is noisy, it is alternatively attractive and 
seedy with no order or coherence. Teachers walk down the midway 
and wander as they please. They attend a teacher preparation 
program with one particular emphasis and then they head off to 
an induction program with another. They sign up for 
professional development because of their interests, their 
convenience, or mandate.
    Considerable personal, public, state, and federal resources 
are poured into teacher development programs. Despite the 
investment of these material and human resources, teachers 
seldom receive coordinated guidance about what they should 
study or have opportunity to select professional development 
that builds on their previous experiences. This is 
irresponsible. It has adverse effects for our young people and 
on our Nation's position in a rapidly changing world and global 
economy.
    If we expect to excel in STEM education, we must build a 
system to deliver it. We can no longer leave to local 
preference what teachers know and what they can do. Teaching 
well demands substantial skill and should not be made up one 
school, one district, even perhaps one state at a time. In no 
other professional where skilled trade do we leave so much up 
to chance. We are in a position to fix this problem. The 
Federal Government can help.
    We can establish specific standards for teaching practice 
and build a professionally valid licensure system which would 
include common core state standards for teachers that are 
aligned with but go well beyond the common core state standards 
for K-12 students; teacher preparation and professional 
development programs that are aligned with those standards; 
high-quality, rigorous training that is anchored in classroom 
practice and that is designed to support teachers over time; 
teacher training that differentiates between the needs of 
beginning teachers and experienced teachers and that focuses on 
a few empirically validated high-leverage teaching practices; 
classrooms and schools that are designed to support instruction 
and its continuous improvement; credible and predictive 
assessments of teacher knowledge and skill that can both 
provide feedback to those who need to improve and differentiate 
between the teachers who can teach and those who should be let 
go.
    And if we are to hold teachers and teacher preparation 
programs accountable for the kind of student learning and 
engagement that is portrayed in this report, we also need K-12 
student assessments that focus on the kind of outcomes 
envisioned and not what is easiest to test.
    Thank you for your time.
    [The prepared statement of Ms. Wilson follows:]
            Prepared Statement of Dr. Suzanne Wilson, Chair,
    Department of Teacher Education, Division of Science and Math, 
                  Education, Michigan State University
    Thank you Chairman Brooks, Ranking Member Lipinski, and the other 
Members of the Subcommittee, for this opportunity to discuss the 
Federal government's role in K-12 STEM education. I am pleased to add 
my perspective on the Committee's questions, drawn from nearly 35 years 
in academia as first a high school mathematics teacher, then, teacher 
educator and education policy researcher, and now as chair of the 
Department of Teacher Education at Michigan State University, where I 
also conduct research on the effects of teacher preparation, 
professional development, and education policy. I also note that I was 
commissioned to prepare a review of the literature for the National 
Research Council's (2011) Board on Science Education and Board on 
Testing and Assessment workshop on Highly Successful K-12 STEM 
Education in School. I have also served on several NRC panels, 
including the one that issued the report on teacher preparation and 
Congressionally mandated (Preparing Teachers, 2010), and am a newly 
appointed member of the Board on Science Education. I also chaired the 
National Academy of Education's (2009) White Paper committee on teacher 
quality, which was also undertaken in response to the requests of 
several senators.
    My expertise is in the area of teacher quality policies and 
practices, specifically teacher preparation, induction (early career 
support), and professional development. I will keep my comments focused 
on that domain.

The Critical Role of STEM Teacher Preparation, Induction,

and Professional Development

    While there is currently considerable debate about where and how 
teachers should be prepared, there is little question that STEM 
education depends on the sound preparation of K-12 teachers. Research 
clearly shows that it takes between 3-8 years to become an effective 
teacher, which underlines the importance of strong early career support 
(often called induction). And given the lackluster performance of U.S. 
schools in STEM education overall--as well as the push for higher and 
more demanding standards--there seems little question that we need 
equally strong professional development to build the capacity of 
practicing teachers. Further, there seems little debate about the need 
for all teachers to have sufficient content knowledge, as well as 
knowledge and skill in working with and adapting instruction for one's 
particular students, selecting and using appropriate curriculum 
materials, assessments, and other resources.
    However, beyond that, there is much less agreement on who should 
prepare teachers, how that preparation should be structured and 
organized, and how to differentiate between the initial preparation of 
teachers and support they receive over their careers. This has resulted 
in what some have called a ``non-system'' of teacher support in this 
country: There are over 1200 teacher education programs at 
universities, another 130 ``alternative routes,'' and at least as many 
induction programs. Every one of the over-15,000 school districts in 
the U.S. has multiple professional development programs sponsored by 
school districts, foundations, federal grants, universities, informal 
institutions, and other agencies. While there are similarities across 
some of these programs, there is considerable variation in content and 
quality.
    However, we know that high quality teacher support needs to be 
anchored in clear and concrete vision of both what we want our K-12 
students to learn and the instruction and other factors that lead to 
that learning. The NRC (2011) report, Successful K-12 STEM Education: 
Identifying Effective Approaches in Science, Technology, Engineering, 
and Mathematics accurately notes that effective STEM instruction:

           . . . students successively deepen their understanding both 
of core ideas in the STEM fields and of concepts that are shared across 
areas of science, mathematics, and engineering. Students also engage 
with fundamental questions about the material and natural worlds and 
gain experience in the ways in which scientists have investigated and 
found answers to those questions. In grades K-12, students carry out 
scientific investigations and engineering design projects related to 
core ideas in the disciplines, so that by the end of their secondary 
schooling they have become deeply familiar with core ideas in STEM and 
have had a chance to develop their own identity as STEM learners 
through the practices of science, mathematics, and engineering.

    These are ambitious--and in the case of technology and engineering, 
new, ideas for what all students should learn and do in schools. 
Unfortunately, this kind of instruction is rare in U.S. K-12 schools. 
And because our future teachers come through those schools, there are 
many teachers, especially elementary teachers, who themselves have 
never experienced that kind of instruction. I also note that although 
the problem is exacerbated for prospective elementary teachers, the 
majority of prospective middle and high school teachers seldom have an 
opportunity for first hand experience with the ``practices of science, 
mathematics, and engineering.''
    Breaking this cycle requires improved teacher preparation (both in 
terms of the quality and quantity of teachers' engagement with relevant 
disciplinary content and in terms of professional coursework and 
experiences), subject-specific support during induction, professional 
development that targets teachers' needs and systematically builds on 
prior STEM learning, and professional communities in schools where 
teachers and administrators collectively focus on their students' 
learning. It would also entail considerable research to identify both 
the effective instructional strategies, educational resources, school 
supports, and teacher development programs that would inform those 
changes.

Main Points

    Before elaborating, I present four main points that frame my 
comments:

    <bullet>  We have high aspirations for mathematics and science 
learning, and some new ideas about what children should learn about 
technology and engineering.

    <bullet>  Many of our teachers have never experienced, as students, 
the learning we envision in those domains for their students.

    <bullet>  We have a massively incoherent system and very 
challenging contexts for instructional improvement.

    <bullet>  Yet we do know some things about improving instruction 
(including preservice and prospective teachers' training). And there 
are concrete things we can do to address the challenges that lay before 
us.

Challenges Facing STEM Initial Teacher Preparation

    There is a growing consensus that initial preparation of teachers 
needs to include substantial study of the relevant disciplines. This is 
not identical to disciplinary majors, as the K-12 school subjects are 
not always taught in college majors. Thus, teacher preparation needs to 
be designed to explicitly address the content that will be taught. The 
development of the Common Core State Standards will help in this 
regard, as they clearly lay out the focal content that teachers will 
need to know how to teach. There is also consensus that teachers need 
professional knowledge that goes beyond subject matter, and that the 
process of learning to apply that knowledge in practice requires 
focused attention to a core set of teaching practices, over time, in 
structured and well-designed field experiences.

That said, teacher preparation currently faces several challenges:

    <bullet>  One overarching challenge has been the lack of a common 
curriculum that all teachers will teach. This has contributed to the 
diffuse nature of initial teacher preparation across the country since 
programs do not know what content or curriculum their graduates need to 
be prepared to use. The development of the Common Core State Standards 
might potentially help in this regard.

    <bullet>  Not surprisingly, therefore, there also exists no common 
curriculum for the preparation of teachers. And there is no agreement 
on what initial teacher preparation should focus on as opposed to the 
support of practicing teachers. This results in both variations in the 
content of what new teachers learn in their programs and an approach 
similar to the ``a mile wide and an inch deep'' characterization of 
U.S. mathematics education offered by William Schmidt and his 
colleagues in the TIMSS study.

    <bullet>  Another challenge, specific to elementary school, is that 
teachers are expected to teach all subjects. Most universities limit 
the maximum credits required for an undergraduate degree; given the 
need to prepare all elementary teachers to teach all subjects, and the 
increasing number of mandates about what they need to know (special 
education, English Language Learners, the arts, all academic subjects, 
etc.), most prospective elementary teachers have limited exposure to 
STEM disciplinary content. Specifically, the average elementary teacher 
might take two mathematics courses, two science sources (neither of 
which engages them in genuine science inquiry), no engineering courses, 
and if they take a technology class it is likely about instructional 
technology, not technology generally.

    <bullet>  At the middle and high school levels, recruitment into 
STEM teaching continues to be a challenge, especially in terms of long-
term solutions that can be institutionalized. Programs with financial 
incentives or benefits at the front end (subsidized preparation, for 
example) have uneven track records for preparing teachers who stay in 
the profession. In an age of shrinking resources, it is unclear how 
programs or schools will secure funding to continue those programs.

    <bullet>  Middle school STEM teacher preparation continues to be 
serious challenge. The most recent research by William Schmidt and 
colleagues suggests that middle school mathematics teacher preparation 
programs in the U.S. are wildly uneven. State certification laws also 
vary, and many middle school teachers were originally prepared as 
elementary teachers (and therefore have limited disciplinary content 
preparation (see above)).

    To address these challenges, we must establish specific standards 
for teaching practice and build a professionally valid licensure 
system. Assessments would focus on teachers' content knowledge, their 
actual skill with the instructional practices most important for 
student learning, and their persistence in working to make sure that 
every one of their students learns. These assessments would be 
different from the ones we currently have in this country which do not, 
for the most part, focus on the ability to teach.
    To prepare teachers for these standards, we need to engage 
prospective teachers in disciplinary study directly related to the 
school subjects they will teach. We also need to integrate more content 
concerning engineering and technology into the teacher preparation 
curriculum, without making the curriculum wider and thinner. In terms 
of professional preparation, we need to design a system of high-quality 
rigorous training that is centered on practice. This system would 
require three components:

    1.  A curriculum focused on the highest leverage instructional 
practices and specialized knowledge of the academic content that 
teachers teach;

    2.  Close practice and feedback in clinical settings so that 
teachers can be deliberately taught and explicitly coached with the 
skills to reach a wide range of learners.

    3.  Highly credible and predictive assessments of professional 
knowledge and skill so that no one enters a classroom without 
demonstrated capacity for effective performance as a beginning teacher.

    In addition, we might want to consider alternative staffing 
patterns in elementary schools so that teachers can specialize in 
particular content.

Challenges Facing Professional Development

    There is also a growing consensus among researchers regarding 
characteristics of high quality professional development, especially of 
effective science professional development. In particular, the National 
Science Education Standards (National Research Council, 1996) published 
professional development guidelines for teachers. Those standards 
emphasize the importance of professional development that focuses on 
subject matter, draws upon teachers' current practices and experiences, 
and is intensive and sustained. This resonates with the NRC report's 
findings, specifically the statement that:

    <bullet>  In any discipline, effective professional development 
should

        <bullet>  focus on developing teachers' capabilities and 
knowledge to teach content and subject matter,

        <bullet>  address teachers' classroom work and the problems 
they encounter in their school settings, and

        <bullet>  provide multiple and sustained opportunities for 
teacher learning over a substantial time interval. (p. 21)

    However, as the report authors note, the empirical evidence 
supporting these professional development characteristics is not always 
consistent and little research allows us to trace ``the causal pathway 
from professional development to student achievement.'' Additionally, 
other factors pertaining to teachers and schools also appear to play a 
noteworthy role in each characteristic's importance.
    STEM professional development programs in this country vary 
enormously in terms of their content and character and the challenges 
they face include:

    <bullet>  There is no agreed upon curriculum for professional 
development of STEM teachers. Professional development leaders often 
identify ``big ideas'' that transcend particular curricula: in science 
that might include the nature of science or scientific inquiry, or key 
concepts (like force and motion or natural selection) that seem 
foundational to scientific disciplines (like physics or biology). In 
mathematics, this might include fractions, patterns and functions, or 
reasoning and proof. But these big ideas are not selected in any 
systematic or deliberate way, and most professional development does 
not build on what teachers have already learned. Here too the Common 
Core State Standards might provide some guidance.

    <bullet>  Inconsistency and lack of predictability in terms of what 
teachers have learned prior to specific professional development. Thus, 
professional development leaders can have very experienced and brand 
new teachers in the same workshop, and those teachers can have little 
to high knowledge of STEM content.

    <bullet>  Lack of diagnostic information concerning what teachers 
need to learn. We do not tailor professional development in this 
country to the learning needs of the specific teachers in the class.

    <bullet>  Lack of centralized funding for professional development 
or plans to use funding in coherent ways. This includes a lack of 
integration and coordination of professional development concerning 
STEM education and other knowledge/skills teachers need to work on, 
including teaching STEM content to English Language Learners, or 
adapting STEM instruction to diverse student populations.

    <bullet>  School districts and states lack policies, practices, and 
resources that support the long term, sustained, collective focus that 
research suggests is necessary for high quality professional 
development.

    In sum, professional development for STEM teachers is most often a 
patchwork of fragmented and disconnected experiences. The teachers who 
need the most support often do not pursue such opportunities. The NRC 
report authors note that:

          professional development alone is not a solution to current 
limitations on teachers' capacities. Instead, it is more productive to 
consider teacher development as a continuum that ranges from initial 
preparation to induction into the practice of teaching and then to 
systematic, needs-based professional development, including on-site 
professional support that allows for interaction and collaboration with 
colleagues. (p. 21)

    To address these challenges, we need to radically change the way 
that states and school districts think about professional development. 
On-going teacher learning needs to be part of the mission of every 
school. Schools have to be structured and resourced so that teachers 
have clear instructional guidance, sound materials, a strong school 
leader, and time to work with other teachers on improving instruction 
and tailoring it to the specific children in that school. Professional 
development needs to be focus on the content teachers are responsible 
for teaching, and it needs to be tailored to the learning needs of the 
teachers involved. It needs to gradually become more and more 
sophisticated along the career paths of teachers.

Similar to initial preparation, the components of professional 
development would include:

    1.  A well articulated curriculum focused on the highest leverage 
instructional practices and specialized knowledge of the academic 
content that teachers teach, building on what teachers mastered during 
their initial preparation;

    2.  Close practice and feedback in their classrooms, including 
coaching.

    3.  Highly credible and predictive assessments of professional 
knowledge and skill so underperforming teachers can be identified and 
supported or, if they do not improve, removed.

The Current State of Teacher Assessment

    Teacher assessment is under a great deal of scrutiny. In many 
current evaluation systems teachers receive almost universally high 
ratings. As many of these systems use a binary means of scoring 
(satisfactory or not), the systems also do not give teachers useful 
information to improve their practice. There has been a great deal of 
research and commentary on the quality of value added measures of 
teachers. However promising these methods might be, there are still 
several enormous challenges to the measurement and policy community 
related to these measures:

    <bullet>  Student achievement and gains are influenced by other 
factors besides the teacher, including, school factors such as class 
sizes, curriculum materials, instructional time; home and community 
supports; individual student needs and abilities, health, and 
attendance; peer culture and achievement; and prior teachers and 
schooling, as well as other current teachers. Most of these factors are 
not actually measured in value-added models. (AERA/NAE, 2011)

    <bullet>  Second, value-added estimates are based on test scores 
that ``reflect a narrower set of educational goals than most parents 
and educators have for their students. If this narrowing is severe, and 
if the test does not cover the most important educational goals from 
state content standards in sufficient breadth or depth, then the value-
added results will offer limited or even misleading information about 
the effectiveness of schools, teachers, or programs'' (NRC, Getting 
Value Out of Value-Added, 2010).

    For the purposes of this committee's discussions, tests currently 
do not measure the ``practices'' of the disciplines, for instance, the 
ability of students to engage in scientific inquiry or reason 
mathematically. Nor do the tests measure students' continued interest 
in, commitment to, or engagement in STEM fields. Here one can see the 
interdependence of research on student and teachers. Without good 
research on student engagement and learning, any and all attempts to 
measure teacher effectiveness are hamstrung.
    There is other work underway in teacher assessment as well, 
specifically in the area of creating observation protocols for 
measuring teacher quality. This would allow for more refined 
documentation of instruction. However, preliminary work suggests that 
training raters to score such protocols reliably continues to be a 
challenge.

The Role of the Federal Government in K-12 STEM Education

    While our teacher preparation and professional development 
practices may appear inconsistent-- like the larger educational system 
they serve--they were built from the bottom up, school-by-school, 
program-by-program; and were designed to serve locally managed and 
funded markets. This is not to say that they were or are immune to 
national issues; consider that with the Elementary and Secondary Act of 
1965, and continuing even today, they have steadily worked at better 
serving students across lines of race, gender, and ability with the 
goal of achieving equality. At present, and for indisputably good 
reason, the national press in on for quality in addition to equality.
    In terms of teacher preparation, induction, and professional 
development, the primary role of the federal government has been to 
produce resources to stimulate thinking about state and district level 
policies, programs, and practices, as well as to press for increased 
evidence of effectiveness. In particular, research and development work 
sponsored by the National Science Foundation and the Department of 
Education, including the Institute for Education Sciences has played a 
major role in influencing how we think about teacher preparation and 
professional development, as well as how we assess its effectiveness 
(see below). But that support has been limited, especially in the area 
of teacher preparation, and it has not been leveraged to catalyze 
coherence or the accumulation of knowledge.
    What role might the federal government play to shape reform in STEM 
education? There are several avenues to pursue that could encourage 
more coherence and focus.

    <bullet>  Use the Common Core State Standards to focus the initial 
preparation of teachers. Because states control teacher licensure, this 
might include providing guidance and resources to states to align state 
policies with the CCSS.

    <bullet>  Federal investment in the development of resources might 
focus on programs and materials that also align with the CCSS so that 
teachers have strong instructional materials.

    <bullet>  Expand investment in the assessment consortia to include 
assessments that go beyond content knowledge in ways that align with 
the recommendations of the NRC report (these are essential for 
anchoring teacher assessment/evaluation).

    <bullet>  Create consortia for the development of teacher 
assessments that align with the knowledge/skill teachers would need to 
master to effectively teach to the CCSS.

    <bullet>  As all teacher preparation programs are pressed to tie 
their graduates to K-12 student outcomes, invest in strategies that 
would enable teacher preparation programs to track their graduates 
across states.

The Role of the National Science Foundation in Teacher Preparation,

Induction, and Professional Development

    The NSF plays a critical role in supporting both innovation and 
research on teacher support programs. It has played three roles: (1) 
the development of programs, practices, and tools (curriculum, 
assessments, etc.) for teacher development; (2) the development of 
networks (i.e., ``systems'' or ``partnerships '') of stakeholders who 
collaboratively work in those programs and/or use those tools; and (3) 
sponsoring research on the effectiveness of some of those programs/
practices/tools.
    In the sprawling landscape of programs for teacher support, NSF-
sponsored programs play an important role. Most of the time, funding is 
for four or five years, which allows for a program to be carefully 
planned and launched. NSF-sponsored programs are required to have a 
well-articulated theory-of-action, as well as plans for evaluations, so 
all such programs tend to be more carefully constructed and data 
driven.
    However, the emphasis on launching innovation, however, means that 
many of those launched programs are not then studied over time in terms 
of their effects on students or teachers. And because the field lacks 
robust metrics for student and teacher effects, the limited budgets for 
evaluation do not allow for extensive research.
    Another contribution that NSF-sponsored programs make to the larger 
field is in the development of professional development leaders. Even 
when funding ends, programs leave in their wake increased human capital 
that schools and districts tap into for their own local efforts.
    Unfortunately, the three NSF foci (program development, networking, 
and research) are--at times--in competition with one another, so that 
the development of programs comes at the expense of empirical research 
on how teachers learn, what teachers need to know, or the effects of 
various programs on student engagement and achievement or on teacher 
knowledge, skill, and practice. It is important that NSF and IES 
continue to both support the development of innovative programs and 
fund ambitious basic and applied research on both how teachers learn 
and the effects of various programs.

Research Gaps in STEM Teacher Preparation and

Professional Development

    Several Congressionally-mandated efforts have made suggestions 
concerning the most pressing research areas. As the authors of the 
NRC's (2010) Preparing Teachers: Building Evidence for Sound Policy 
note:

          There is no system in place to collect data across the myriad 
teacher preparation programs and pathways in the United States. Thus, 
we can say little about the characteristics of aspiring teachers, the 
programs and pathways they follow, or the outcomes of their 
preparation. (p. 174)

    This is equally true of professional development programs. The 
federal government could play a major role in the development of such a 
data system.
    The authors of Preparing Teachers argued forcefully that we need 
research that studies core features of teacher preparation, not 
research that contrasts ``traditional'' and ``alternative.'' Given the 
recent diversification of teacher preparation, the three areas they 
nominated were:

    1.  comparisons of programs and pathways in terms of their 
selectivity; their timing (whether teachers complete most of their 
training before or after becoming a classroom teacher); and their 
specific components and characteristics (i.e., instruction in subject 
matter, field experiences);

    2.  the effectiveness of various approaches to preparing teachers 
in classroom management and teaching diverse learners; and

    3.  the influence of aspects of program structure, such as the 
design and timing of field experiences and the integration of teacher 
preparation coursework with coursework in other university departments. 
(p. 174)

    The National Academy of Education/NRC Ed in '08 committee on 
teacher quality made recommendations that resonate with this, noting 
that

          States, school districts, and the federal government should 
support research on a variety of approaches to teacher preparation. 
Investments should be made in research and development on the core 
practices and skills that early career teachers require; preparation 
programs should then focus on these skills. (p. 2)

    In the area of professional development, the characteristics of 
high quality professional development nominated by researchers are not 
linked to measures of impact in terms of student engagement, 
motivation, continued interest in pursuing STEM disciplines, or student 
achievement. And because research has demonstrated that school culture 
and resources play an important role in developing effective 
teaching,we also need research that links student outcomes to teacher 
outcomes to school culture, in particular for schools that serve 
children who do not typically pursue STEM fields.
    Finally, there is extraordinary need for research and development 
in tools and metrics to assess the effects of teacher support programs. 
These would range from measures of student learning/engagement, of 
teacher content and professional knowledge, and of classroom practices 
and school quality.

References

American Educational Research Association and National Academy of 
Education. (2011). Getting teacher evaluation right: A brief for 
policymakers. Washington, DC: Authors.

National Academy of Education. (2009). Teacher quality: A white paper 
report. (S. M. Wilson, Ed.). Washington, D.C.: Author.

National Research Council. (1996). National science standards. Center 
for Science, Mathematics, and Engineering Education (CSMEE). 
Washington, D.C.: The National Academies Press.

National Research Council and National Academy of Education. (2010). 
Getting value out of value-added: Report of a workshop. Committee on 
Value-Added Methodology for Instructional Improvement, Program 
Evaluation, and Educational Accountability (H. Braun, N. Chudowsky, & 
J. Koenig, Eds.). Center for Education, Division of Behavioral and 
Social Sciences and Education. Washington, DC: The National Academies 
Press.

National Research Council. (2010). Preparing teachers: Building 
evidence for sound policy. Committee on the Study of Teacher 
Preparation Programs in the United States. Washington, D.C.: The 
National Academies Press.

National Research Council. (2011). Successful K-12 STEM education: 
Identifying effective approaches in science, technology, engineering, 
and mathematics. Committee on Highly Successful Science Programs for K-
12 Science Education. Board on Science Education and Board on Testing 
and Assessment, Division of Behavioral and Social Sciences and 
Education. Washington, DC: The National Academies Press.

    Chairman Brooks. Thank you, Dr. Wilson. I couldn't help but 
think when you were using the word ``carnival'' and somewhat 
chaotic system, that reminded of a Winston Churchill quote to 
the effect of that America can always be depended on to do the 
right thing after it has first tried everything else.
    That having been said, Dr. Allensworth, if you would please 
share with us your insight for five minutes.

              STATEMENT OF DR. ELAINE ALLENSWORTH,

          SENIOR DIRECTOR AND CHIEF RESEARCH OFFICER,

  CONSORTIUM ON CHICAGO SCHOOL RESEARCH, UNIVERSITY OF CHICAGO

    Dr. Allensworth. Yes, thank you. Thank you, Chairman Brooks 
and Chairman Wolf and members of the committee.
    I come from the Consortium on the Chicago School Research 
at the University of Chicago where I have been studying the 
Chicago public schools for the last 15 years. Chicago has 
attempted to improve students' achievement in science and math 
through a number of large-scale, bold initiatives, many of 
which have been followed by similar policies at the federal 
level. I am going to briefly talk about three.
    I am sorry. These are the wrong slides. I will not show the 
slides. Those are the wrong slides.
    I am going to briefly talk about three, which are 
curricular standards, changing curricular standards, hiring for 
teacher quality and accountability. While each of these has the 
potential to improve STEM outcomes, they also have the 
potential to unintentionally make them worse, particularly in 
schools that are struggling the most with low achievement, such 
as many of our schools serving mostly minority youth in urban 
areas like Chicago.
    In terms of curricular standards, Chicago has tried to 
increase curricular rigor in a number of ways that have clear 
implications for states and districts implementing the new 
common national standards. In 1997, for example, Chicago 
required all students to take a college-preparatory curriculum 
and dramatically increased its graduation requirements. As with 
the new common standards, the goal was to increase equity and 
rigor by exposing all students to more uniformly challenging 
coursework.
    After the policy, there was a dramatic rise in the number 
of science and math classes taken by students. However, there 
were a number of adverse consequences. Most students earned 
very poor grades in their science and math classes, which 
indicated minimal engagement and very little learning. As 
schools struggled to find teachers to expand high-level math 
and science courses to all students, high-achieving students 
were less likely to take physics, pre-calculus or calculus. The 
quality of math classes declined for high-achieving students as 
classrooms now contained students with a much greater 
variations in skills, and teachers had a hard time teaching 
college-preparatory work to classes with very low-achieving 
students.
    In the end, low-skilled students had slightly higher 
failure rates in math, system-wide graduation rates declined 
slightly, and college entrance declined for the high-achieving 
students.
    In 2006, Chicago implemented another new strategy where 
they implemented high-quality curricula in science, math, and 
English, aligned with the ACT college entrance exam, along with 
curriculum coaches and professional development. As with the 
increase in graduation requirements, there were no improvements 
in students' test scores or grades, and in some schools, test 
scores actually declined, even though teachers were using high-
quality curricula with better pedagogy, a more academic demand, 
and aligned, formative assessments.
    We found that a central challenge of the program was that 
classrooms became more disorderly as teachers struggled to 
implement the new curriculum, and learning declined.
    What we found is that implementing rigorous standards for 
all students is an especially difficult challenge in schools 
serving large numbers of students with very weak academic 
skills. Schools need strategies for supporting teachers to 
teach more diverse learners, and they also need systems in 
place to support students so that they can handle the tougher 
material.
    A second policy area for improving some learning is around 
accountability. Now, way back in 1995, Chicago was one of the 
first districts to enact very strong accountability sanctions 
to schools based on standardized tests and has been very active 
in closing and restructuring schools in response to low 
performance.
    As federal initiatives such as the No Child Left Behind and 
Race to the Top have increased the use and focus on high-stakes 
testing, it is important to pay attention to some of the 
effects that accountability has had on learning generally and 
STEM in particular. While there have been some benefits to the 
emphasis on accountability, there have also been some very 
adverse consequences for students, especially in schools under 
the most pressure to increase test scores, which tend to be 
racially isolated scores where all students are African 
American or Latino. This includes the narrowing of the 
curriculum away from science and subjects other than reading 
and math, as Dr. Gamoran mentioned. It also means that schools 
now spend extraordinary amounts of time just practicing tests 
using up time that could be spent actually improving students' 
academic skills.
    Another way that the government is trying to improve STEM 
education is by increasing the number of highly qualified STEM 
teachers. What we found in Chicago, though, is that teachers 
tend to leave schools with poor climates for learning, so you 
can bring in high-quality teachers but they won't stay if the 
environment is not good. And in fact they are not even 
successful in environments that are poor. What we found is that 
in order to make good use of high-quality curriculum, respond 
to accountability, and retain good teachers, schools need to 
have five essential supports: strategic school leadership, 
professional capacity that is professionals that work together 
collaboratively around instruction and learning climate, strong 
instruction, student-centered learning climate, and involvement 
of parents.
    Thank you.
    [The prepared statement of Dr. Allensworth follows:]
   Prepared Statement of Dr. Elaine Allensworth, Senior Director and
    Chief Research Officer, Consortium on Chicago School Research, 
                         University of Chicago
    I have been studying the Chicago public schools for the past 15 
years at the Consortium on Chicago School Research (CCSR) at the 
University of Chicago. Chicago is a district that is 85% minority, 85% 
low-income, where almost all students aspire to go to college, and many 
students aspire to enter STEM careers. But very few of the students who 
have those aspirations end up making them a reality.
    Chicago has attempted to improve students' achievement in science 
and math through a number of large-scale, bold initiatives, many of 
which have been followed by similar policies at the federal level. I am 
going to briefly talk about three. While each has the potential to 
improve STEM outcomes, they also each have the potential to 
unintentionally make them worse, particularly in schools that are 
struggling the most with low achievement, such as many of our urban 
schools serving mostly minority youth.

    1.  Curriculum standards. Chicago has tried to increase curricular 
rigor in a number of ways that have clear implications for states and 
districts implementing the Common Core standards. In 1997, Chicago 
required all students to take a college-preparatory curriculum and 
dramatically increased its graduation requirements. As with the Common 
Core, the goal was to increase equity and rigor by exposing all 
students to more uniformly challenging coursework. Prior to 1997, 
students entering high school had to complete any one science course, 
and many took remedial science. Beginning in 1997, students were 
required to take three laboratory science classes, one from each of 
these categories: 1) earth and space or environmental science, 2) 
biology or life science, and 3) chemistry or physics. Changes in 
science requirements were accompanied by increases in math 
requirements, where students could no longer take remedial math and had 
to take at least three courses in the math sequence, including geometry 
and advanced algebra (algebra 2). After the policy, there was a 
dramatic rise in the number of science and math classes that students 
took; almost all graduates received credit in full science and math 
sequences.

       However, there were a number of unintended negative consequences 
as well. These negative consequences were a direct result of asking 
more of both students and teachers without providing them with 
sufficient additional supports. Under Chicago's College Prep for All 
policy, most students earned very poor grades in their science and math 
classes-Cs, Ds and Fs. Such low grades indicate minimal engagement and 
very little learning; in fact, comparisons with test scores tell us 
that it is only students earning As and Bs that show substantial 
learning gains in their courses. As schools struggled to find teachers 
to expand high-level math and science courses to all students, high-
achieving students were less likely to take physics, pre-calculus or 
calculus. The quality of math classes also declined for high-achieving 
students as classrooms now contained students with a much greater 
variations in skills, and teachers had a hard time teaching college-
preparatory work to classes with very low-achieving students. In the 
end, low-skilled students had slightly higher failure rates, system-
wide graduation rates declined slightly, and college entrance declined 
for high-skill students. \1\
---------------------------------------------------------------------------
    \1\  Allensworth, Elaine M., Takako Nomi, Nicholas Montgomery, 
Valerie E. Lee. 2009. College Preparatory Curriculum for All: Academic 
Consequences of Requiring Algebra and English I for Ninth Graders in 
Chicago. Educational Evaluation and Policy Analysis, 31 (4). 
Montgomery, Nicholas and Elaine M. Allensworth. 2010. Passing Through 
Science: The Effects of Raising Graduation Requirements in Science on 
Course-Taking and Academic Achievement in Chicago. Consortium on 
Chicago School Research, Chicago, Illinois. Nomi, Takako. (2010) 
Unintended consequences of an Algebra-for-all policy on high-skill 
students: Evidence from Chicago Public Schools. Paper presented at the 
Association for Public Policy Analysis and Management, Boston, MA and 
the Society for Research on Educational Effectiveness conference, 
Washington DC.

       In 2006, Chicago invested deeply in another curricular reform 
that exhibited some of the same challenges as College Prep for All. 
Through a program called Instructional Development System (IDS), 
Chicago implemented high-quality curricula in science, math and 
English, aligned with the ACT college-entrance exam, along with 
professional development and coaches for teachers. As with the increase 
in graduation requirements, there were no improvements in students' 
test scores or grades. In some schools, test scores actually declined, 
even though teachers were using high-quality curriculum with better 
pedagogy and aligned, formative assessments. Our evaluation of IDS 
found that a central challenge of the program was that classrooms 
became more disorderly as teachers struggled to implement the new 
curriculum, and learning declined. \2\
---------------------------------------------------------------------------
    \2\ Hart, Holly, Sporte, S., Correa, M. (June 9, 2009). Adopting a 
rigorous curriculum: Successes and challenges of Chicago's High School 
Transformation initiative. Paper presented at Annual Symposium of the 
Illinois Education Research Symposium, Champaign, IL. Sporte, Sue, 
James Sebastian and Valerie Lee. (in progress.) Attempting Curricular 
Coherence: Three Years of Chicago's Instructional Development System 
Reforms and Developing a Framework for Assessing School Capacity: 
Insights from Curriculum Reforms in Chicago Public Schools.

       As the IDS and College Prep for All examples demonstrate, 
implementing rigorous standards is not sufficient to improve student 
learning, especially in schools that already struggle with low levels 
of student engagement in their coursework. Engaging all students in 
more challenging work is crucial if they are to learn at high levels; 
however, it is important to note that such engagement requires more of 
both students and teachers. IDS and College Prep for All, like the 
Common Core, will require teachers to teach new and more challenging 
material to the students they serve. If schools do not have enough 
teachers with the content expertise to teach these new subjects, then 
more challenging standards can result in worse instruction and less 
learning. What is more, the Common Core will require that teachers be 
able to teach that material to students with diverse skills-including 
students entering their classes with skill levels so low that they have 
little chance of meeting standards without substantial support. If 
teachers don't know how to teach the standards to their students well, 
students learn less than they would if teachers had remained focused on 
---------------------------------------------------------------------------
material with which they were comfortable.

       Implementing rigorous standards for all students is an 
especially difficult challenge in schools that serve large numbers of 
students with very weak academic skills. Schools need strategies for 
supporting teachers to teach more diverse learners and to provide them 
support. They also need systems in place to support students so that 
they can handle tougher material. In other words, higher standards need 
to be accompanied by structures that will support teachers and 
learners.

    2.  Accountability. Beginning in 1995, Chicago was one of the first 
districts to enact very strong accountability sanctions to schools 
based on standardized tests and has been active in closing and 
restructuring schools in response to low performance. As federal 
initiatives such as the No Child Left Behind Act and Race to the Top 
competition have increased the use of and focus on high-stakes testing, 
it is important to pay attention to some of the effects that 
accountability has had on learning generally and STEM learning in 
particular. High-stakes accountability in Chicago has had some benefits 
for low-achieving students: teachers are more likely to pay attention 
to students scoring below standards, and there are more resources aimed 
at low-scoring students through summer and after school programs. 
Furthermore, schools that previously were not teaching students grade 
level material in math in the middle grades started teaching students 
the material they needed to know to pass the standards.

       However, there have also been adverse consequences to the strong 
focus on test-based accountability, especially in schools that are 
under the most pressure to increase test scores. In Chicago, these 
schools tend to be racially isolated schools where all students are 
African-American or Latino. One consequence has been the narrowing of 
the curriculum away from science and subjects other than reading and 
math. Another adverse consequence has been that schools now spend 
extraordinary amounts of time just practicing taking tests--using up 
time that could be spent on improving students' academic skills. 
Furthermore, test practice and drilling test problems is boring for 
students, and leads them to be less engaged and interested in class. 
\3\
---------------------------------------------------------------------------
    \3\ Allensworth, Elaine and Jenny Nagaoka. 2010. ``The effects of 
retaining students in grade with high stakes promotion tests.'' Chapter 
20 in Judith Meece (ed.), Handbook on Schools, Schooling, and Human 
Development, Taylor & Francis. Roderick, M., & Nagaoka, J. (2005). 
Retention under Chicago's high-stakes testing program: Helpful, harmful 
or harmless? Education Evaluation and Policy Analysis, 24(4), 309-340. 
Roderick, M., & Engel, M. (2001). The grasshopper and the ant: 
Motivational responses of low-achieving students to high-stakes 
testing. Educational Evaluation and Policy Analysis, 23(3), 197-227. 
Roderick, M., Engel, M., & Nagaoka, J. (2003). Ending social promotion: 
Results from Summer Bridge. Chicago, IL: Consortium on Chicago School 
Research.

       Too much of an emphasis on tests can lead it to appear as if 
learning is improving, when instruction is actually being narrowly 
focused to better test performance. This can be seen when districts 
change the assessments used for school accountability. In Chicago, for 
example, performance declined considerably at the schools under the 
most pressure to improve scores when the district switched tests in 
2006--these schools had been tailoring instruction too narrowly to the 
old test. \4\
---------------------------------------------------------------------------
    \4\ Luppescu, Stuart. Elaine M. Allensworth, Paul Moore, Marisa de 
la Torre, James Murphy with Sanja Jagesic. 2011. Trends in Chicago's 
Schools Across Three Eras of Reform. Consortium on Chicago School 
Research, Chicago, Illinois. http://ccsr.uchicago.edu/content/
publications.php?pub_id=157

       When so much pressure is placed on students' test performance, 
the goal of instruction becomes improving test scores, rather than 
making students into good learners. Ironically, test scores are not 
that predictive of later outcomes--including success in college. 
Getting students to do well on tests does not have much pay-off for 
students, unless it is done in a way that makes them more engaged in 
the subject and teaches them how to be better learners. What is much 
more important is the degree to which students are actively engaged and 
earning high grades in their science and math classes--regardless of 
their test scores. \5\
---------------------------------------------------------------------------
    \5\ Roderick, Melissa, Jenny Nagaoka, Elaine Allensworth, Vanessa 
Coca, Macarena Correa and Ginger Stoker. 2006. From High School to the 
Future: A first look at Chicago Public School graduates' college 
enrollment, college preparation, and graduation from four-year 
colleges. Consortium on Chicago School Research, Chicago, Illinois. 
Allensworth, Elaine M., John Q. Easton. 2005. The On-Track Indicator as 
a Predictor of High School Graduation. Consortium on Chicago School 
Research, Chicago, Illinois. http://www.consortium-chicago.org/
publications/p78.html

    3.  Teacher Quality. One of President Obama's key STEM initiatives 
has been his 100Kin10, a public-private effort to recruit and train 
100,000 new high-quality STEM teachers within the next ten years. 
Chicago also has sought to increase the supply of highly qualified 
teachers by partnering with a number of organizations to try to 
increase teacher quality, and the system has succeeded in hiring many 
more high-achieving candidates. However, teachers tend to leave schools 
with poor climates for learning, or where they do not feel supported by 
their colleagues and administration. \6\ Getting the best teachers in 
the worst schools doesn't help improve the schools if they don't stay 
in those schools. Furthermore, highly-qualified teachers are not even 
very effective in schools that are not well organized to support 
instruction. While student achievement tends to be higher in schools 
with more highly-qualified teachers, there is no relationship between 
teacher quality and student achievement in schools with poor climates 
for learning-places that are disorganized and where students and 
teachers do not feel safe and supported. \7\ Thus, the federal 
investment in training and recruiting high-quality teachers is unlikely 
to have a positive effect on chronically low-achieving schools without 
a corresponding push to improve the organizational health of schools.
---------------------------------------------------------------------------
    \6\  Allensworth, Elaine M., Stephen Ponisciak and Christopher 
Mazzeo. 2009. The Schools Teachers Leave: Teacher Mobility in Chicago 
Public Schools. Consortium on Chicago School Research, Chicago, 
Illinois.
    \7\ DeAngelis, Karen J. and Presley, Jennifer B.(2011) 'Teacher 
Qualifications and School Climate: Examining Their Interrelationship 
for School Improvement', Leadership and Policy in Schools, 10: 1, 84-
120.

    What we have learned from our 20 years studying Chicago Public 
Schools is that we need well-organized schools to make good use of 
high-quality curriculum, respond to accountability standards, and 
retain good teachers. Otherwise, these policies do not improve student 
achievement. Schools that do not have the capacity to respond to the 
policies react in counter-productive ways.
    What matters most for school improvement and high learning gains is 
whether they are organized to support students as learners. Two decades 
of research in Chicago shows that this requires building the 
organizational capacity of schools in five essential areas. \8\ Schools 
that are strong in three of five of these areas are 10 times more 
likely to improve student learning in math and reading than schools 
that are weak in any. These include:
---------------------------------------------------------------------------
    \8\ Bryk, Anthony S., Penny Bender Sebring, Elaine Allensworth, 
Stuart Luppescu, John Q. Easton. 2010. Organizing Schools for 
Improvement: Lessons from Chicago. Chicago: University of Chicago 
Press.

      Strategic school leadership. Principals must be strategic--
focused on improving the other four organizational supports, and 
---------------------------------------------------------------------------
include staff and parents in school decision-making.

      Strong professional capacity. Teaching staff should be skilled, 
but more important than the qualifications of individual teachers is 
the degree to which faculty and staff work together to improve the 
learning climate and instruction in the school.

      Parent-community ties. Successful schools actively involve 
parents as partners in children's education and use local partners to 
support instruction in the school in a coordinated way.

      Student-centered learning climate. Learning requires an 
environment that is safe, stimulating and supportive for all students.

      Instructional Guidance. Student learning depends on instruction 
that engages them as learners, so that the focus is on students rather 
than on content. It also requires that curriculum be aligned across 
grade levels and subjects so that students are increasingly developing 
their skills through challenging tasks.

    One of the key studies that examined these organizational supports 
compared reading and math improvement in 400 low-performing elementary 
schools in Chicago. As previously mentioned, this work showed that 
schools with strong organizational supports were 10 times more likely 
to improve learning gains over time than those with any weakness. No 
schools with a poor learning climate and weak professional capacity 
improved over the six years of the study. But half of the schools with 
an aligned curriculum and collaborative relationships among teachers or 
between teachers and parents showed large improvements in math and 
reading scores gains. All of these schools were high-poverty schools 
located in highly disadvantaged communities. \9\
---------------------------------------------------------------------------
    \9\  Bryk, Anthony S., Penny Bender Sebring, Elaine Allensworth, 
Stuart Luppescu, John Q. Easton. 2010. Organizing Schools for 
Improvement: Lessons from Chicago. Chicago: University of Chicago 
Press.
---------------------------------------------------------------------------
    Notably, those schools in the most disadvantaged neighborhoods were 
most in need of strong organizational supports to show improvements. In 
neighborhoods where external supports for schools were weak--where 
there were low levels of education and employment in the community and 
little participation in community or religious organizations--the 
internal supports needed to be stronger. In schools serving families 
and communities with more social and financial capital, schools could 
improve as long as the internal organizational supports of the school 
were not weak.
    This suggests that for policies around standards, accountability, 
and teacher quality to succeed, they should be designed in ways that 
promote the development of the five essential supports. It is important 
to think about the organizational capacity that schools will need to 
successfully implement new policies, and whether additional resources 
will be needed for schools with low capacity to implement them 
successfully. For example:

    <bullet>  Curricular Standards. To make the new Common Core 
standards effective for improving learning, schools requiring the 
largest instructional shifts will need support for students and 
teachers so that learning climate does not decline with the challenge 
of the new curriculum. For the new standards to result in better 
outcomes for students, students need to be engaged in that curriculum. 
Teachers need help designing instruction in ways that keep students 
engaged around the rigorous material, and to continuously monitor how 
they are doing so that they can support them as soon as they start to 
struggle. This is more likely to happen if there are systems in place 
to support teachers in instruction, classroom management, and 
monitoring and assessment. Potentially beneficial supports include time 
in teachers' schedules to work together to help each other with 
instructional challenges, extra staff in classrooms as partners with 
teachers to help students as soon as they start to struggle or 
withdraw, and use of technology to help monitor students' engagement 
and provide immediate feedback to teachers and parents when students 
fall behind. \10\
---------------------------------------------------------------------------
    \10\ In 2003, Chicago attempted to improve algebra performance for 
students entering high school with weak math skills by giving them 
twice as much instruction, and giving their teachers professional 
development to use the extra instructional time. While the policy only 
targeted students with below-average math skills, it resulted in higher 
test scores for all students. By giving extra support to low-skill 
students, they no longer held back the pacing and content of algebra 
classes for students with above-average skills, so that students with 
above-average skills also learned more (Nomi, Takako and Elaine 
Allensworth. 2009. ``Double-Dose'' Algebra as an Alternative Strategy 
to Remediation: Effects on Students' Academic Outcomes. Journal of 
Research on Educational Effectiveness, 2: 111-148.). For further 
discussion of this issue, see Luppescu, Stuart. Elaine M. Allensworth, 
Paul Moore, Marisa de la Torre, James Murphy with Sanja Jagesic. 2011. 
Trends in Chicago's Schools Across Three Eras of Reform. Consortium on 
Chicago School Research, Chicago, Illinois. http://ccsr.uchicago.edu/
content/publications.php?pub_id=157

    <bullet>  Accountability. In order for accountability to lead to 
real progress, the indicators that are tracked need to measure 
progress. This means looking at average gains, rather than tracking the 
percentage of students that meet particular scores corresponding with 
state or national standards. Furthermore, accountability metrics should 
include measures that are strongly associated with later outcomes, not 
just test scores. College acceptance rates, and whether students 
persist in college through graduation, are not subject to the problems 
associated with accountability based on test scores. Basic measures 
like attendance in classes, interest in math and science, and students' 
perceptions of challenge and support in their math and science classes 
are strong and valid indicators of later outcomes. These are also 
indicators that are easier for staff to work together to improve, and 
improvement in student achievement is most likely to happen when staff 
---------------------------------------------------------------------------
work together on common problems.

       The money that has been invested by the federal government in 
data systems allows for better use of data for intervention and 
strategy, not just for accountability. In Chicago, high schools have 
been making tremendous progress in high school graduation and college 
enrollment by tracking indicators such as student attendance, grades, 
college applications, and FASFA through student and school reports that 
are updated frequently. In Chicago, the percentage of students who are 
``on-track'' to graduate after freshman year increased by 11 percentage 
points between 2002 and 2010. This improvement should result in a 
commensurate increase in graduation rates. Those schools that have made 
the most progress use the reports to get staff working together to 
develop strategies and help each other improve those outcomes. They use 
data on individual students to build partnerships between teachers and 
parents.

    <bullet>  Teacher quality. It is vital to have teachers who know 
their subject well, and who know how to teach the students in their 
classroom. If we expect students who have very weak academic skills to 
master college-ready material, this means they need the strongest 
teachers. More importantly, those teachers need support, high-quality 
professional development that is embedded in their work at their 
school, and colleagues who are collaborative and will help them when 
they need it. \12\ It is difficult to mandate cooperation, but the 
government can provide resources so that teachers have the time to work 
together, and resources that help them use that time effectively. They 
can encourage the use of teacher evaluation systems that promote 
collaboration with colleagues and with parents.
---------------------------------------------------------------------------
    \12\ Bryk, Anthony S., Penny Bender Sebring, Elaine Allensworth, 
Stuart Luppescu, John Q. Easton. 2010. Organizing Schools for 
Improvement: Lessons from Chicago. Chicago: University of Chicago 
Press.

    Rigorous curriculum standards, high-stakes school accountability, 
and efforts to attract more teachers with strong backgrounds are all 
strategies that may have potential for improving student achievement; 
however, they have had little pay-off in Chicago's schools. As the 
federal government works to implement similar strategies it would be 
wise to learn lessons from Chicago's efforts and carefully consider 
when designing new initiatives the capacity of schools to implement 
those standards, respond to accountability, and keep and support strong 
teachers. This is especially critical if there is to be real 
improvement in STEM learning and STEM careers among minority youth 
concentrated in low-performing urban school districts.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Brooks. Thank you, Dr. Allensworth.
    And next, we have Dr. Means for five minutes.

STATEMENT OF DR. BARBARA MEANS, DIRECTOR, CENTER FOR TECHNOLOGY 
                 IN LEARNING, SRI INTERNATIONAL

    Dr. Means. Chairman Brooks, Ranking Member Lipinski, 
Chairman Wolf, and Members of the Subcommittee, thank you for 
this opportunity to testify.
    I am going to address what I believe is one of the most 
vexing questions facing STEM education today. Given the many 
innovations that show promising results in early studies, why 
does so little rise to the scale where it makes a real 
difference in schools across the country? As Dr. Gamoran noted, 
we need rigorous longitudinal studies to help us understand how 
to develop and nurture STEM interest, persistence, and learning 
among all students. And we also need effective strategies for 
putting the insights that come from such studies into practice 
on a broad scale.
    Conventional thinking is that once we have identified an 
effective educational product or approach, we should simply 
roll it out to as many schools and classrooms as possible. The 
assumption is that these schools will experience the same 
positive outcomes observed earlier. My basic message is that 
this assumption is flawed and that efforts to improve or to 
implement innovative K-12 STEM education approaches on a large 
scale need to be combined with rigorous research on those 
approaches in multiple contexts.
    Educational effectiveness is a function of what gets 
implemented, not simply the elements of an innovation's design 
or a government policy. And aspects of context--by which I mean 
factors such as grade level, school size, accountability 
measures, student characteristics, family, and community 
resources--have profound effects on how educational programs 
get interpreted and actually implemented.
    Take the case of STEM-focused high schools. Selective STEM 
high schools were designed to serve our brightest students, and 
test scores are a major factor in gaining admission. The bold 
idea behind inclusive STEM schools such as that in Denver is to 
offer the same intensive focus on STEM subjects to students who 
are not selected by examination, to develop STEM expertise 
rather than selecting for it. It is easy to understand that 
instructional approaches and materials that work well with 
northern Virginia's highest-scoring students who gain entrance 
to Thomas Jefferson High will need to be modified to be 
effective with students who enter an inclusive STEM high school 
a year or more behind in mathematics.
    Before promoting inclusive STEM high schools as a policy, 
we should have well designed research demonstrating that such 
schools increase the likelihood that their students will be 
interested in and prepared for STEM college majors and careers. 
But this kind of research, though important, is not enough. If 
inclusive STEM high schools are effective, we will still need 
to figure out how we can make them widely available.
    For example, Texas has been particularly active in 
promoting inclusive STEM high schools. Although there are 
scores of these schools in Texas, less than one percent of the 
State's high school students attend one. So solid evidence that 
these schools are effective would lead us to the next and more 
difficult question: How can we obtain similar results for all 
students? The approach that works with T-STEM schools of 400 
students likely would have to be modified for schools with 
1,000 or 2,000.
    The rationale for bringing a new, potentially effective 
educational approach to many students is obvious, but the need 
to support initial large-scale implementations with research is 
less understood. We tend to plan for replicating a successful 
education approach as if we could simply have an assembly line 
produce more widgets. But the components of an education 
approach interact with and are shaped by the elements of 
context where we try to implement them. For this reason, we 
need to combine scaling with research on the approach as 
implemented under different conditions.
    I will illustrate with something found in the New York 
Times last weekend. The National Evaluation of Educational 
Technology Interventions, of which I was a part, examined the 
effectiveness of 16 reading and math software products. These 
products were selected for the study because they had prior 
evidence of effectiveness. In the large-scale national study, 
however, on average none of them produced significantly better 
achievement than was attained by students in classrooms 
assigned to the control condition.
    On the other hand, for virtually every product there were 
some schools where those using the software outperformed the 
control classrooms and some schools with the opposite pattern. 
We learned that features such as the student's grade level, the 
school's technology infrastructure, and district policies 
around curriculum and assessment influenced the extent to which 
and the way in which software was implemented.
    To increase the odds that new K-12 education approaches 
will have positive effects when implemented on a large scale, 
researchers should be brought in to work with educators. 
Researchers can contribute their expertise to implementation 
planning and to building in data collections that can serve as 
feedback for those in charge of the program. We need 
collaborative efforts aimed both at scaling up approaches with 
prior evidence of effectiveness and studying what happens in 
multiple settings while advising those responsible for 
implementing the education approaches.
    Thank you for your attention and the opportunity to submit 
this testimony.
    [The prepared statement of Dr. Means follows:]
     Prepared Statement of Dr. Barbara Means, Director, Center for 
               Technology in Learning, SRI International
    Chairman Brooks, Ranking Member Lipinski, and other Members of the 
Subcommittee, thank you for this opportunity to participate in this 
hearing on What Makes Successful K-12 STEM Education.
    My name is Barbara Means and I direct the Center for Technology in 
Learning at SRI International, an independent nonprofit research 
organization based in Menlo Park, CA.
    I was a member of the National Research Council committee chaired 
by Dr. Gamoran that produced the Successful K-12 STEM Education report.
    In my testimony today, I'm going to first underline my support for 
what I regard as key aspects of that report and then address what I 
believe is the most vexing question that faces us today: Given that the 
federal government funds so many wonderful innovations that show 
promising results in the early studies, why does so little rise to the 
scale where it makes a real difference in schools across the country? 
And just to foreshadow where I'll be going, I will argue that our 
greatest unmet R&D need is learning how we can achieve consistently 
high-quality implementation of good ideas across all the variation 
found in American schools.
    I believe that the Successful K-12 STEM Education committee's 
articulation of K-12 education goals not just for universal STEM 
literacy but for preparing broader sections of our student population 
for advanced-degree STEM and STEM-related occupations as well is very 
important. A balanced K-12 STEM education agenda will work toward all 
three of these goals.
    And meeting these goals will require research addressing not only 
math and science achievement but also students' interest in STEM, their 
persistence in STEM courses in high school and postsecondary study, and 
their participation in STEM-related activities outside of school and in 
the job market. As Dr. Gamoran noted, we need rigorous longitudinal 
studies to help us understand how to develop and nurture STEM interest, 
persistence, and learning among student groups that now shy away from 
these subjects.
    I am going to focus the remainder of my remarks on the steps needed 
to put the kinds of insights that could come from such studies into 
practice on a broad scale. The big challenge is scaling up what appear 
to be successful programs in ways that produce positive results for 
most or all of our students.
    Conventional thinking on the part of many federal and private 
philanthropic programs has been that once we've identified an effective 
educational product or approach, we should simply roll it out to as 
many schools and classrooms as possible. The implicit assumption is 
that these schools will experience the same positive outcomes for the 
approach observed originally. I am going to argue that this assumption 
is flawed and that efforts to implement innovative K-12 STEM education 
approaches on a large scale need to be combined with rigorous research 
on those approaches in multiple contexts.

Need for Combining Scaling and Implementation Research

    Educational effectiveness is a function of what gets implemented, 
not simply the elements of an innovation's design or a government 
policy. \1\ And aspects of context--by which I mean factors such as 
grade level, school size, accountability measures, students' 
characteristics, and parent and community resources--have profound 
effects on how educational programs are interpreted and implemented.
---------------------------------------------------------------------------
    \1\ McLaughlin, M. W. (1987). Learning from experience: Lessons 
from policy implementation. Educational Evaluation and Policy Analysis, 
9, 171-178; Spillane, J. (2004). Standards deviation: How schools 
misunderstand education policy. Cambridge, MA: Harvard University 
Press.
---------------------------------------------------------------------------
    I will illustrate this argument with the case of STEM-focused high 
schools. Selective STEM high schools were designed to serve our 
brightest students, and test scores are a major factor in gaining 
entrance. The bold idea behind inclusive STEM schools is to offer the 
same intensive focus on STEM subjects to students who are not selected 
by examination-to develop STEM expertise rather than selecting for it. 
It is easy to understand that instructional approaches and materials 
that work well with Northern Virginia's highest-scoring students who 
gain entrance to Thomas Jefferson High School will need to be modified 
in order to be effective with students who are a year or more behind 
national norms in math achievement when they enter an inclusive STEM 
high school.
    Before promoting inclusive STEM high schools as a policy, we should 
have well-designed research demonstrating that such schools increase 
the likelihood that their students will be interested in, and prepared 
for, STEM college majors and careers. In fact, with a grant from the 
National Science Foundation (NSF), I am starting to examine the 
feasibility of conducting such a study. But this kind of research by 
itself is not sufficient.
    If today's inclusive STEM high schools are effective, we need to 
figure out how we can make them widely available. For example, Texas 
has been particularly active in promoting inclusive STEM high schools. 
The Texas design for inclusive STEM schools calls for providing 
students with personal attention, in part by limiting school size to 
100 students per grade. Although there are scores of these schools in 
Texas, less than one percent of the state's 1.4 million high school 
students attend them. So solid evidence that these schools are 
effective would lead us to the next, more difficult question. How can 
we obtain similar results for all of our students? The approach that 
works with schools of 400 students would have to be modified for 
schools with 1,000 or 2,000 students, and we would not know whether it 
would still be effective.
    The rationale for bringing a new, potentially effective educational 
approach to many students is obvious, but the need to support initial 
large-scale implementations with research is less easily understood. We 
tend to plan for replicating a successful education approach as if we 
could simply have an assembly line produce more widgets. But the 
components of an education approach interact with, and are shaped by, 
the elements of the context in which we try to implement them, as Dr. 
Allensworth's research illustrates. For this reason, we need to combine 
scaling with research on the approach as implemented under different 
conditions.
    Over the last decade, we have invested in large-scale experimental 
studies to answer the question of whether certain prominent educational 
approaches on average produce a significant benefit. Such studies are 
valuable in building a knowledge base, but educators care about results 
for their students, not averages. And they want to know not just 
whether they can expect good results in their setting but how to 
implement the approach to maximize prospects for success.
    Let me illustrate my point with an example that found its way into 
a New York Times article last weekend. \2\ The National Evaluation of 
Educational Technology Interventions, of which I was a part, examined 
the effectiveness of 16 reading and mathematics software products 
implemented in grades 1, 4, 6 and high school. These particular 
software products were selected for this large-scale experiment because 
they could point to some evidence that they were effective. In the 
large-scale national study, however, on average, none of the products 
produced significantly better student achievement than was attained by 
students in classrooms assigned to the control condition. \3\ On the 
other hand, for virtually every product, there were some schools in 
which the software-using classes out-performed the control classes, 
some schools where the control classes outperformed the software-using 
classes, and some schools where the two were equivalent. We can choose 
to treat such variation as random ``noise,'' or we can focus on it as 
an object of study. I am among those advocating the latter stance. \4\
---------------------------------------------------------------------------
    \2\ Gabriel, T., & Richtel, M. (2011). Grading the digital school: 
Inflating the software report card. The New York Times, Oct. 9, 2011.
    \3\ Dynarski, M., Agodini, R., Heaviside, S., Novak, T., Carey, N., 
Means, B., et al., (2006). Effectiveness of educational technology 
interventions. Report prepared for Institute of Education Sciences, 
U.S. Department of Education. Princeton, NJ: Mathematica Policy 
Research, Inc.
    \4\ Bryk, A., Gomez, L., & Grunow, A. (2010). Getting ideas into 
action: Building networked improvement communities in education. 
Available at http://www.carnegiefoundation.org/print/7645.
---------------------------------------------------------------------------
    In the case of the national experiment on educational software, for 
example, we learned that features such as the students' grade level, 
the school's technology infrastructure, and district policies around 
curriculum and assessment influenced the way in which software was 
implemented. For example, some elementary school teachers had a set of 
computers in their classrooms and could have some of their students 
using the software while others worked with the teacher or did silent 
reading. Such flexibility was rare in middle and high schools where it 
was more common to have the whole class use the software on selected 
days, often in a separate computer laboratory.
    The physical environment makes a difference in how an educational 
approach is implemented. In an extreme example, a sixth-grade class 
tried to use math software on laptops passed out to students in a large 
auditorium. The teacher could not help students because they were 
tightly packed in rows, so students could not get instructor assistance 
if they were having difficulty with the software program.
    This class also provided an illustration of the inter-connected 
roles of teacher judgment and district policies. The math software was 
designed to individualize instruction, with each student working on a 
learning objective until he or she had mastered it. The teacher had 
different ideas, based upon his interpretation of school district 
policy. The district had instituted benchmark tests in mathematics 
every six weeks along with associated pacing charts indicating what 
should be taught in each period. In this context, the teacher felt 
there was no time to teach to mastery even though many of his students 
were English language learners who struggled with math. The infinitely 
patient technology tutor might have been ideal for such students, but 
the teacher believed that the district's policies required him to 
``touch upon a topic and move on.''
    I do not want to leave the impression that the effects of local 
context are always negative. Modifications of an education approach to 
better fit with local circumstances or the needs and interests of a 
particular set of students and instructors may enhance effectiveness in 
that setting. We found a number of examples in our studies of GLOBE, an 
Internet-based Earth science education program in which students took 
weather, vegetation, soil, and water measures for a local study site 
and uploaded them to a worldwide database used by both scientists and 
educators. Students whose teachers elaborated on the practices in the 
Teachers Guide by adding data analysis activities performed better than 
students of other GLOBE teachers on an assessment of science inquiry. 
\5\ We found also that classes of teachers who designed extensions of 
the GLOBE investigations focusing on questions about their local 
environment were more active in the program (contributed more data to 
the database) than did other classrooms. \6\ We brought these practices 
to the attention of the GLOBE program staff who were then able to build 
training and support for such practices into their program.
---------------------------------------------------------------------------
    \5\ Means, B., & Penuel, W. R. (2005). Scaling up technology-based 
educational innovations. In C. Dede, J. P. Honan, & L. C. Peters 
(Eds.), Scaling up success: Lessons from technology-based educational 
improvement. San Francisco: Jossey-Bass.
    \6\ Means, B., Penuel, W. R., Crawford, V. M., Korbak, C., Lewis, 
A., Murphy, R. F., et al. (2001). GLOBE Year 6 evaluation: Explaining 
variation in implementation. Menlo Park, CA: SRI International.
---------------------------------------------------------------------------
    SRI spent over ten years conducting research in support of the 
GLOBE program, an unusually long-lived collaboration. At the start of 
this joint work, the GLOBE program staff assumed that they could 
promote effective STEM learning activities if they simply trained 
teachers in how to conduct the scientific data collection protocols. 
They expected teachers to know how to make the data collection 
activities instructionally meaningful. Early on, we were able to show 
program staff that many teachers struggled to relate GLOBE activities 
to their local science curriculum. While high school teachers brought 
greater knowledge of science content, many of them were inexperienced 
in conducting hands-on activities with small groups of students. The 
program needed to entirely revamp its teacher training approach to 
address the range of needs uncovered by the research.
    To increase the odds that new K-12 STEM education approaches will 
have positive effects when implemented at a large scale, researchers 
should be brought in to work with educators. Researchers can contribute 
their expertise to implementation planning and to building in data 
collections that can serve as feedback for those in charge of the 
program. At the same time, by studying implementation in multiple 
contexts, researchers can advance our understanding of the necessary 
preconditions, critical elements, and both therapeutic and harmful 
adaptations of the approach.
    In short, I am calling for a much closer relationship between STEM 
education research and K-12 STEM education practice. We need 
collaborative efforts aimed both at (1) scaling up approaches with 
prior evidence of effectiveness and (2) studying what happens in 
multiple settings while advising those responsible for implementing the 
education approaches.

Approaches to Implementation Research

    In recent years the Carnegie Foundation for the Advancement of 
Teaching has been promoting what it calls ``improvement research'' 
incorporating design, educational engineering, and development (DEED) 
activity. \7\ Applied to K-12 STEM education, DEED collaborations would 
involve scientists, researchers, and education practitioners in jointly 
defining a problem of practice and then developing, trying out, 
evaluating and revising education approaches. Repeated cycles of 
design, development, measurement and feedback are central to this 
approach.
---------------------------------------------------------------------------
    \7\ Bryk, A., & Gomez, L. M. (2008). Ruminations on reinventing an 
R&D capacity for educational improvement. Available at http://
www.carnegiefoundation.org/improvement-research/approach.
---------------------------------------------------------------------------
    Many of the same elements can be found in educational researchers' 
call for ``implementation research" \8\ or ``design-based 
implementation research.'' \9\ Defining elements of this approach are:
---------------------------------------------------------------------------
    \8\ McLaughlin, M. W. (2006). Implementation research in education: 
Lessons learned, lingering questions and new opportunities. In M. I. 
Honig (Ed.), New directions in education policy implementation: 
Confronting complexity (pp. 209-228). Albany, NY: SUNY Press.
    \9\ Penuel, W. R., Fishman, B. J., Cheng, B. H., & Sabelli, N. 
(2011). Organizing research and development at the intersection of 
learning, implementation, and design. Educational Researcher, 40(7), 
331-337.

    <bullet>  a focus on important problems of educational practice as 
---------------------------------------------------------------------------
defined by practitioners and researchers,

    <bullet>  commitment to iterative, collaborative design,

    <bullet>  interest in developing a theory of program implementation 
through systematic inquiry, and

    <bullet>  concern with developing education systems' capacity for 
change.

    Implementation research requires a kind of partnership between 
education research organizations and schools and districts that is rare 
at present, but there are several existence proofs involving 
mathematics or science education. \10\ When the focus is STEM 
instructional materials, science institutions should be brought into 
the mix as well.
---------------------------------------------------------------------------
    \10\ Cobb, P. A., Henrik, E. C., & Munter, C. (2011). Conducting 
design research at the district level. Paper presented at the annual 
meeting of the American Educational Research Association, New Orleans. 
Roschelle, J., Schechtman, N., Tatar, D., Hegedus, S., Hopkins, B., 
Empson, S., Knudsen, J., & Gallagher, L. (2010). Integration of 
technology, curriculum, and professional development for advancing 
middle school mathematics: Three large-scale studies. American 
Educational Research Journal, 47(4), 833-878. Songer, N. B., Kelcey, 
B., & Wenk Gotwals, A. (2009).
---------------------------------------------------------------------------
    A key difference between the K-12 STEM education implementation 
research agenda I am advocating and many existing federal K-12 STEM 
education expenditures is the principle of striking a three-way balance 
between scientists, education researchers, and education practitioners. 
Federally funded K-12 STEM education R&D should reflect deep expertise 
in STEM, address problems that educators care about, and have the 
potential to produce generalizable insights regarding organizational 
change, learning, and instruction. Funded initiatives should be neither 
research for its own sake, nor federal underwriting of K-12 education 
as usual, nor feel-good programs of scientists visiting classrooms for 
show and tell. I am advocating long-term, sustained collaborations with 
the three types of partners (scientists, educators, and education 
researchers) having equal roles in setting the agenda.

Federal Role in K-12 STEM Education

    In this country, public education is a state and local 
responsibility. So what role should the federal government have in K-12 
STEM education? I believe that the federal government has two 
responsibilities in this realm. First, it can articulate our country's 
goals for K-12 STEM education and a vision of how to attain them. The 
Successful K-12 STEM Education report provides a starting point for 
articulating goals. Second, the federal government has a responsibility 
to support the infrastructure for improving STEM education and 
measuring that improvement. This infrastructure includes both concrete 
resources, such as assessment tools and data systems, and R&D 
activities, such as those I've described as implementation research. 
The bringing together of research and educational practice that I have 
described would require both intellectual and monetary investments. 
Individual states and districts lack the resources and the broad 
national vision for this undertaking.

Funding K-12 STEM Education Implementation Research

    How do we fund this kind of research and implementation at scale in 
this time of limited resources? I am no expert in federal agency 
budgets, but I suspect that we could implement a significant program of 
K-12 STEM education implementation research using money that we are 
already spending that could be put to better purpose. I would look to 
programs that add a small K-12 education component to grants intended 
for STEM research activities or that add a token evaluation component 
to grants for STEM educational activities.
    Pro forma outreach activities where a STEM professional makes a 
one-time visit to a classroom are unlikely to have long-term effects 
for education institutions, teachers or students. STEM education 
programs where 95% of the resources go to providing services and less 
than 5% to measuring whether and under what circumstances those 
services had positive effects are unlikely to build a robust knowledge 
base about how to implement effective STEM education at scale. Funding 
that is thinly spread across many grants and programs for ``light 
touch'' STEM education activities and perfunctory evaluations could be 
re-allocated toward a smaller number of significant implementation 
research efforts.
    In 2007 the Academic Competitiveness Council reported that a dozen 
different federal agencies were supporting 105 STEM education programs 
at a cost of over $3 billion ($574 million of which was for K-12 
programs). Some of these are surely valuable programs, but others are 
likely to be too superficial to be serving our national STEM education 
goals. A portion of those targeting K-12 education could be 
consolidated or eliminated to free up funding for a significant program 
of K-12 STEM education implementation research.
    Networks of multiple K-12 STEM education research and development 
collaborations, working on the same problem and sharing a common 
analytic framework, could accelerate the generation of knowledge about 
what approaches work in what contexts and with what range of 
implementation practices.

Policy Implications

    Education approaches that are significant enough to have long-
lasting consequences are necessarily complex. We need research on the 
resource requirements, key choices and practices in implementing K-12 
STEM education approaches, and on how the approaches can be implemented 
to good effect in different settings.
    At present, the National Science Foundation encourages proposals 
for implementation research under one of its field-initiated grant 
programs, but STEM education implementation research is not a core 
responsibility of any federal agency. The National Science Board 
Commission on 21st Century Education in STEM called attention to this 
gap in its 2007 national action plan (p. 14) and called for NSF to 
promote STEM education research on critical challenges defined by the 
field of educational practice.
    Research on STEM learning, instructional practices, and 
infrastructure needs to be coupled with the study of implementation and 
local infrastructure reform. The work needs to be designed in such a 
way that it both enhances the practice of participating education 
institutions and yields generalizable insights that build knowledge for 
the field. Such collaborations require new practices and new sets of 
skills on the part of scientists, educators, and researchers alike. 
Field-building activities, promoting the needed skills both in people 
being trained for STEM professions, education research, and education 
administration and in those currently engaged in these professions, 
will be necessary. We have seen a few isolated examples of such 
collaborations, but we are unlikely to see them become common without 
leadership and support at the federal level.
    Thank you for your attention and the opportunity to submit this 
testimony.

    Chairman Brooks. Thank you, Dr. Means.
    Just by way of background, my wife used to be a certified 
public accountant, had kids, went back to school, got a math 
degree, taught math at middle school and I am very familiar 
with the STEM program. My father and two sons, they are all 
engineers. I am the wayward one that Chairman Wolf referred to 
earlier who became a lawyer.
    Having said that, for decades now we have been discussing 
the benefits of STEM education to United States innovation and 
economic competitiveness. Bookcases can be filled with the 
reports dedicated to this topic. We have spent tens of 
billions, perhaps hundreds of billions of dollars, looking at 
ways to improve K through 12 STEM education and all indications 
are that we are not making the kind of vast improvements we 
would expect from those large expenditures.
    I am not suggesting stopping these investments, certainly 
not that, but I would like to ask all the witnesses what have 
we gotten for our investments to date? How will putting more 
money towards research and programs produce a better quality 
and quantity of STEM students? Not just at the K through 12 
level, which is certainly where you all have focused, but as I 
understand it, you are focusing at STEM at K through 12 in 
hopes of our being able to graduate from our universities with 
BS degrees, master's degrees, or Ph.D. degrees individuals who 
have the kind of skills in the STEM subjects that empowers 
America and empowers our economy to a technological advantage 
that we would not have if we did not have those students going 
into those areas.
    So with that having been said, how would you evaluate the 
expenditures so far and where would you prefer we put the money 
if you have a different preference on how to get to the end 
game, and the end game being the additional BS, master's, and 
Ph.D. diplomas in the STEM subjects? Please, Dr. Gamoran?
    Dr. Gamoran. Well, your question focuses on one of the 
three goals that we identified. You are talking about nurturing 
some of our most talented students from all walks of life and 
getting them into these high-level STEM careers. That is 
extremely important along with creating a broader STEM-capable 
workforce and encouraging scientific literacy.
    But what we have learned from research is that there are 
programs and schools that can foster these effects. One thing 
you gain by going through the research carefully is you find 
out what we do know and you also find out what we don't know. 
And I think this is a good moment in time to have taken stock 
and to say here is where the critical investments are needed. 
For example, research that connects the outcome to specific 
practices within these high-flying schools, research that 
connects student outcomes to specific practices in a broad 
range of schools as well.
    With respect to investments, as I said in my written 
testimony, I think the Education and Human Resources 
Directorate at NSF and IES, which are the leaders--IES is in 
the Department of Education--which are the leaders in 
supporting STEM education research are well positioned for this 
role. We invest in STEM education, programming, and research in 
a wide range of federal agencies, and I know that the Office of 
Science and Technology Policy is reviewing that, and I think we 
should take a close look at that to see whether narrowing our 
investments to agencies that specialize in STEM education 
research would produce a higher yield.
    Chairman Brooks. Thank you, Dr. Gamoran.
    Any other comments? If not I have got another question or 
two, but anyone has anything to add, please do so. Dr. Means?
    Dr. Means. I would just reiterate that I think the 
important point here is to try to combine things that we are 
funding as implementation of programs with research on the 
effectiveness of those programs. Too often we have treated 
research and implementation as separate activities, and I am 
arguing that we really need to put these things together and 
not implement broad policies in the absence of having research 
support for their implementation and research that helps us 
learn from those broad implementations.
    Chairman Brooks. Thank you.
    It seems to me one of the issues we have is motivation of 
students so that they will focus on the STEM subjects. In turn, 
to some degree that involves the motivation of parents. You 
motivate the parents, we all know that parents can to some 
degree help motivate the students. That having been said, one 
of the ideas that I have toyed with--and there are a lot of 
out-of-box thinking approaches that can be used, and again, I 
welcome whatever insights you all may have of an out-of-the-box 
nature--but we spend over $30 billion a year promoting STEM in 
one shape, form, or fashion, and just doing some math that--you 
could spend $10,000 a year per pupil in our universities as 
scholarships as an inducement to go into the science, 
technology, engineering, and math fields and still have 
billions of dollars left over for what we are now doing.
    Do you all have any insight as to whether $10,000 a year 
would be an incentive for people--students and parents in the K 
through 12 levels to focus more on the STEM subjects and then 
enter those in college if they knew that kind of scholarship 
was coming? Yes, sir? Mr. Heffron?
    Mr. Heffron. So I could speak to that. I think that if 
there is funding tied to STEM fields as far as scholarships, 
that is hugely impactful to a kid who is trying to decide where 
they are going to go to school. The only problem there is if 
they get to the 12th grade and they are not prepared for those 
degrees and those fields of study, it doesn't matter if there 
is money out there. So I guess I just want to go back to kind 
of the importance of preparing every kid with a rigorous 
education so that when they get to their senior year and there 
is more money out there for a particular field, they actually 
have the capacity to go after it.
    Chairman Brooks. So you see the scholarship as impacting 
12th grade but not K through 11th?
    Mr. Heffron. I see it impacting a student who is prepared 
and is trying to decide whether they are going to go to law or 
medicine or engineering or something like that, but I don't 
think it is big enough, I don't think it is going to affect a 
ninth grader when they are really trying to make a decision 
about--or even a ninth grade family around what they are taking 
or what a school is potentially offering.
    Chairman Brooks. Okay, thank you.
    Dr. Allensworth?
    Dr. Allensworth. Yeah, I absolutely agree. And, you know, I 
come from Chicago. It is a low-income, high-minority district. 
Lots of students actually want to go into STEM careers when 
they are in ninth grade and tenth grade but they have no idea 
how to get there and they don't realize that they are vastly 
underprepared. They are not being closely monitored, they are 
not being closely tracked to make sure that they actually do 
what they need to do to get on a path. And then they get to 
12th grade and they are very under-qualified to get into 
college and go into STEM careers. Many of them haven't taken 
the classes they need, and more importantly, they haven't been 
engaged in those classes.
    In Chicago, we find that tracking--having data systems in 
place that actually track how students are doing and giving 
them--giving students information and parents information about 
what they need to do to actually end up college-ready, end up 
ready to go into a STEM career early on and then really 
monitoring them to keep them on that path makes a huge 
difference for students.
    Chairman Brooks. Thank you, Dr. Allensworth.
    My time has expired. I now recognize the Ranking Member, 
Mr. Lipinski of Illinois.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I again thank all of the witnesses for their testimony.
    Let us start with Dr. Gamoran. I know that the NRC report 
includes a wealth of information about what we need to be 
emphasizing in STEM education. and approaches to the problem 
that have been successful. Can you tell me what is being done 
to disseminate this potentially helpful information to STEM 
education practitioners or whether there are plans to further 
publicize the results of this report?
    Dr. Gamoran. Yes. The National Research Council has 
prepared a research brief, a two-page research brief which has 
been widely distributed. There was also a public event in 
Philadelphia recently which was widely covered. A large number 
of copies of the report itself has been printed. And I think I 
could call on the National Research Council to pass more 
specific information on the dissemination activities to you 
subsequently.
    Mr. Lipinski. Yeah, I would like to see that. Since we have 
this report I think it is very important to disseminate it. 
Obviously, we have a lot of--we have heard about what is 
working, what is not working. It is also a matter of really 
getting people knowing what we have learned.
    Now, one other question, Dr. Gamoran. Have you gotten any 
feedback from the community on this and if so has there been 
any ideas for follow-up research?
    Dr. Gamoran. With respect to feedback, we have received a 
great deal of positive feedback such as that which Mr. Heffron 
stated, that practitioners are affirming the findings. To some 
extent people are saying well, this is information that we 
know, and that is good because our job wasn't to do new 
research; it was to pull together the findings and evaluate the 
findings from research that is out there.
    With respect to next steps, we are getting advice that the 
study should be--or the report should be done in another five 
years or so to see what progress has been made, and that is one 
suggestion for follow up that has come up.
    Mr. Lipinski. Well, I have a general question then for 
everyone. If we--do we need to have--well, I think we need to 
have more information but the information we have out there, 
are we making use of that, of the research that has been done, 
what we have learned? Some of what Dr. Wilson said seems to 
suggest that we are simply not doing that, that there are so 
many ways in teachers' training that teachers will go from one 
course to another one, from one place to another and it is not 
reinforcing the same lessons for the teachers. It is something 
completely different. So what can we be doing better to take 
what we already know, what we have learned and really put that 
into practice? So let me start on the--Dr. Means, do you have 
any suggestions on that, what we could be doing better to 
actually put this into practice?
    Dr. Means. I think we can not only review our existing 
programs to see whether they are consistent with the research 
that we do have that is in the report, but I also think it is 
important for us to have the kind of capability they built in 
Chicago where they are gathering data along the way, looking at 
factors we know are important, things like school climate, 
things like support from the parents and communication to 
parents, whether the teachers actually collaborate and support 
each other in providing STEM. And I think having more of those 
feedback systems where you really try to build in feedback 
according to whether you are implementing the things we do know 
are effective practices would help us do a better job all the 
way up and down our education system.
    Mr. Lipinski. You are not just saying that because I have a 
systems engineering degree at Stanford, are you?
    Dr. Means. No, but I was aware that you are an engineer.
    Mr. Lipinski. Dr. Allensworth, Dr. Means mentioned Chicago. 
What--how would you respond to that?
    Dr. Allensworth. I would say Chicago is doing some things--
doing some great things but also has the same kinds of problems 
as every place else. It is very difficult oftentimes when 
people want a quick solution to really think about the theory 
of action behind the policies that are being suggested and 
whether they are likely to have a beneficial impact on schools 
and also to think about the context of different schools and 
the different kinds of supports that they will need to actually 
make those benefits happen with those policies. Too often, 
things are done quickly without thinking about the research 
evidence that is out there.
    On the other hand, Chicago has put into place a number of 
data systems which allow--which are increasingly allowing 
practitioners to base decisions on data and coming up with 
strategies that are based on where their children are and how 
they are doing in the school. And I think there is a lot of 
hope there.
    Mr. Lipinski. Anyone else want to jump in? Dr. Wilson?
    Dr. Wilson. Just to reiterate what I hear my colleagues 
saying. I think that we are at a stage right now where we have 
an opportunity because we have come to understand the need to 
think about things systemically so that it is components of 
curriculum and school culture and teacher support, that we 
don't think about those as isolated, that we need to change the 
culture of our schools, our educational system, and our 
research so that we do the kind of research that can be 
produced quickly and put into symbols--systems that become much 
more nimble about responding to that data, that we need a clear 
vision like the one that is articulated in this report about 
what teaching and learning looks like and what we are aiming 
for, and that we have articulated standards.
    I think the Common Core State Standards are going to help 
us ground our work in schools by saying that we are all 
focusing on the same thing. One of the huge problems for the 
teacher support system is that people who have been supporting 
teachers don't know what those teachers are going to have to 
teach. So the combination of those four strategies, we have 
never been in that kind of position before as a Nation and I 
think it is time to take advantage of the fact that we have 
learned that largely from school districts that have tried to 
do these kinds of things and research that has been produced in 
this sort of carnival-esque world but where we can sort out 
what the good stuff is and choose to focus on that now.
    Mr. Lipinski. Mr. Heffron?
    Mr. Heffron. So on page 27 of the report, the fifth bullet 
says, ``District should provide instructional leaders with 
professional development that helps them to create the skill 
conditions that appear to support student achievement. School 
leaders should be held accountable for creating school contexts 
that are conducive to learning in STEM.'' I would suggest that 
we remove the ``in STEM.'' If you can create a school 
environment that promotes learning and a school leader that is 
held accountable, then you can drop ``STEM'' in there, you can 
drop ``art'' in there, you can drop ``business'' in there with 
the right leadership and the right expertise. And I think that 
that is the thing that didn't show up in the next page, which 
is really what the Commission suggested we do next, and I think 
we really need to reprioritize and say, you know what? This has 
got to be a school that is run effectively, that the leadership 
is accountable to that, that there are students in that 
building who are supported and able to learn, and then you can 
drop ``STEM'' in there and it will work. And if you don't, you 
can try program--all these programs that are being tried and 
some places they work and some places they don't, they are 
going to work where there is a school culture that supports 
that learning and they are not going to work everywhere else. 
And that should be reprioritized I think.
    Mr. Lipinski. Thank you.
    Chairman Brooks. Thank you, Mr. Lipinski.
    Next, the Chair recognizes Representative Tonko of New 
York.
    Mr. Tonko. Thank you, Mr. Chair. Good morning, everyone.
    As an engineer, I am very interested in this topic. If you 
could cite for me any good partnerships with states out there, 
and is there a way to better involve states with federal policy 
to maximize the outcome here and achieve our goals?
    Dr. Means. I certainly think that is the attempt under a 
number of the Race to the Top initiatives that are going on 
now. We have a very strong STEM focus on the initiative in 
North Carolina, for example, which is really focusing on STEM 
issues and preparing the population for STEM careers and STEM-
related careers in a variety of different places. Those things 
are just unfolding now, so it is a little early to say how 
fruitful they have been, but certainly they have harnessed 
state energy and state policy. And from the leading 
universities and the Superintendent of Instruction's Office, I 
think we see a lot of action in that particular State and we 
will know better in a few years how effective it has been.
    But they are establishing a number of STEM-focused 
specialty schools, some of them focused on careers, some of 
them focused more generally, and they are watching those very 
carefully.
    Mr. Tonko. Does anyone else want to--yes, Dr. Gamoran?
    Dr. Gamoran. Well, the partnerships with states has been 
challenging because of the states' dual role in regulation and 
implementation and the challenges of gaining capacity for real 
reform at the state level. I think the Federal Government has 
provided states with extremely important tools in the 
regulatory environment of the last ten years and in the new 
approaches to school improvement grants and school turnaround. 
And I think that is a place we can look to in the future for 
the kind of progress we are talking about.
    Mr. Tonko. If I could just broaden the segue to STEM. We 
have had a lot of discussion about high schools and some about 
middle schools and developing the cultural aspects of science, 
tech, and engineering and math, but with education being like 
the whole segue, the mission of self-discovery, and at times to 
combat fear that might be developed before you even enter into 
this sphere, the role of elementary education and the training 
of elementary teachers, science and tech awareness, science and 
tech acumen at that level, introducing children to that, 
drawing forth their self-discovery, perhaps combating the fear 
factor which is subliminal, but is there a way to address some 
development in that K through six, or pre-K through seven 
discipline where we can introduce science and tech in a way 
that combats the fear factor and enhances the self-discovery of 
the student? Yes, sir, Dr. Wilson?
    Dr. Wilson. I think that there are--this is another case 
where I know of some examples of some very good programs and 
approaches, but they are local and they haven't been tested or 
tried to be spread and tested so that we know what is--what 
will spread and what will not spread. These programs tend to 
focus both on developing--there is one example, for instance, 
is the Urban Advantage Program in New York City itself where 
the cultural institutions in the city took responsibility for 
helping the schools, and one part of that work was to help them 
with the curriculum and the standards for children in those 
schools. But then they didn't just help with the development of 
curriculum standards; they also thought about what role they 
play in teacher-professional development. And in that teacher-
professional development, an important piece is also parent 
involvement. And so they work with--it is a middle school 
program, but a lot of middle school teachers tend to be 
elementary teachers who moved up to middle school, and I think 
that a lot of what goes on in urban advantage can be used to 
think about elementary.
    They think about what parents need to learn, how they need 
to be pulled in, what kind of relationship they need to have 
both with the school and with the cultural institutions in the 
city because they have a lot to do with getting people over 
fear and getting them excited about science. They think about 
the curriculum, they think about a supportive assessment system 
because there is an exit exam in the city, and they think about 
what the teachers need to know and what kind of support the 
teachers need in order to be able to pull this off.
    This is just one example but I think NSF--it is an NSF-
sponsored project, and the city of New York also sponsors it. 
But I think there are other examples like that and I think it 
is time that we found them and we invested in figuring out how 
to leverage what we have learned from them rather than asking 
for other people to reinvent the wheel.
    Mr. Tonko. Um-hum. Dr. Gamoran?
    Dr. Gamoran. Yes, I think this is a strength of NSF's Math-
Science Partnership Program which establishes partnerships 
between institutions of higher education and school districts 
with math and science educators and mathematicians and 
scientists, as well as the K-12 personnel. At the elementary 
level, a fundamental problem is that elementary teachers have 
taken very little math and even less science, and we need 
content-focused professional development, and we need to work 
with our institutions of higher learning to infuse greater 
content in the elementary education preparation programs.
    Mr. Tonko. Thank you. Mr. Heffron?
    Mr. Heffron. So I think this has been said earlier, but I 
believe the report even indicated that science is getting less 
time in elementary school. I know it is getting less time in 
middle school. It is not getting less time in our high school, 
but that is a really purposeful change that we have made. And 
when I look at our testing program in Colorado, math and 
English and reading are tested every year grades three through 
ten and science is on an every-other, every-third-year program. 
The science assessments typically aren't as strong as some of 
the other assessments in our state testing system, so I think 
it needs more time, the assessments need to be more frequent 
and better, and with those things, you will have more time 
spent and it will be better time spent. That is one other way 
that we can help get more science infused in grades K through 
six.
    Mr. Tonko. I think my time is up, so thank you.
    Chairman Brooks. Thank you, Mr. Tonko.
    Next, we have Mr. Sarbanes of Maryland.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you all for 
your testimony.
    I am going to ask you to quantify--I always do this to 
people and it is impossible for them but I am going to ask you 
to do it anyway. If 100 is where we want to be with our STEM 
education in this country like on a 100-point scale--and you 
all I think probably have a pretty good sense from the research 
you have done, so forth, where we need to be as a country in 
terms of STEM education--where were we ten years ago? I will 
start with you, Dr. Gamoran. We don't necessarily have to go 
down the whole line, but give me your best show. Ten years ago 
where were we on a 100-point scale in terms of STEM education? 
Where were we five years ago and where are we today?
    Dr. Gamoran. Well, if we take 100 as where we want to be 
with the best--the most prosperous nations in the world in the 
STEM fields and 0 is where the least prosperous nations are in 
the STEM fields, we are around 50, and we have not moved the 
needle very much in the last ten years. We have moved it a 
little, so maybe we have gone from 48 to 52. We have also 
witnessed some closing of learning gaps among different groups 
in the last ten years, but again, very small progress.
    So just as Chairman Wolf said, I think--excuse me, Chairman 
Brooks said in his first question, we have made some progress 
but it falls far short of the vast amount of progress that we 
need to make.
    Mr. Sarbanes. Does anyone on the panel differ substantially 
with that perspective? Okay.
    I would be curious to know from each of you as briefly as 
you can describe what for you was the most surprising finding 
in the report that was issued, something that kind of came out 
of the blue if there was such a thing or if you want to 
substitute for that what you consider the most noteworthy? But 
I am most interested in stuff maybe that you didn't see coming 
that kind of jumped out at you as you think about the report. 
Just pick one if you could. Why don't we start at this end, Dr. 
Means, and go in that direction.
    Dr. Means. This was not something that was new to me but I 
thought about it in a different way after being on the 
Committee. I realized that since No Child Left Behind and the 
annual testing in reading and math were implemented that 
science was getting less time. And in fact science programs I 
was studying that were very interesting were becoming more 
difficult to implement because the time was mandated for 
reading and math. And I realized that we have on the one hand 
our government saying that we think STEM education is really 
important and it is a national priority and on the other hand 
we have an accountability system that is not measuring it and 
that is undercutting efforts to do STEM education. So we 
actually have a contradiction in our national policies that is 
hurting one of our priorities.
    Mr. Sarbanes. Okay. Dr. Allensworth?
    Dr. Allensworth. This wasn't a surprise to me but it was a 
surprise in that I was happy to see that it was in the report 
so prominently, and that was the suggestion that test scores 
are not the only measure of STEM progress in our schools. You 
might be surprised--and I was surprised because there is such 
an emphasis on test scores as the only indicator of learning in 
science and math but the fact is it is not the best indicator. 
Test scores are actually not very predictive of whether 
students will go to college, enter STEM careers, and actually 
get high earnings in the workforce. There are much better 
indicators including students' engagement in the classes, 
through their grades, their interest in science and math, their 
knowledge about science and math, and their--and how to do 
inquiry. And I was very happy to see that that was in the 
report because we need to start following these other 
indicators. And these are also indicators that it is easier to 
get teachers to work around to try to improve rather than just 
the focus on test scores.
    Mr. Sarbanes. Okay, thank you. Dr. Wilson?
    Dr. Wilson. I was most happy to see the writing about 
assessments as well in large part because if we are going to 
find some way to measure teacher quality, we are going to have 
to in the end use student outcomes. And if we are going to do 
that, we need good student outcomes.
    Mr. Sarbanes. Right. Mr. Heffron? You need to put your mike 
on.
    Mr. Heffron. I was especially pleased with the first 
paragraph, ``Policymakers at the national, state, and local 
level should elevate science to the same level of importance as 
reading and mathematics.'' I think that is--that was the thing 
I was most pleased with and I think I stated earlier I was just 
surprised to see--to not see school culture and kind of 
accountability to leadership make the last page.
    Mr. Sarbanes. Okay. And Dr. Gamoran?
    Dr. Gamoran. I guess the two things that were surprising to 
me was first as Dr. Allensworth already indicated, how little 
research has been done on outcomes other than student 
achievement. I am always complaining that we don't have enough 
research on student achievement that is rigorous and it turns 
out there is even less when it comes to other outcomes. And 
especially when we are looking at young children, that has got 
to be equally if not more important.
    A second issue alluded to by Mr. Heffron is the role of 
STEM-focused leadership and leadership for learning. The 
Chicago report that Dr. Allensworth was involved with came out 
shortly before our committee began its work I think or during 
the time, and it indicates the elements of school context that 
are so important for some of the reforms that we discussed to 
take place, I think our report is able to bring those together, 
the instructional practices and the school context conditions 
discussed in the Chicago report in a way that hadn't been done 
before.
    Mr. Sarbanes. Okay. Thank you. I yield back.
    Chairman Brooks. We have enough time for additional 
questions should any of the Members wish to follow up, and in 
that regard, Mr. Lipinski has informed me that he has 
additional questions. So Mr. Lipinski, the time is yours.
    Mr. Lipinski. Thank you, Mr. Chairman. Thank you for 
allowing this time.
    I would be remiss if I didn't say that my thoughts and my 
ideas about STEM education are not only shaped by my own 
experience as an engineer but also by my wife as an actuary. 
She was a math major in college. I hear a lot back home from 
manufacturers in my district and we talk about the state of 
manufacturing in this country, we talk about lack of jobs. I 
keep hearing from local manufacturers that they cannot find 
employees that meet their basic criteria of being qualified to 
do the jobs that they are doing.
    Now, when we are talking about STEM education, I always 
think well, who are we really aiming for and is this a 
situation where we want to provide everyone--obviously--
clearly, we want to provide everyone the basics of math, basics 
of science, and basics of engineers, which to me is just a 
logical thought process. But then there are others who will go 
on to be engineers, who will go to college and major in a STEM 
field. Then there is another group who will go to graduate 
school.
    Now, are there different things that we have to do? At what 
point do these paths diverge? How do we do that because there 
is a lot of--you know, a few of you mentioned--I think 
especially Dr. Wilson--about--or maybe Dr. Allensworth about 
some students who were higher achieving--have shown higher 
achievement going off into more intense and higher levels of 
math. How does this all come together so that we are preparing 
a sort of basic level of what you need in STEM education, and 
the need for those who are going to go to college in a STEM 
field and then who are going to go to graduate school in a STEM 
field? How do we do that? Do we need to focus on--I think we 
need to focus on all of it, but that seems to add a 
complication to it perhaps. But as a general question, let me 
start with Dr. Gamoran.
    Dr. Gamoran. Well, that is a terrific question and it is a 
question that is fundamental to all areas of education, not 
just STEM. How do we set up an education system that provides 
equal opportunity for all and yet recognizes that young people 
are going to go off into different futures? What we have 
learned from research in this area is that providing rigorous 
set of curricular opportunities is essential all the way along. 
We shouldn't try to foreordain--well, this is the graduate 
student and this is the person who is going to go into a 
current technical occupation, and this is the person who needs 
to read the newspaper. We shouldn't try to foreordain those 
differences because young people surprise us. And the one who 
is not doing his homework today could be the engineer of 
tomorrow.
    So it is I believe not until the high school level really 
where we need to have a different stream of classes available 
for our most advanced students at earlier ages. We need to try 
to provide rigorous opportunities for students at all 
performance levels and of all interests. Of course, there are 
extra school activities, extracurricular camps, activities 
after school, programs, and so on that students are going to 
choose by interest. And some of the differentiation you 
describe is going to come up through that process. But with 
respect to what we are offering in schooling, we should try to 
minimize the differentiation, particularly at younger ages, and 
introduce that differentiation only at the most advanced levels 
in high school. That is my view and it is based on--this 
happens to be an area of research of mine.
    Mr. Lipinski. Thank you. Mr. Heffron, did you have----
    Mr. Heffron. Sure. I just think back to my preparation. I 
was an engineer by training as well and I didn't have advanced 
math leaving high school. I just had pre-calculus like every 
one of our students at DSST has to have. So I think you have to 
be prepared, and if you are prepared, it doesn't mean you are 
going to be STEM-going but it means you can be STEM-going. The 
other side of the equation is, of course, the interest piece. 
So if you have a student that is interested and prepared, then 
you have got a match, and it is much easier to change the 
interest side. You can change the interest side by scholarships 
like Chairman Brooks suggested. You can change the interest 
side by activities and all kinds of things, but you can't 
quickly change the preparedness piece. That happens over time 
and only really happens if you have a really clearly defined 
rigorous path from at least ninth grade and probably before.
    Mr. Lipinski. Anyone else? Dr. Allensworth.
    Dr. Allensworth. Right. It is just a really critical and 
difficult issue and it is a matter of where you are going to 
put your resources and really think it out how to do it right 
because the tendency is always to teach to the students in the 
middle. And as Dr. Gamoran was saying, we don't want to take 
away opportunities from some students just to make sure that 
others have the opportunity. But if we are going to teach 
everybody at high standards, that means the students with the 
weakest skills are going to need extra support because if they 
get frustrated, they will withdraw, they will act out, and then 
they will learn less and everyone else will learn less, which 
means they need tutors, they need extra teachers in the 
classroom depending on how the classroom is structured.
    At the same time, the students with very high achievement 
can often be ignored; they can coast and not reach their 
potential because it is easy for them. So we also need to make 
sure that we are paying attention to the students with high 
achievement to make sure they are reaching their potential 
potentially through extra opportunities.
    Mr. Lipinski. Dr. Means?
    Dr. Means. I just wanted to point out that in the report we 
set three goals for STEM education, and the second goal was to 
increase the proportion of our students who had preparation for 
STEM-related occupations. And by that we meant occupations that 
might require two years of post-secondary work or a 
certificate, and we talked about some of the research on career 
and technical education. And I think that is very important 
because for some of our adolescents, high school activities 
that aren't related to a future they can imagine for themselves 
are not very motivating. So I do think it is important for 
systems to consider these options for students who are going to 
go into STEM-related occupations but not necessarily earn a 
bachelor's or advanced degree.
    Mr. Lipinski. Thank you. Thank you again, Mr. Chairman, for 
the opportunity.
    Chairman Brooks. My pleasure.
    Mr. Sarbanes, I understand that you would like some time 
for follow-up?
    Mr. Sarbanes. I appreciate it, Mr. Chairman.
    I am the author of something called the No Child Left 
Inside Act, which is a piece of legislation we have been 
bringing forth over the last two years here, and Senator Jack 
Reed is the author of the companion piece in the Senate. And 
basically what it aims to do is strengthen environmental 
literacy across the country, finds ways to better integrate 
into the instructional program awareness of the environment, an 
understanding of it, basic literacy with respect to the 
environment, and provide funding opportunities through the U.S. 
Department of Education to support environmental literacy with 
a particular focus on how you can integrate outdoor education 
opportunities and resources in our schools.
    So the classic example would be a science teacher prepares 
the class for two or three weeks in advance of a field trip 
that is going to go to the Chesapeake Bay and take samples of 
the water to test its acidity and salinity and look at marsh 
grasses and all the rest and the class goes out for five, six 
hours and does this. Then they come back from that experience 
and they spend the next two or three weeks sort of analyzing 
the data and putting it in context and so forth. And the 
research suggests that when you integrate this kind of 
experience into the instructional program, particularly with 
respect to science classes that student achievement jumps 
significantly because the kids are just more energized by it 
and they see real-world application of what they are learning 
in the classroom.
    I wanted to get your perspectives on that as sort of an 
opportunity for helping to boost and strengthen STEM education, 
this sort of outdoor education component. And I wondered 
whether the report, in looking at some of the schools that have 
been most successful with respect to STEM education, were able 
to identify that that is a resource or opportunity that has 
been taken advantage of in some places. And anyone who wants to 
speak on this can. Yeah, Dr. Gamoran?
    Dr. Gamoran. What you are expressing is fully consistent 
with the arguments in the report, the findings and 
recommendations. In fact, I think the report would add fuel to 
your fire because we have identified students' research 
experiences as one of the keys to students'--young people's 
further interest in science. In fact, at schools like Thomas 
Jefferson or the Illinois Mathematics and Science Academy, this 
is the kind of experience that they have. And extending that to 
a broader range of students would likely be effective and 
successful.
    The approach that you are describing I think is consistent 
with the broader emphasis on importance of inquiry activities--
asking questions, gathering data, analyzing the data and 
connecting it to existing knowledge that is science. Too much 
of our science instruction is reading a textbook and memorizing 
the definitions of concepts. The kind of approach to science 
learning--I am not surprised to hear that the kind of approach 
that you are describing results in a boost in children's 
achievement. I think that is consistent with the broader 
research literature.
    Mr. Sarbanes. I just have a minute and a half. Is there 
anyone else who wants to speak to this? Yeah?
    Dr. Means. I would just say having studied environmental 
science programs that these activities can be done either well 
or poorly. It is really critical that that connection with the 
science curriculum and the analysis of data be included, that 
it not just be a matter of going outside for the day and that 
teachers need support in learning how to do this well. It is 
actually not something that all teachers are well prepared to 
do.
    Mr. Sarbanes. Yes, Mr. Heffron?
    Mr. Heffron. I would concur wholeheartedly with that and 
just suggest that all those opportunities would build our 
program and help us build. We spend a lot of time and effort 
trying to recreate those things, and I feel like there is less 
things out there that are existing for us to easily take 
advantage of and the more the better, but again, it does need 
to have a culture that supports all those things that Dr. Means 
suggested.
    Mr. Sarbanes. Dr. Wilson, did you have something?
    Dr. Wilson. I was just going to make the point that you 
cannot underestimate how much teachers need support in learning 
how to do this kind of instruction, because any good idea that 
comes into a school is often picked up enthusiastically by 
teachers, but what it takes to manage the students on such 
trips, what kinds of tools they need--the teachers need in 
order to have students actually understand what is going on, 
how to structure students' thinking, there is just a whole lot 
of stuff that we don't think about when we think of good things 
for teachers to do and ongoing support as well as the 
consequences for how the school culture has to change, teachers 
having the time to do that.
    Mr. Sarbanes. Right.
    Dr. Wilson. The assessments being in place so that they 
don't feel like they are off track.
    Mr. Sarbanes. Well, and yielding back my time I would just 
observe that one of the key components of this legislation is 
to provide resources for the kind of training that you all have 
alluded to so that it is not just a field trip and timeout from 
school; it is actually a very fully integrated experience.
    And I yield back. Thanks.
    Chairman Brooks. Thank you.
    The Chair notices that Mr. Clarke of Michigan has arrived. 
We are in our second round of questions but would you like to 
have your first round? Mr. Clarke has five minutes.
    Mr. Clarke. Thank you, Mr. Chair.
    And this question is posed to any and all Members. How can 
we enact policies that could help African American students, 
especially our young men, to get involved in STEM education? 
Here is why I say this is that right now we have got a 
challenge in the city of Detroit which really is an example of 
the problems that many big city school districts are facing 
where we have an enormously high dropout rate, especially among 
black males, yet those very men that end up dropping out and a 
lot of them end up going to prison really have an extraordinary 
potential to give a lot back to our country.

    I will give you an example. I won't use a name since this 
person is known, but there was a gentleman that I know who I 
believe sold drugs as a teenager. He was enamored with numbers. 
Well, one of his athletic coaches introduced him to economics, 
so he ended up becoming a Ph.D. candidate in economics and is 
now a tenured professor in economics at a nationally known 
institution here in this country. And he is not that old so it 
was just my estimation that he sold drugs based on the 
circumstances.
    All right, still, with me, all right, I am first-generation 
college. It was art because I used to draw pictures a lot, that 
was my gateway into education, so I have an undergraduate 
degree in painting. There are other young men that I know that 
have--that can integrate both of those, the artistic and the 
quantitative, which is exactly what we need in STEM education. 
So I wanted to share with you those anecdotes because they mean 
a lot to me.
    My last point is I grew up with guys who used to help me 
out academically when I was in middle school. One of them never 
worked a day in his life because of an incident that occurred. 
He has been emotionally disabled all of his adult life. And you 
know, it may not be a waste to him because we don't know what 
mindset he has, but his disability definitely deprives our 
country of a contribution, a contribution from that perspective 
of growing up in the inner city, which I think is so valuable 
because it helps me represent people as a whole in these 
troubled economic times because I went through some of those.
    But enough of the anecdotes. How can we get our young men 
involved in STEM who have the potential to do great things for 
our country?
    Mr. Heffron. I have an anecdote of my own. I also had the 
opportunity to teach Calc II and three of my best students are 
a Hispanic female, a Hispanic male, and an African American 
male, and they are fantastic students. They are killing it, and 
they have been good students all the way along. But there is a 
series of other students who struggled in their middle school 
and are now in calculus and in pre-calculus. And I guess I 
would go back to the point that--and I think Dr. Gamoran said 
this--we don't know which of those students is going to turn 
around and when, but if we provide the support that Dr. 
Allensworth is suggesting and the high expectations and the 
avenue to get there and some opportunities to change a math 
track or somehow reengage at a higher level when that switch 
flips, that all of those students can be college-ready and many 
of them will choose those STEM fields if there is the 
preparation. And then all of the other things outside of the 
Art For You, the Robotics class at our school, or the fields 
trips and the other STEM possibilities as they are going up to 
CU Boulder or down to the Health Science Center to really 
engage in exciting STEM-related activities that are exactly 
what Dr. Means is talking about, really legitimate science and 
math, that is what I would suggest is the solution.
    Dr. Gamoran. With all of the talk about the importance of 
teachers' content knowledge in the STEM areas, we need also to 
remember that teaching is about relationships, that having 
teachers who can establish caring relationships with young 
people and help guide them as perhaps you were nurtured in your 
school experiences is fundamental to the success of our young 
people from all backgrounds, including the African American 
males that you described.
    This is why teaching is not just a matter of knowing the 
subject; it is also about knowing how to convey that subject to 
young people and about establishing relationships and creating 
a safe and trusting environment where young people can learn 
and thrive.
    Dr. Allensworth. So I come from Chicago where we went from 
having a graduation rate of about 47 percent to now about 69 
percent. For African American males it has gone from about 30 
percent to over 50 percent at this point. Dropout rate--dropout 
is a huge problem in our inner cities, in Chicago, in Detroit, 
and other places. We have been looking at why students drop out 
and what is really critically important. As Dr. Gamoran said, 
relationships are key. What makes for a trusting relationship? 
It is that students get the support they need when they need 
it. Students withdraw when they feel like they can't succeed or 
they have gotten further behind and they don't know how to 
catch up.
    Schools that actually get more students to graduate and get 
them through their classes are schools where teachers closely 
monitor students. When a student is absent, they call home that 
day. They don't let a student get away with being absent for 
two weeks. Schools that have structures that are set up to 
actually track absences and make sure kids are coming right 
away get them back on track, have better-than-expected absence 
rates, they have better-than-expected grades and pass rates. 
And actually having teachers keep up with their grades and as 
soon as a student's grade slips, reaching out to the student, 
reaching out to the parent, finding out why their grade is 
slipping and getting that student back on track. It means 
having people in the school monitoring so that when a student 
gets an F, they call the parent, they call the teacher, they 
call the student into a conference and they figure out what 
needs to happen to get that student back on track.
    When students feel like their teachers know when they are 
struggling and want them to succeed, they trust their teachers. 
When students feel like they are struggling and they don't know 
how to succeed and they don't know why they are getting bad 
grades, they don't trust their teachers, they get angry, they 
think their teachers are unfair, and they withdraw and it 
becomes this negative cycle that builds and builds. The key is 
monitoring and support and having systems in place so that it 
is easy for teachers in schools to monitor kids and give them 
the support they need when they need it.
    Mr. Heffron. Can I just follow up with that really quick? I 
think that is perfect. In our school, what that looks like is 
each teacher is an advisor of roughly 15 students and so every 
week those teachers and advisors meet. It is called house 
meetings and there are 50 to 60 students that they are teaching 
all the same classes for and being advisors for. Who is 
struggling this week? Why is that? Is this ongoing? What have 
we tried already? Who has called home? Who is the teacher? Who 
is the advisor that knows this student best? Who is their 
support person? What do the parents say? Does the dean know 
about this? I think that is exactly what we are talking about 
and that is when I would go back to that whole culture piece 
around building a school condition that supports learning.
    Chairman Brooks. Mr. Clarke, you would like some follow-up 
time, feel free.
    Mr. Clarke. Thirty seconds, Mr. Chair, if you will.
    Chairman Brooks. Feel free.
    Mr. Clarke. Thank you. Thank you, Mr. Chair.
    That advisory concept, where did you get that from?
    Mr. Heffron. My understanding--because I didn't create the 
advisory structure. It was created before I came to our 
organization in its second year. But my understanding is that 
was kind of a meld from kind of the private school model and 
some of the other highly successful charter schools on the East 
Coast.
    Mr. Clarke. All right. Because we have an advisory 
structure in schools that are in the University Prep--this is a 
charter school in Detroit, which I think is effective, too. In 
fact, the model is some type of a homeroom that has 15 students 
and where that one instructor actually is that mentor. And the 
key is here is that many students now, they don't have any 
parental supervision or support in the home in the sense that 
maybe that advisory structure in some way could provide that 
nurturing that is not in the home or at least in support of the 
value of education. Any if you just remember even when you 
are--if you were first generation college back in the old days, 
your parent even though they didn't go to school or may not 
even--couldn't even speak or read, but they would value 
education precisely because they didn't have the opportunity to 
get that. You know, now in the inner city at least where I am 
from you have a lot of the parents who themselves need not only 
education but an education in the value of education so they 
could pass that onto their child.
    Mr. Heffron. So that is exactly what the advisory program 
is for, and when a new teacher joins our school, I tell them if 
you are an advisor you are really that student's parent at 
school. And sometimes what happens is that advisor may actually 
be picking that student up and bringing them to school. I mean 
it has gone to that level where a kid is--this kid can make it 
but for whatever reason this kid can't get to school. And so 
that person is providing that support that is necessary to get 
that student to school so that they can learn.
    Mr. Clarke. Mr. Chair, I just want to make a comment that I 
think that this could be a feature that could be replicated in 
all of these urban schools, this type of advisory structure. I 
think it could work. I want to just put that out there on the 
record. That is something I would support. I do look at the 
reality right now of how these kids are not being raised many 
times in their home even if they actually have a home that you 
would call it that.
    Chairman Brooks. Thank you, Mr. Clarke. You managed to get 
your time for first round and second round in all at once.
    With that, I want to thank the witnesses for the time that 
you have spent with us and also the Members for their 
questions. The Members of the Subcommittee may have additional 
questions for the witnesses, and if so, we would ask you to 
respond to those in writing. The record will remain open for 
two weeks for additional comments from the Members.
    The witnesses are excused and this hearing is adjourned.
    [Whereupon, at 11:44 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Adam Gamoran, Director,
Wisconsin Center for Education Research, University of Wisconsin

Questions submitted by Chairman Mo Brooks


Q1.  You highlight the need for NSF to fund basic and applied STEM 
education research, but then mention gaps in basic research and the 
ability of the Department of Education's Institute of Education 
Sciences to do applied research. Is it really necessary for NSF to be 
funding any applied STEM education research, or should they focus 
funding solely on the fundamental research questions of ``how teachers 
and students learn, what motivates learners, and what conditions 
support the development of high-quality teachers.'' Why or why not?

A1. NSF plays a crucial role in supporting basic research that lays the 
foundation for improving K-12 STEM education. Moreover, a productive 
division of responsibility may be emerging in which IES pursues a 
mission that is largely applied, while basic research remains the 
province of NSF. Yet there are two reasons why, in my opinion, NSF 
should continue to fund applied as well as basic research.

    First, research on education is most productive when it reflects a 
dynamic relationship between basic and applied studies. When 
successful, basic studies yield insights whose relevance to the real 
world must be tested in applied work. As an example, consider NSF's new 
program in Cyberlearning: Transforming Education, a collaborative 
effort among several directorates. The mission of this program is ``to 
integrate advances in technology with advances in what is known about 
how people learn to

    <bullet>  better understand how people learn with technology and 
how technology can be used productively to help people learn, through 
individual use and/or through collaborations mediated by technology;
    <bullet>  better use technology for collecting, analyzing, sharing, 
and managing data to shed light on learning, promoting learning, and 
designing learning environments; and
    <bullet>  design new technologies for these purposes, and advance 
understanding of how to use those technologies and integrate them into 
learning environments so that their potential is fulfilled.'' (See: 
http://www.nsf.gov/funding/pgm--summ.jsp?pims--
id=503581&org=EHR&from=home )

    In this instance, findings about how people learn with technology 
and how effective learning environments can be designed achieve their 
ultimate aim when researchers ``design new technologies'' and 
``integrate them into learning environments.'' Moreover, there is a 
feedback loop from applied back to basic research as it is common for 
applied settings to reveal unanticipated challenges that lead back to 
the laboratory. Thus, basic and applied research are interrelated and a 
funding stream that supports both goals is appropriate.

    A second reason for continuing applied research at NSF rather than 
yielding this ground entirely to IES is NSF's distinctive focus on 
STEM. Consistent with broader federal education aims, literacy and 
mathematics teaching and learning capture much of the IES portfolio. 
IES does support research on science teaching and learning, but to the 
best of my knowledge there are no IES-funded studies of engineering 
education, nor of technology education (as opposed to research on the 
use of technology in teaching and learning, which is well represented). 
IES is mainly interested in studies of learning and achievement, but 
the Successful STEM report identified outcomes other than test scores 
as an important gap in our knowledge. IES-supported research tends to 
focus on formal K-12 schooling, but NSF-supported research on learning 
science in informal environments may turn out to be crucial as 
investigators try to find ways of capturing student interest in science 
at early ages and maintaining it throughout the schooling years. For 
these reasons, also, applied as well as basic research at NSF will 
continue to point towards improvements in K-12 STEM teaching and 
learning.

Q2.  You testified that it is difficult to determine ``the extent to 
which a school's success results from any actions the school takes, or 
the extent to which it is related to which students are enrolled in a 
school.'' You say research designs to address this challenge are 
available, but have only recently started being used. How soon can we 
expect to see the results of this research.

A2. In my judgment we are 5-10 years off from widespread findings that 
address this challenge.

    On the one hand, results from this type of research are already 
emerging. For example, the What Works Clearinghouse at http://
ies.ed.gov/ncee/wwc/ has reviewed the results of rigorous analyses of 
33 interventions in mathematics education. Of these, ten have shown 
evidence of effectiveness. As of yet, however, no studies have been 
reviewed in science education, nor in engineering or technology 
education.

    On the other hand, the fact that this type of research is 
relatively new means that we are just beginning to confront the 
problems it reveals--particularly problems of implementing and scaling 
up effective programs. IES has funded a number of large-scale studies 
that use rigorous designs to assess program impacts, including some 
that address learning in mathematics. For example, the national study 
of educational technology carried out by Mathematica included a focus 
on middle and high school mathematics ( http://www.mathematica-mpr.com/
education/edtech.asp#pubs ). This study, like several others, concluded 
that the programs assessed were ineffective at raising student 
achievement, even though the programs had been shown to be effective in 
smaller-scale studies. (Other such national studies include Reading 
First, tutoring under No Child Left Behind, charter schools, and so 
on.) This points towards scaling up effective programs as a major 
challenge and calls for further investigation of the scaling up 
process.

    Similarly in my own NSF-funded work, my colleagues and I found that 
a large-scale roll-out of ``science immersion,'' a sustained, inquiry-
oriented science program in grades four and five, failed to elevate 
achievement scores as expected. We have now been able to pinpoint the 
problem to incomplete implementation in the classroom: teachers engaged 
in the first two steps in the inquiry cycle (asking questions and 
gathering data) but did not follow through to connecting the data to 
scientific knowledge nor to justifying and communicating scientific 
explanations. Without the connection to domains of scientific 
knowledge, it is not surprising that student learning of science 
content did not increase. Like the study of educational technology, our 
research suggests that although we can design effective classroom 
programs, we are often unsuccessful in implementing these programs in 
large numbers of schools and classrooms. Our findings offer important 
contributions for future efforts to design innovative science education 
programs that can be brought to scale.

    The challenges of implementation and scale up mean that although 
the findings from research designed to disentangle program effects from 
selection are already beginning to emerge, findings that reveal large 
positive effects when taken to scale remain elusive. A few studies of 
comprehensive programs have yielded this sort of evidence (for example, 
the four programs funded for Scale-Up awards under the Department of 
Education's Investing in Innovation program), but it will take several 
more years for such studies to become widespread. Several conditions 
are contributing to the expansion of such research, including IES 
predoctoral and postdoctoral training programs, the establishment of a 
new scientific society on effectiveness research in education, a new 
academic journal with the same focus, the increasing salience of the 
What Works Clearinghouse, and more widespread understanding generally 
in both NSF and the Department of Education on the importance of using 
appropriate research designs to support causal conclusions. Thus, there 
is reason for optimism in the future.
Responses by Mr. Mark Heffron, Campus Director,
Denver School of Science and Technology, Stapleton Campus

Question Submitted by Chairman Mo Brooks

Q1.  How do you ensure that your teachers are highly qualified to teach 
STEM courses at DSST? What pre-service training do you require? What 
in-service training do you provide?

A1. We go through a rigorous screening process requiring the following:

    <bullet>  Teaching candidates submit resume, cover letter and 
college transcripts that indicate background teaching experience and 
course material taught.
    <bullet>  We require teachers to prepare a sample lesson plan for a 
desired topic and then teach a sample lesson, either at our school or 
provide a video tape of the lesson being taught.
    <bullet>  We require attendance at a 3-5 day teacher induction 
program before any classes are taught that orient new staff to our 
mission, vision, curriculum and assessment program and school culture.
    <bullet>  Approximately every-other week, we provide 2-3 hours of 
collaborative planning time or Professional Development time with a 
department chair, or teaching partner. We require each new teacher to 
collaboratively plan and create common lesson plans and assessments 1-3 
hours per week.
    <bullet>  Each new teacher receives additional organizational 
professional development for 2-3 hours per month.
    <bullet>  As an organization, we ensure that all teachers meet the 
highly qualified teacher requirement, per applicable state law.

Q2.  According to your testimony, last year DSST operated the highest 
performing middle school and high school in Denver. Your testimony 
highlights many aspects of your program, from specific classes to 
school culture. We are interested in what makes your students and 
schools outperform other schools in the area. If someone were looking 
to replicate your results what are the key elements to take into 
account?

A2. 

    <bullet>  Hiring and retaining high achieving staff members that 
are committed to the success of each student no matter the student's 
introductory skill level and motivation.
    <bullet>  Setting high expectations with a rigorous academic 
program that provides less student choice and more focus on required 
college preparatory coursework. (We require 5 1/2 yrs of science and a 
minimum of pre-calculus for all graduates.)
    <bullet>  Heavy focus on math and science in 9th grade-Algebra-
based physics, along with at least Algebra/Geometry in the 9th grade to 
provide a strong math background in the 9th grade year.
    <bullet>  Our culture focuses on college from day one (for the 
majority of our students, that means 6th grade). Each student 
understands the expectation that they will be prepared and ultimately 
accepted to a four-year college or university. The school culture 
celebrates college success in all grades with college trips, return 
visits from Alumni and college celebrations that mimic what other 
schools might do to celebrate athletic success. It is cool to be smart 
and going to college at DSST.
    <bullet>  A relentless commitment that each individual (student and 
staff matters) with accountability and support systems in place to 
insure that students will not move on unless they are prepared for the 
next grade and tutoring and support classes to insure that they will 
not fail a class and ultimately be held back from advancing to the next 
grade without extraordinary efforts from peers and teachers and 
administrative efforts to remediate skill deficits.
    <bullet>  A high degree of support for first generation college-
bound students and their families.

Q3.  What unique and various challenges in STEM education exist for 
teaching and learning between the middle and high school grades, and 
how are they being addressed?

A3. 
    <bullet>  Attracting and retaining highly qualified STEM teachers 
remains a significant challenge. The hiring pool is smallest in the 
most certain science fields especially at the high school level, for 
courses such as Advanced Chemistry and Physics. These subjects also 
have the greatest turnover, as we have seen more of these teachers 
leave for higher paying careers.
        <bullet>  We continue to improve our induction and professional 
development programs. Our support has improved. We do not have funding 
to combat the market demands at this time.
    <bullet>  It is challenging to find and/or create specific 
engineering curriculum (especially at the middle school and early high 
school grades) that is engaging to students, teaches engineering 
principles and is well aligned to the math preparation of grades 6-10.
        <bullet>  We are in the first year of a 9th grade STEM design 
course at our Stapleton High School Campus (the school that I lead). We 
are creating much of the curriculum. Once the first year of this course 
is complete, we may move to replication at other campuses, possibly 
lower grades depending on our experience.
    <bullet>  Our focus on a college preparatory curriculum with a math 
and science emphasis is considerably more rigorous than most 
surrounding schools in the district. We are a public charter school and 
not a magnet school by design to serve an underserved, under prepared 
and underrepresented future STEM workforce. We have greater attrition 
than magnet schools as student enter wanting a high quality college 
preparatory education but may choose to leave our school and attend a 
less rigorous school as they learn what is required to truly be 
prepared for STEM college degrees. (Our attrition rates are better than 
those in traditional Denver Public high schools.)
        <bullet>  We don't presently have a solid answer to this 
challenge at the MS or HS level. Our currents efforts are focused on 
continuing to refine our support and intervention systems to help 
remediate students with low skills. There is no substitute for success 
and we absolutely find that students who experience success, even with 
greater effort, are more likely to stay in our STEM program. We now 
have three middle schools in our organization and within the next two 
years, we will open two more. The middle school program is essential to 
build the required foundational skills to be successful in rigorous 
STEM high schools.


Q4.  What is the role of the local school administration, community, 
parents, teachers, students, and various government entities in 
creating these model schools and programs and in sustaining them?

A4. 

    <bullet>  Hiring, training and retaining school leaders and 
administrators that have the skill and drive to create high 
accountability school cultures.
    <bullet>  Create funding sources that can be used to incent schools 
and teachers that produce outstanding student achievement in STEM 
subjects.
    <bullet>  Provide funding (through grants or otherwise) that can be 
used to hire staff and/or pay for programs that leverage parent and 
community resources in STEM fields for things such as:

        <bullet>  STEM tutoring
        <bullet>  Robotics and other STEM afterschool programs
        <bullet>  STEM field trips
        <bullet>  Academic Elective teachers (from Industry) that are 
qualified to teach cutting edge STEM electives that will interest and 
prepare students for STEM fields
Responses by Dr. Elaine Allensworth,
Senior Director and Chief Research Officer,
Consortium on Chicago School Research, University of Chicago

Questions submitted by Chairman Mo Brooks

Q1.  Dr. Gamoran highlighted the need for NSF to fund basic and applied 
STEM education research, but then mention gaps in basic research and 
the ability of the Department of Education's Institute of Education 
Sciences to do applied research. Is it really necessary for NSF to be 
funding any applied STEM education research, or should they focus 
funding solely on the fundamental research questions of ``how teachers 
and students learn, what motivates learners, and what conditions 
support the development of high-quality teachers.'' Why or why not?

A1. Both types of research provide useful information, and can be 
complementary. Applied research is most useful when designed in a way 
to answer broad questions that are generalizable beyond the specific 
application. For example, rather than simply examining whether a policy 
or program works, asking how it worked and under what conditions, makes 
the research much more useful, since it is rare that a program is 
implemented in the same way over time or in different places. Just 
doing basic research is also eventually insufficient, because it is 
difficult to translate to practice. School practitioners need to know 
what worked and why and see models of changing practice to guide their 
own efforts.

Q2.  When discussing the curriculum standards changes implemented in 
Chicago, the three negative effects--low-skilled students with slightly 
higher failure rates, system-wide graduation rates declining, and 
college entrance declines for high-skill students--are a trio of 
challenges other systems need to be sure not to replicate. Now that the 
common core of standards is gaining momentum, how can schools and 
systems looking to implement new standards and curricula steer clear 
from making similar mistakes to those experienced in Chicago, 
especially in STEM subject areas?

A2. This is absolutely a critical question at this point in time, if 
the potential of the common core standards are to be realized. First, 
we need to recognize that with expansion of challenging college-
oriented curricula to all students, there is the real possibility of 
reducing the math and science preparation of the highest-achieving 
students, who are also the students most likely to go into STEM 
careers. In fact, because other students have such a low likelihood of 
entering STEM careers compared to high-achieving students, expanding 
math and science opportunities for other students at the expense of the 
opportunities for high-achieving students can easily result in fewer 
students overall entering STEM careers. One reason for the decline in 
opportunities for high-achieving students that can occur with an 
increase in overall standards is the lack of teaching capacity for 
high-level math and science classes. This can result in a reduction in 
the classes available to advanced students (e.g., eliminating pre-
Calculus/Calculus so that there are enough sections of Algebra II for 
all students), or shift in the courses available (enrolling all 
students in Earth Science/Bio/Chem instead of Bio/Chem/Physics because 
it is easier to find Earth Science teachers than physics teachers). It 
can also lead to a lowering of the expectations in math/science classes 
as teachers who are used to teaching high-achieving students have 
difficulty teaching to students who enter their classes with weaker 
academic skills. There is a risk that if teachers do not know how to 
teach the new standards to students without strong academic skills--
because they have not learned strategies for teaching to students with 
weak skills--students will withdraw in frustration and be more likely 
to withdraw effort and fail, lowering their own achievement and the 
quality of instruction for the class as a whole.

    This suggests several issues that schools will need to consider as 
they increase curricular standards. First, they need to closely monitor 
the opportunities for high-achieving students, to ensure that they 
continue to enroll in the same degree of high-level math and science 
classes as they would have before the new standards were implemented. 
Schools may need additional resources to be able to offer more classes 
overall without reducing the classes that are currently available for 
some students. Second, teachers will need help expanding instruction in 
high-level math and science topics to students with weak skills, and 
students will need support handling the difficult material. This goes 
beyond curricular support, to assistance in pedagogical practice and 
skills in behavior management. Even the best curriculum is not 
effective if teachers can't get through the lessons and students are 
not engaged in learning.

    Our research in Chicago has highlighted the key importance of 
monitoring students closely, and reaching out to provide support 
immediately if they start to fall behind (e.g., missing class, not 
turning in homework, doing poorly on a quiz/test). Often teachers and 
schools wait to respond until students are too far behind to catch up. 
We have seen some schools in Chicago show success by having co-
teachers/tutors in the classroom to help students during class while 
the primary teacher attends to the rest of the class. Another strategy 
that has been successful in Algebra has been to provide a second period 
of instruction for students with weak skills, structured to help them 
handle the material in the primary class. This benefits students with 
high skills, as well, since their classroom peers with weak skills 
don't hold back instruction. The What Works Clearinghouse has noted 
that two programs--Check and Connect and ALAS--were successful 
mentorship programs; mentors with these programs closely monitored 
students' course performance to provide support right away when 
students fell behind.

Questions submitted by Ranking Member Daniel Lipinski

Q1.  Mr. Heffron described an advisory structure in place at the 
Stapleton High School that appears to be an effective mechanism for 
providing support to students in his school. I'm interested in learning 
more about the effectiveness of advisory groups, and how successful 
models like those at Stapleton High School can be implemented in other 
schools across the country. What is the current state of research on 
the topic, and what does research tell us about what makes a successful 
sdvisory group structure?

A1. Advisories are in wide use in many schools across the country. 
There are some successful programs that use advisories effectively, and 
they can be a great tool for providing support to students. However, 
the way that advisories are implemented is important. Simply 
incorporating an advisory into a school's programming is not 
sufficient. In fact, it can take away from instructional time if it is 
not designed in a way that supports students' performance in their 
academic classes and their overall engagement at school.
Responses by Dr. Barbara Means, Director,
Center for Technology in Learning, SRI International

Questions submitted by Chairman Mo Brooks

Q1.  Dr. Gamoran highlighted the need for NSF to fund basic and applied 
STEM education research, but then mentioned gaps in basic research and 
the ability of the Department of Education's Institute of Education 
Sciences to do applied research. Is it really necessary for NSF to be 
funding any applied STEM education research, or should they be focusing 
funding solely on the fundamental research questions of ``how teachers 
and students learn, what motivates learners, and what conditions 
support the development of high-quality teachers.'' Why or why not?

A1. I respectfully disagree with the proposition that NSF should focus 
on basic STEM education research while IES conducts applied research in 
this field. The two central arguments I offer for my position are that 
(1) there is an important category of STEM education research that 
addresses both basic and applied questions and that is best housed 
within NSF and (2) connections to disciplinary expertise and new 
advances in STEM fields are essential elements of the kind of STEM 
education research needed to support dramatic improvements to our 
current practice.

    Basic research on ``how teachers and students learn, what motivates 
learners, and what conditions support the development of high-quality 
teachers'' typically focuses on how individuals learn. But the problems 
of education concern how to promote learning in the contexts of groups 
of students and educators. Understanding ``how teachers and students 
learn, what motivates learners, and what conditions support the 
development of high-quality teachers'' requires studying these 
phenomena in applied contexts, and we are unlikely to find answers 
without deep knowledge of how various interventions and practices are 
adapted in schools and classrooms. These basic questions need to be 
studied in realistic environments, not just university laboratories.

    Professor Donald Stokes, in his 1997 book Pasteur's Quadrant, lays 
out a more differentiated categorization of research efforts than the 
traditional dichotomy of basic versus applied. He suggests that 
research can be described as either low or high in terms of two 
dimensions: relevance for the advancement of knowledge and relevance 
for immediate applications. By crossing these two dimensions he creates 
four ``quadrants'' or categories of research and names three of the 
quadrants after scientists whose work exemplified that category. Bohr's 
Quadrant consists of work that searches for fundamental knowledge with 
little concern for immediate applicability--essentially what is often 
called ``basic research.'' Edison's Quadrant is work that is high in 
immediate applicability but low in the advancement of new knowledge--
the kind of problem solving work that many people think of as applied 
research. Pasteur's Quadrant consists of research designed to both 
build fundamental knowledge and have high practical applicability. The 
questions motivating research in Pasteur's Quadrant arise from practice 
(Pasteur's own work on bacteria was inspired by concerns of the French 
wine industry), but the research is designed to yield generalizable 
insights as well as to address the immediate problem at hand. In 
reviewing the history of NSF, Stokes asserted that the agency added the 
most value by supporting work in Pasteur's Quadrant. What I described 
as STEM education implementation research in my testimony would fall 
into Pasteur's Quadrant because of its emphasis on research activities 
addressing questions that arise from practice.

    Russ Whitehurst, the first Director of the Institute of Education 
Sciences, described the Institute's mission and his understanding of 
its statutory authority as lying within Edison's Quadrant (http://
ies.ed.gov/director/speeches2003/04_22/2003_04_22a.asp). And indeed, 
IES specializes in rigorous, large-scale experiments on the 
effectiveness of well-defined, existing educational interventions.

    In contrast, the STEM education work sponsored by NSF is intended 
to exemplify Pasteur's Quadrant. The work is carried out in applied 
settings and peer review of proposals focuses on the two criteria of 
building significant new knowledge for the field and likely practical 
benefit to STEM education.

    An insight into the difference between the two agencies' respective 
research sponsorship capabilities--both of which are valuable to our 
nation--can be gleaned from their two catch phrases. IES is best known 
for the phrase ``what works'' (as in the ``What Works Clearinghouse''), 
whereas NSF is best known for the phrase ``transformative potential'' 
(as in NSF's fundamental role in creating the Internet). To appreciate 
the importance of the latter, think back to the late 1980s. At that 
time, economic researchers were finding no measureable productivity 
gains from the rapid influx of technology into the workplace. We had no 
evidence that technology was ``what works'' to stimulate productivity, 
yet in hindsight we can now see that the Internet had vast 
transformative potential that could be released only after 
organizations changed their processes to take advantage of that 
potential. Despite the lack of ``what works'' evidence, NSF was right 
to keep investing in the transformative potential of the Internet. STEM 
education today needs not only to sort out which of the currently 
available well-defined products or approaches do indeed ``work'' but 
also to invest in the development and refinement of new approaches with 
transformative potential to make vast improvements in STEM education.

    I see NSF and IES as having complementary roles with respect to 
STEM education research. IES focuses on research designed to identify 
causal relationships between education interventions and student 
outcomes. Such work is appropriate for programs that are well-defined 
and broadly implemented. IES tests interventions that can be tightly 
defined and scoped at proposal time. The NSF review process, on the 
other hand, seeks far-reaching advances that can emerge from the mutual 
influence of powerful ideas and insights from design research in 
realistic settings and is willing to fund investigations even when the 
resulting educational product cannot be precisely defined and scoped at 
proposal time. This latter kind of work--which will be essential if we 
are to make the kinds of breakthroughs in terms of improving STEM 
education that the Subcommittee on Research and Science Education and 
the National Research Council have called for--is the strong point of 
NSF.

    NSF STEM education research is intended to promote the design and 
refinement of new education approaches. Its focus on innovation and 
building new knowledge means that these approaches are being tried out 
and modified in applied settings and, typically, are not yet ready for 
the kind of large-scale randomized control trials that IES sponsors. 
For these approaches to be truly innovative, NSF must be freed to 
conduct research in ``applied'' settings so the field can learn which 
designs, theories, and approaches have promise for unlocking 
transformative potential in real schools and classrooms.

    This brings me to my second point. Conducting Pasteur's Quadrant 
education research in STEM subject areas requires not just social 
scientists but also STEM professionals and educators. Although there 
are many insights into how teachers and students learn, what motivates 
learners, and what conditions support the development of high-quality 
teachers that cut across different subject domains, there are aspects 
of these questions that are manifestly different in various STEM 
fields. We cannot prepare students for careers in new areas of science, 
such as bioinformatics, without a deep understanding of emerging 
practices in those fields. NSF takes a more lifelong view of STEM 
education (encompassing postsecondary as well as secondary education) 
than IES does and has ties to the communities of research scientists, 
mathematicians, and computer scientists that the Department of 
Education cannot duplicate. NSF's Cyberlearning: Transforming Education 
program, for example, is sponsoring exploratory, implementation, and 
deployment research that combines cutting-edge advances in computer 
science with advances in our understanding of how people learn. In its 
first year, this research program was inundated with proposals from 
multi-disciplinary teams including some of the most prestigious 
computer science departments in the country.

    In short, I believe that it is extremely important that NSF 
continue to provide leadership and research funding in areas of STEM 
education that many would label ``applied research,'' but that are more 
aptly characterized as the intersection between knowledge building and 
discovering the transformative potential needed to address the 
practical, yet deeply challenging, problems of STEM education practice.

                                <all>




</pre></body></html>
